<html>
<title> - EPA'S RESPONSE TO 9/11 AND LESSONS LEARNED FOR FUTURE EMERGENCY PREPAREDNESS</title>
<body><pre>[Senate Hearing 110-1097]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1097
 
    EPA'S RESPONSE TO 9/11 AND LESSONS LEARNED FOR FUTURE EMERGENCY 
                              PREPAREDNESS

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON SUPERFUND AND ENVIRONMENTAL HEALTH

                                 of the

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 20, 2007

                               __________

  Printed for the use of the Committee on Environment and Public Works


   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
         committee.action?chamber=senate&committee=environment

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
61-970                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1f786f705f7c6a6c6b777a736f317c707231">[email&#160;protected]</a>  


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         LARRY E. CRAIG, Idaho
BERNARD SANDERS, Vermont             LAMAR ALEXANDER, Tennessee
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director
                              ----------                              

           Subcommittee on Superfund and Environmental Health

               HILLARY RODHAM CLINTON, New York, Chairman
MAX BAUCUS, Montana                  LARRY CRAIG, Idaho, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         CHRISTOPHER S. BOND, Missouri
BARBARA BOXER, California, (ex       JAMES M. INHOFE, Oklahoma, (ex 
    officio)                             officio)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 20, 2007
                           OPENING STATEMENTS

Clinton, Hon. Hillary Rodham, U.S. Senator from the State of New 
  York...........................................................     1
Craig, Hon. Larry, U.S. Senator from the State of Wyoming........     4
Boxer, Hon. Barbara, U.S. Senator from the State of California...     5
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     7
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     9

                               WITNESSES

Connaughton, James L., Chairman, Council on Environmental Quality    43
    Prepared statement...........................................    45
Bodine, Susan Parker, Assistant Administrator, Office of Solid 
  Waste and Emergency Response, U.S. Environmental Protection 
  Agency Accompanied by: George Gray, Assistant Administrator, 
  Office of Research and Development, U.S. Environmental 
  Protection Agency..............................................    46
    Prepared statement...........................................    47
    Responses to additional questions:
        Senator Inhofe...........................................    51
        Senator Clinton..........................................    54
Rodenbeck, Sven, SC.D., P.E., BCEE, Captain, U.S. Public Health 
  Service, Deputy Branch Chief, Agency for Toxic Substances and 
  Disease Registry, U.S. Department of Health and Human Services.    76
    Prepared statement...........................................    77
    Responses to additional questions from Senator Inhofe........    79
Stephenson, John B., Director, Natural Resources and Environment, 
  U.S. Government Accountability Office..........................    81
    Prepared statement...........................................    83
Lavin, Nina, Resident............................................   142
    Prepared statement...........................................   144
Newman, David M., M.A., M.S., New York Committee for Occupational 
  Safety and Health..............................................   148
    Prepared statement...........................................   150

                          ADDITIONAL MATERIAL

Court Document, U.S. District Court for the Southern District of 
  New York....................................................... 12-40
Letter to Hon. Deborah Glick, Assembly District #66 from 
  Commissioner Thomas R. Frieden, MD., Department of Health and 
  Mental Hygiene.................................................    41
EPA National Approach to Response, Crisis Communications Plan for 
  Incidents of National Significance, July 24, 2007.............. 63-75
ATSDR Fact Sheet.................................................    99
NSF PR 03-09-January 20, 2003, Scientist Find Geochemical 
  Fingerprint of World Trade Center Collapse Recorded in New York 
  Harbor Sediments...............................................   104
EOS, Transactions, American Geophysical Union....................   106
USGS, Determination of a Diagnostic Signature for World Trade 
  Center Dust Using Scanning Electron Microscopy Point Counting 
  Techniques, by Gregory P. Meeker, Amy M. Bern, Heather A. 
  Lowers, and Isabelle K. Brownfield............................111-128
Article, Journal of Asthma, June 2007...........................132-140
Presidential Decision Directive-62...............................   163


    EPA'S RESPONSE TO 9/11 AND LESSONS LEARNED FOR FUTURE EMERGENCY 
                              PREPAREDNESS

                              ----------                              


                        WEDNESDAY, JUNE 20, 2007

                               U.S. Senate,
         Committee on Environment and Public Works,
                            Subcommittee on Superfund and  
                                      Environmental Health,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Hillary Rodham 
Clinton (chairman of the committee) presiding.
    Present: Senators Clinton, Craig, Boxer, Inhofe, and 
Lautenberg.

STATEMENT OF HON. HILLARY RODHAM CLINTON, U.S. SENATOR FROM THE 
                       STATE OF NEW YORK

    Senator Clinton. The hearing will come to order.
    I want to welcome all of you. We are expecting votes, and 
there was a lot of scrambling around, trying to decide whether 
we would start the hearing and then go vote or vote and then 
start the hearing. So some of my colleagues who will join me 
later will try to figure out the time has been changed, so 
we're not sure exactly when the vote will occur. But we want to 
go ahead and get started.
    I thank you all for being here. I know there are a number 
of New Yorkers in the audience. I welcome all of you: Kimberly 
Flynn, Joseph Jones, Jenna Orkin, Marvin Bethea, Barbara Einzig 
and everyone else.
    This is the first hearing of the Subcommittee on Superfund 
and Environmental Health. It is entitled EPA's Response to 9/11 
and Lessons Learned for Future Emergency Preparedness.
    Also in the audience is my friend and colleague and someone 
who has been a real leader on these issues, Congressman Jerry 
Nadler.
    This follows a hearing that I chaired in the HELP Committee 
earlier this year in March to address the urgent health needs 
of the thousands of first responders, workers, volunteers and 
residents who have suffered illnesses because of the toxins to 
which they were exposed following the attacks of 9/11. It is a 
companion hearing to the one that Congressman Nadler will hold 
on the House side next week.
    We will first hear testimony from a Federal panel that 
includes EPA, the White House Council on Environmental Quality, 
the Agency for Toxic Substances and Disease Registry, and the 
Government Accountability Office. We will then hear from a 
panel that includes a New York City resident and a scientific 
expert, both heavily involved in 9/11 contamination issues.
    I am delighted to be joined by the Ranking Member on this 
committee, Senator Larry Craig. Thank you very much, Senator 
Craig, for coming. My Chairman of the full committee, Barbara 
Boxer, as well as my friend and colleague, Senator Lautenberg. 
I really appreciate each of their interest in this issue. Of 
course, Senator Lautenberg and I share many constituents who 
have been suffering and even dying because of their exposures 
to the toxins at and around Ground Zero.
    I called this hearing because it is time for answers. 
Nearly 6 years after 9/11, we still don't have the whole truth 
about the toxic cloud of poison that filled the air after the 
towers fell. We don't have an explanation for the 
misrepresentations that put countless people at risk of 
exposure to chemicals that we know are causing illness and 
death.
    When we turned to our Government in Washington for guidance 
in the hours, days and weeks after that tragedy, one of the 
questions people asked was obvious and important: is the air 
safe. What did EPA tell us? On September 18, 2001, Governor 
Whitman said, ``I'm glad to reassure the people of New York and 
Washington, DC., that their air is safe to breathe and their 
water is safe to drink.''
    Now, based on EPA's statements, parents sent their children 
to school in the area, residents returned to their apartments. 
But as the EPA Inspector General informed us in 2003, the EPA's 
statements were ``not supported by the data available at the 
time.''
    Now, I recognize that EPA and everyone else involved were 
operating under unprecedented and extremely difficult 
circumstances. But I simply cannot accept what appears to have 
been a deliberate effort to provide unwarranted reassurances at 
the direction of the White House to New Yorkers about whether 
their air was safe to breathe. I well remember my first visit 
to Ground Zero, the day after 9/11. You could feel it on your 
skin, the air was acrid and thick, you could taste it, you 
certainly could smell it.
    Back in Washington, I went to work, pushing then-
Administrator Whitman to address environmental hazards from the 
9/11 fallout and to hold hearings in New York City on the issue 
in February 2002. I pushed for EPA to address the indoor 
contamination issue and fought for the Administration to 
address the shortcomings identified in the first cleanup 
program leading to a commitment to establish the EPA World 
Trade Center Expert Technical Review Panel in 2003.
    I have also worked to secure funding for programs to 
provide medical screening and tracking for first responders. I 
am very pleased that the Senate Labor HHS Education and Related 
Agencies Appropriations Subcommittee has approved a bill 
yesterday to provide an additional $55 million in Federal 
funding to address the mounting health needs of those who were 
exposed to environmental hazards. For the first time, we were 
able to secure bill language requiring the Department of Health 
and Human Services, through NIOSH, to extend the program to 
residents, students and others impacted by the toxins. I want 
to thank Senators Harkin and Spector for including this in the 
legislation.
    The reason I have worked so hard on these issues is because 
of heart-rending stories of people like Felicia Dunn-Jones, and 
members of her family are here with us. In May, the New York 
City medical examiner reversed an earlier decision and ruled 
that the death of Felicia Dunn-Jones was connected to her 
exposure on 9/11, the first such ruling in New York. We already 
had had a ruling by the coroner in New Jersey connecting the 
death of a NYPD detective to his exposure.
    Felicia Dunn-Jones was a 42-year-old lawyer who worked near 
the World Trade Center. In February 2002, she passed away from 
sarcoidosis, often associated with environmental hazards. Her 
husband, Joe, who lives in Staten Island with his two children, 
is here today, as is Felicia's sister, Sharon Alvarez.
    She was caught in the toxic cloud, and her story recognizes 
how difficult the balance has been of scientific and medical 
evidence. But it is shifting, showing that increased exposure 
to 9/11 toxins actually can cause illness and death.
    The first responders were the first to see the effects. 
Within 2 months of the attacks, 300 firefighters were on 
medical leave, suffering with lung ailments. Subsequent 
research has shown this was just the first sign of persistent 
health problems. More than 11,500 firefighters and 3,000 
emergency medical technicians and paramedics took part in the 
greatest rescue ever mounted. We know that thousands are now 
suffering from adverse health effects. According to fire 
department studies, exposed firefighters on average experienced 
a decline in lung function equivalent to what would have been 
produced by 12 years of aging.
    More than 34,000 employees of the New York Police 
Department participated in rescue, recovery and cleanup 
operations at Ground Zero or Fresh Kills, where the debris from 
the disaster was taken. More than 2,000 members of the police 
department have filed medical claims. The rescue and recovery 
efforts were assisted by heavy machine operators, laborers, 
iron workers, building and construction tradespeople, 
telecommunication workers and others from the public and 
private sector.
    Researchers at Mount Sinai Medical Center have documented 
physical and mental health effects among this population, with 
69 percent reporting new or worsened respiratory symptoms 
experienced while at Ground Zero and 59 percent still 
experiencing persistent health effects more than 2 years after 
the attacks.
    Almost 60,000 residents live in the vicinity of the World 
Trade Center, south of Canal Street in Lower Manhattan. The 
dust and debris settled in many of the apartments and buildings 
in the vicinity of the attacks. An analysis of more than 2,000 
residents in the area found 60 percent experienced the onset of 
respiratory symptoms, a rate approximately three times higher 
than that of people in the surrounding area in Manhattan.
    In addition, students at Stuyvesant High School in Lower 
Manhattan, who were evacuated because of their proximity to the 
World Trade Center, resumed classes 1 month after the attacks. 
They had rates of respiratory and other illnesses higher than 
those at other New York City high schools.
    Sadly, some of these illnesses were not preventable, as the 
toxic dust cloud literally enveloped many people as they fled 
from the scene. But many who were exposed could have been 
protected. That is why it is important we examine what went 
wrong. Americans deserve to know what we can do to better 
protect them. We have a number of questions.
    First, why did the Bush administration, EPA and CEQ 
management choose to downplay and grossly misrepresent the 
exposure health risks posed in the days and weeks after 9/11? 
Second, the EPA's own Inspector General blasted the EPA's 
program to clean up indoor contamination, but 4 years later, 
the EPA is making the same mistakes again.
    Third, have EPA and CEQ learned lessons from the disaster 
and are better prepared to protect public health from 
environmental hazards in the future? To me, it is clear from 
the GAO testimony that some lessons are being ignored, and I 
don't want us to repeat the mistakes. We could never repay 
those who sacrificed for us, who answered the call of duty. We 
cannot go back in time and pull the brave men and women off 
that pile or order them to wear respiratory protection 
equipment. We can't tell the residents, the first responders, 
the workers and the volunteers that the air is too dangerous to 
breathe.
    But we can clear the air here in Washington and clear the 
way to help those affected and to hold accountable those who 
did let New Yorkers and Americans down, to learn the lessons 
that we should to be fully prepared for the unthinkable. That 
is why I have called today's hearing.
    Let me turn now to the Ranking Member on this subcommittee, 
Senator Larry Craig.

 STATEMENT OF HON. LARRY CRAIG, U.S. SENATOR FROM THE STATE OF 
                            WYOMING

    Senator Craig. Madam Chairman, the vote has just started. I 
certainly will get us under the wire.
    But again, along with the Chairman, I want to thank all the 
witnesses today for joining us to examine the lessons learned 
from 9/11 and EPA's preparedness for future emergencies. 
Certainly, reviewing the past is critically important for any 
of us if we are going to be prepared for the future. Most, if 
not all of us, can tell the story of where we were and what we 
were doing when we first learned of the tragic events of 9/11. 
The aftermath of the Twin Towers collapse showed an inspiring 
level of heroism and teamwork literally unprecedented, I think, 
in our history.
    These unimaginable circumstances also highlighted emergency 
response successes and shortcomings. That is what we are 
talking about here today. I think it is important to review the 
lessons we have learned and I look forward to the testimony of 
our witnesses.
    In reviewing the reports within the scope of this hearing, 
it appears to me that criticisms largely hover around outdoor 
air health advisories as well as indoor air health and clean 
programs. The IG report released on August 21, 2003, regarded 
EPA's response to the World Trade Center collapse states, 
``Although many organizations were involved in addressing air 
quality concerns resulting from the World Trade Center 
collapse, subsequent events have demonstrated that ultimately 
the public, Congress and others expected EPA to monitor and 
resolve environmental issues, even when EPA may not have had 
the overall responsibility to resolve these issues or the 
necessary resources to address them.''
    Later, the report states, ``EPA does not have clear 
statutory authority to establish and enforce health-based 
regulatory standards for indoor air.'' As you can see, Madam 
Chairman, there is a serious disconnect, or it appears there is 
a serious disconnect, between what the public and some public 
officials have as expectations to EPA's ability and the actual 
authority granted to the Agency. I believe this disconnect 
should be addressed. I think it is appropriate and it is 
clearly necessary.
    Additionally, there are differing opinions regarding the 
current status of the indoor air test and clean program, and 
what actions can be taken that are prudent for a safety-health 
standpoint, but that still maintain a level of fiscal 
responsibility. In other words, what is reality, what can we 
do, what is the statutory ability to do it, and what does it 
cost.
    Although it has been less than 6 short years since this 
tragedy, I am interested to hear more about the programs EPA 
instituted as a result of the experience, such as the creation 
of the Office of Emergency Management and the National 
Decontamination Team and the expansion of the Environmental 
Response Team, among others.
    One last thing, Madam Chair. It has been brought to my 
attention that due to past litigation surrounding these issues 
aimed at Chairman Connaughton, he may be unable to answer all 
of the questions. So I ask that we at least be cognizant to any 
legal situation that may exist. I am confident he will respond 
to that.
    With that, Madam Chairman, I would like to thank you for 
holding the hearing. It is an important hearing. I will 
conclude this statement by saying, let us always review where 
we have been to know where we need to get, and the realities of 
what happened and how we might change them that are within the 
scope of the law or our responsibility, Madam Chairman, in 
adjusting the law to bring it into compliance, allow agencies 
to move in directions that we might otherwise have thought they 
had the authority to move in.
    Thank you.
    Senator Clinton. Thank you very much, Senator Craig. I look 
forward to working with you on those issues.
    Senator Boxer, Chairwoman Boxer.

STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE STATE OF 
                           CALIFORNIA

    Senator Boxer. Thank you so much, Senator Clinton, for 
holding this important hearing, but also for your focus on this 
very moral issue and your leadership.
    Nearly 6 year after the attacks of 9/11, the events of that 
horrific day are seared in our memories. We will never forget 
the collapse of the Towers into a billowing cloud that 
swallowed up thousands of people. Who can forget those brave 
firefighters and police officers charging into the smoking 
buildings and disappearing into the choking cloud?
    We remember now the fine, gray dust that covered 
everything. Then we learned that that fine, gray dust was 
toxic. It contained lead, asbestos and other dangerous 
materials. We are here today because we owe it to the families 
of those who died, those who are still sick and their families 
to ask questions that need to be answered about our 
Government's response.
    It is our responsibility, which you are making sure we 
carry out, Madam Chair, to ensure that EPA and the rest of the 
executive branch carry out the laws that we pass, including our 
environmental laws. We now have a chance to take a look at how 
we did.
    I am here to support Senator Clinton's efforts to oversee 
the Government response. She has my full confidence. She has 
been a true leader on this issue. She has worked to make sure 
that this committee stays on track and doesn't look away from 
this disaster.
    As in the case of many lesser disasters, we only learn 
afterwards what the extent of the danger was to the people who 
were there. There are continuing concerns about the health of 
many people exposed to the toxins that I described.
    I believe that the Government has a responsibility to level 
with the public about everything they know about the risks. If 
there are dangers, let's be honest about them. Government 
should never downplay or cover up danger.
    I am concerned about allegations that officials at EPA and 
from the White House twisted the facts and misleadingly 
reassured the public about the health risks after the 9/11 
attack in New York. Senator Clinton reiterated just one 
sentence from Administrator Whitman, which was reassuring and 
which was wrong.
    After such disasters and health emergencies, the Government 
also must assure that we quickly and properly cleanup the 
contamination. The Government did mobilize substantial 
resources after 9/11, but we will hear testimony about some 
shortcomings in the response, especially with respect to the 
toxic dust that coated the indoors of many residences and 
businesses among other issues.
    Finally, the Government should assist those whose health is 
hit hardest, especially the first responders and the most 
severely exposed citizens, to ensure that their health is 
monitored and protected. This is an ongoing concern after the 
World Trade Center attacks, and other disasters, when first 
responders and other citizens are highly exposed to toxic 
chemicals and materials.
    Senator Clinton took the lead in getting a provision 
enacted in the Safe Ports Act last Congress that helps mobilize 
health tracking after a disaster. I want to announce today that 
she and I are working with Senator Baucus on a broader bill to 
make sure that in any, any disaster, a Federal disaster, there 
is follow-up and there is monitoring and there is help for 
those exposed, those workers exposed. I hope the Administration 
will work with us on this. We reach out to them today to do 
that.
    Unfortunately, this Administration failed to level with 
many people in the aftermath of the attack. In 2003, the EPA's 
Inspector General found that the White House Council on 
Environmental Quality reviewed and changed EPA's statements in 
order to downplay the health risks associated with 
contamination. In public statements, the Inspector General 
said, ``The White House Council on Environmental Quality 
influenced the information that EPA communicated to the public 
through its early press releases when it convinced EPA to add 
reassuring statements and delete cautionary ones.''
    Twisting facts to encourage a false sense of security can 
harm people and erode the public's trust in Government. This is 
the Inspector General report. This isn't a political report. 
Government should rely on science and act in the best interests 
of its citizens, not spend the evidence.
    So I am so pleased that we have the opportunity to shed 
more light on these critical issues and right the wrongs that 
have been done. Thank you.
    [The prepared statement of Senator Boxer follows:]
    Senator Clinton. Thank you very much.
    Senator Lautenberg, we will go and vote and tell them to 
wait until you get there.
    Senator Lautenberg. I feel like the last man standing here, 
Senator Clinton. To collapse my minutes and wonder whether I am 
going to miss a vote is really not something I want to do.
    Senator Clinton. Well, why don't we recess now and we will 
all go vote and come back and then you can give your opening 
statement.
    Senator Lautenberg. I would really prefer that. I 
appreciate it and I thank the witnesses.
    Senator Clinton. So we will be in recess.
    [Recess.]
    Senator Clinton. The hearing will come to order.
    We have been joined by Senator Inhofe. We will now go to 
Senator Lautenberg for his opening statement and Senator 
Inhofe, if you have an opening statement.
    Senator Inhofe. I do, thank you.
    Senator Clinton. Senator Lautenberg.

 STATEMENT OF HON. FRANK R. LAUTENBERG, U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Lautenberg. Thank you very much, Madam Chairman, 
and thank you, those who are appearing at the witness table, 
for your indulgence while we took care of our voting 
responsibility.
    On September 11, 2001, more than 3,000 people lost their 
lives, including 700 New Jersey residents. What was not obvious 
at the time, but apparent now, is the damage from the collapse 
of the World Trade Center buildings that extended beyond that 
immediate territory that fateful day. Now, 6 years later, the 
health of thousands of first responders, search and rescue 
workers, volunteers who rushed to Ground Zero, many, once 
again, from my home State of New Jersey, continues to decline.
    Residents and office workers from some distance away from 
those buildings have also fallen ill. Their illnesses were 
caused by toxic dust that they inhaled in the days and the 
weeks after the attack. Many of those people are now suffering 
from respiratory problems, reduced lung functions. Many of the 
firefighters who were there can no longer conduct their duties, 
as has happened with other workers as well. Many have died.
    One of those who died from inhaling the toxic dust was 
Joseph Zadroga, a decorated New York City detective from New 
Jersey. He was only 34 years old. Those who worked, lived, or 
volunteered near Ground Zero in the aftermath of the attack had 
every right to expect their Government to provide honest, 
accurate and complete information about the environmental 
conditions and health consequences in New York City.
    So it is disturbing to me that they were let down by the 
Administration's people. After the attack, the EPA downplayed 
the health risks posed by the toxic air and dust the Towers 
released when they collapsed. In 2003, a report by the EPA 
Inspector General found that EPA's statements misled the public 
about the safety of the air. Misled means that they had 
knowledge beforehand, and the White House rewrote EPA's press 
releases to minimize the health risks.
    The Administration should have focused on educating the 
public and protecting them from the threats to their health. 
They certainly would do it if it was a volcano or some other 
thing that produced toxic materials as a consequence.
    Since 9/11, the EPA has conducted testing and cleaning of 
apartments and buildings, some apartments and buildings, near 
the World Trade Center. But its approach has been criticized, 
including by an expert panel convened by EPA as insufficient to 
protect the public health, almost 6 years after 9/11. It is 
outrageous that EPA still has not gotten the message clearly. 
It is infuriating to think that people who were doing their 
duty trying to save others, and those who were innocent 
bystanders are now threatened with illnesses that are 
debilitating and life-shortening.
    So Madam Chairman, I thank you for holding this hearing and 
I look forward to hearing from today's witnesses how this 
program should be improved. I am hoping that they will give 
their fullest response. Thank you.
    [The prepared statement of Senator Lautenberg follows:]

     Statement of Hon. Frank R. Lautenberg, U.S. Senator from the 
                          State of New Jersey

    Madam Chairman, on September 11, 2001, more than 3,000 people lost 
their lives, including 700 residents of New Jersey.
    But as we know now, the damage from the collapse of the World Trade 
Center buildings extended beyond that fateful day.
    Nearly six years later, the health of thousands of first 
responders, search and rescue workers and volunteers who rushed to 
Ground Zero--many from New Jersey--continues to decline.
    And some nearby residents and office workers have also begun to 
fall ill.
    Their illnesses were caused by the toxic dust they inhaled in the 
days and weeks after the attack.
    Some of those people are now suffering from respiratory problems 
and reduced lung function. Others have died.
    One of those who died from inhaling the toxic dust was Joseph 
Zadroga, a decorated New York City detective from New Jersey. He was 
just 34.
    Those who worked, lived or volunteered near Ground Zero in the 
aftermath of the attack had every right to expect their government to 
provide accurate and complete information about the environmental 
conditions and health consequences in New York City.
    So it's disturbing to me that the Administration let them down.
    After the attack, the Bush EPA downplayed the health risks posed by 
the toxic air and dust the towers released when they collapsed.
    In 2003, a report by the EPA Inspector General found that EPA 
statements misled the public about the safety of the air and the White 
House rewrote EPA's press releases to minimize the health risks.
    The Administration should have focused on educating the public and 
protecting them from threats to their health.
    Since 9/11, the EPA has conducted testing and cleaning on some 
apartments and buildings near the World Trade Center.
    But its approach has been criticized, including by an expert panel 
convened by EPA, as insufficient to protect the public health, almost 
six years after 9/11.
    It's outrageous that EPA has still not gotten this right.
    I look forward to hearing from today's witnesses about how this 
program should be improved.
    Thank you Madam Chairman.

    Senator Clinton. Thank you very much, Senator Lautenberg.
    Senator Inhofe.

STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM THE STATE 
                          OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    The devastation of New York that was suffered on September 
11th was just unprecedented and horrendous. As in all the 
Presidentially declared disasters, EPA cooperated with its many 
Federal departments to provide coordinated response. This 
hearing is to examine EPA's response and future preparedness, 
and I would say, lessons learned.
    Following September 11th, EPA was highly involved 
conducting air, water and dust monitoring in lower Manhattan 
for environmental hazards. The EPA vacuumed street debris and 
disposed of hazardous waste. The EPA also conducted a voluntary 
cleanup program from 2002 to 2003 that served more than 4,000 
residences in lower Manhattan.
    Although the EPA does not ordinarily administer worker 
protection regulations, it provided respirators, protective 
gear for workers at the World Trade site. The EPA has received 
some criticism for its role following September 11th. The EPA 
Inspector General released a lengthy report in 2003, alleging 
many problems with EPA responses. I will provide you two brief 
examples.
    First, the EPA IG alleged that EPA, OSHA and the Council on 
Environmental Quality released misleading information to the 
public on air monitoring and sampling in press releases. 
However, in the same report, the IG conceded that EPA used many 
methods to inform the public, including public meetings, fact 
sheets, its web site, interviews with newspapers, radio, TV, as 
well as through press releases. The IG concluded in the same 
report in regard to the monitoring data, ``We found no evidence 
that EPA attempted to conceal results from the public.''
    Second, although the IG was critical of the EPA's response, 
including its response to indoor environmental contamination, 
the IG concluded, ``The EPA's action to evaluate, mitigate and 
control risk to human health from exposure to indoor air 
pollutants in the World Trade Center area were consistent with 
applicable statutes and regulations.'' I think quite often you 
get people who pick and choose statements out of reports that 
give a negative, and I want to make sure that we have the full 
information out here.
    Ultimately, the EPA IG report was incomplete, because the 
IG did not interview other officials in other Federal agencies 
such as OSHA and the CEQ. Following the release of the 2003 EPA 
IG report, my staff prepared a report, reviewing the IG's 
findings and interviewed EPA IG personnel, former Acting 
Administrator Mary Ann Orinco, and the CEQ Chairman, Jim 
Connaughton, and OSHA Assistant Administrator John Henshaw. I 
request that those reports be made a part of the record. During 
that time, I was the Chairman of the committee, so we were very 
actively involved in this.
    I also want to make a comment that normally, I like to get 
information from people closest to the problem. While the EPA 
IG was critical of EPA's response, not all officials were 
critical in their responses to 9/11. Dr. Thomas Frieden, the 
New York City Commissioner of Public Health, testified at an 
EPW Clean Air Subcommittee hearing held in New York City in 
February 2002, ``One of the most vivid pictures to emerge is 
one of unprecedented cooperation between local, State, Federal 
health environmental and occupational agencies, the teamwork is 
quite extraordinary.'' That was coming from the Commissioner 
there in New York.
    I hope this hearing does not focus on the conflicting 
findings of a 4-year-old IG report. Instead, I hope this 
hearing provides legitimate congressional oversight on 
activities in which the EPA is currently engaged. In January 
2007, the EPA opened public registration for a new lower 
Manhattan testing and cleaning program. This program is 
designed to test for elevated levels of four contaminants 
associated with dust from the collapse of the World Trade 
Center. FEMA has provided $7 million to EPA for this work. I 
understand that members of that expert panel, the CEQ and EPA, 
convened for this purpose and are dissatisfied that a more 
exacting program could not have been developed.
    However, I have an August 2006 letter from the same 
Commissioner, the New York City Health Commissioner Frieden, 
stating, ``The environmental investigation and testing 
conducted in lower Manhattan indicates that potential health 
impacts from any remaining World Trade Center dust are 
extremely low or non-existing.'' I ask unanimous consent that 
also be made a part of this record.
    We have witnesses that I know will shed further light on 
the many issues involving the World Trade Center and its 
aftermath, and I look forward to this committee hearing. I have 
made two unanimous consent requests for inclusions into the 
record.
    [The prepared statement of Senator Inhofe follows:]

       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma

    The devastation New York City suffered on September 11, 2001, was 
unprecedented and horrendous. As in all Presidentially declared 
disasters, EPA cooperates with many other federal departments to 
provide a coordinated response. This hearing is to examine EPA's 
response and future preparedness and to receive testimony on the Test 
and Clean program EPA is conducting in Lower Manhattan.
    Following September 11th, EPA was highly involved conducting air, 
water, and dust monitoring in Lower Manhattan for environmental 
hazards. EPA vacuumed street debris and disposed of hazardous wastes. 
EPA also conducted a voluntary clean up program from 2002 to 2003 that 
served more 4,100 residents in Lower Manhattan. Although EPA does not 
ordinarily administer worker protection regulations, it provided 
respirators and protective gear for workers at the World Trade Center 
site.
    EPA has received criticism for its role following September 11th. 
The EPA Inspector General released a lengthy report in 2003 alleging 
many problems with EPA's response. I'll provide two brief examples. 
First, the EPA IG report alleged that EPA, OSHA, and the Council on 
Environmental Quality released misleading information to the public on 
air monitoring and sampling in press releases. However, in the same 
report the IG conceded that EPA used many methods to inform the public 
including public meetings, fact sheets, its website, and interviews 
with newspapers, radio, and television, as well as through press 
releases. The IG concluded in the same report, ``In regard to the 
monitoring data, we found no evidence that EPA attempted to conceal 
data results from the public.'' Secondly, although the IG was critical 
of EPA's response including its response to indoor environmental 
contamination, the IG concluded, ``EPA's actions to evaluate, mitigate, 
and control risks to human health from exposure to indoor air 
pollutants in the World Trade Center area were consistent with 
applicable statutes and regulations.''
    Ultimately, the EPA IG report was incomplete because the IG did not 
interview other officials at other federal agencies such as OSHA and 
CEQ. Following the release of the 2003 EPA IG report, my staff prepared 
a report reviewing the IG's findings and interviewing EPA IG personnel, 
former acting Administrator Marianne Horinko, CEQ Chairman Jim 
Connaughton, and OSHA Assistant Administrator John Henshaw. I request 
that report appear in the hearing record.
    While the EPA IG was critical of EPA's response, not all officials 
were critical of the response to September 11th. Dr. Thomas Frieden, 
the New York City Commissioner of Public Health testified at an EPW 
Clean Air Subcommittee hearing held in New York City in February 2002, 
``One of the most vivid pictures to emerge is one of unprecedented 
cooperation between local, state, and federal health, environmental, 
and occupational agencies. The teamwork is quite extraordinary.''
    I hope this hearing does not focus on the conflicting findings of a 
four year old IG report. Instead, I hope this hearing provides 
legitimate Congressional oversight on activities in which EPA is 
currently engaged.
    In January 2007, EPA opened the public registration for a new Lower 
Manhattan Test and Clean Program. This program is designed to test for 
elevated levels of four contaminants associated with dust from the 
collapse of the World Trade Center. FEMA has provided $7 million to EPA 
for this work. I understand that members of the expert panel CEQ and 
EPA convened for this purpose are dissatisfied that a more exacting 
program could not be developed. However, I have an August 2006, letter 
from New York City Health Commissioner Frieden stating, ``The 
environmental investigations and testing conducted in lower Manhattan 
indicates that potential health impacts from any remaining [World Trade 
Center] dust are extremely low or non-existent.'' I ask consent that 
this letter appear in the hearing record.
    We have witnesses that I know will shed further light on many of 
the issues involving the World Trade Center and its aftermath, and I 
look forward to their testimony. In conclusion, I would also like to 
point out that Chairman Connaughton has volunteered to testify although 
he is the target of litigation involving the World Trade Center. The 
complaint against him has been dismissed in the district court, and the 
appellate court affirmed that decision. I would request that Senators 
recognize that there may be questions that Chairman Connaughton may 
want to answer but may choose to decline because it may not be prudent 
given the litigation.
    I appreciate all the witnesses'participation this morning.

    Senator Clinton. Without objection.
    [The referenced material follows:]

    [GRAPHIC] [TIFF OMITTED] T1970.001
    
    [GRAPHIC] [TIFF OMITTED] T1970.002
    
    [GRAPHIC] [TIFF OMITTED] T1970.003
    
    [GRAPHIC] [TIFF OMITTED] T1970.004
    
    [GRAPHIC] [TIFF OMITTED] T1970.005
    
    [GRAPHIC] [TIFF OMITTED] T1970.006
    
    [GRAPHIC] [TIFF OMITTED] T1970.007
    
    [GRAPHIC] [TIFF OMITTED] T1970.008
    
    [GRAPHIC] [TIFF OMITTED] T1970.009
    
    [GRAPHIC] [TIFF OMITTED] T1970.010
    
    [GRAPHIC] [TIFF OMITTED] T1970.011
    
    [GRAPHIC] [TIFF OMITTED] T1970.012
    
    [GRAPHIC] [TIFF OMITTED] T1970.013
    
    [GRAPHIC] [TIFF OMITTED] T1970.014
    
    [GRAPHIC] [TIFF OMITTED] T1970.015
    
    [GRAPHIC] [TIFF OMITTED] T1970.016
    
    [GRAPHIC] [TIFF OMITTED] T1970.017
    
    [GRAPHIC] [TIFF OMITTED] T1970.018
    
    [GRAPHIC] [TIFF OMITTED] T1970.019
    
    [GRAPHIC] [TIFF OMITTED] T1970.020
    
    [GRAPHIC] [TIFF OMITTED] T1970.021
    
    [GRAPHIC] [TIFF OMITTED] T1970.022
    
    [GRAPHIC] [TIFF OMITTED] T1970.023
    
    [GRAPHIC] [TIFF OMITTED] T1970.024
    
    [GRAPHIC] [TIFF OMITTED] T1970.025
    
    [GRAPHIC] [TIFF OMITTED] T1970.026
    
    [GRAPHIC] [TIFF OMITTED] T1970.027
    
    [GRAPHIC] [TIFF OMITTED] T1970.028
    
    [GRAPHIC] [TIFF OMITTED] T1970.029
    
    [GRAPHIC] [TIFF OMITTED] T1970.030
    
    [GRAPHIC] [TIFF OMITTED] T1970.031
    
    Senator Clinton. I would now like to introduce our first 
panel: James Connaughton, Chairman, White House Council on 
Environmental Quality; Susan Bodine, Assistant Administrator, 
EPA Office of Solid Waste and Emergency Response; John 
Stephenson, Director of Government Accountability Office, 
Natural Resources and Environment Division; and Sven Rodenbeck, 
Agency for Toxic Substances and Disease Registry.
    I would just remind our panelists that your written 
testimony will be made a part of the record in full. We ask 
that you limit your spoken testimony to 5 minutes. When the 
yellow light goes on, that means you have 1 minute remaining. 
When the red light goes on, you have passed the 5-minute mark, 
so please, if you would, wrap your testimony up so we will have 
time for questions.
    Mr. Connaughton, please proceed.

    STATEMENT OF JAMES L. CONNAUGHTON, CHAIRMAN, COUNCIL ON 
                     ENVIRONMENTAL QUALITY

    Mr. Connaughton. Thank you very much, Chairwoman Clinton, 
Ranking Member Craig, nice to see you again, Senator Inhofe, 
and I am sorry Senator Boxer is not here. But I want to 
acknowledge her; I have had a very good working relationship 
with her since she has taken the helm of the committee.
    I welcome the opportunity to testify today to once again go 
through the tragedy of September 11th, which was unprecedented 
in its scope. The physical, the psychological and the social 
toll of that terrible act of terrorism was vast at the time and 
it continues to this day.
    The complexity of the situation facing the local, State and 
Federal Governments responding to this terrorist attack was 
immense. The work by all was heroic. But I would particularly 
call out the work by the Environmental Protection Agency. I had 
direct, personal involvement on a day to day, hour by hour and 
in some cases minute by minute, with the folks in the field and 
the folks here in Washington. I saw professionalism at its 
finest.
    I would note that many of the officials that are being 
discussed and the official actions being discussed at this 
hearing were undertaken by New Yorkers, Federal Government 
officials who were New Yorkers, Federal Government officials 
who were from New Jersey. Governor Whitman herself was the 
Governor of New Jersey. Her own son was at the foot of the 
World Trade Center when the first plane hit and called her by 
cell phone, something I know because I was in her office when 
that call came through.
    My own son that day spent the entire day at school thinking 
that I had been blown up by terrorists. The look on his face 
when I returned at the end of that long day to find out that I 
was alive was a look that I will never forget.
    So the efforts undertaken by the Government were not just 
professional, they were also passionate and deeply personal. I 
think that is what this conversation is about. That passion was 
singularly dedicated to the safety and well-being of the 
citizens of New York, of the rescue workers that came in from 
all over the country to help on that day and the community, the 
broader community associated and the families associated with 
those individuals.
    Chairwoman Clinton, I particularly want to call out your 
leadership on this subject as well as that of Senator Inhofe 
and Senator Lieberman in particular in providing very 
constructive oversight over the last 5 years on this subject, 
and not just oversight, but sound, good advice as we continue 
to cope with the aftermath of the terrorist attacks on New York 
City. I think you have been very thoughtful in the questions 
you have asked, I think you have been diligent in your pursuit 
of answers and your patience in getting the whole story. Most 
importantly, you have been very practical in working together 
and finding sensible solutions. I am glad that that continues.
    Turning first to the wide variety of risk communication 
issues, including those involving air quality, but recognizing 
that we had dozens and dozen of risk communication issues we 
were dealing with, the Environmental Protection Agency did its 
utmost to communicate the best available information accurately 
and in a timely fashion to meet the needs of lower Manhattan 
residents, workers and businesses. To that end, EPA worked very 
closely with the State of New York, the city of New York, OSHA, 
and the Council on Environmental Quality to ensure the safety, 
health and well-being of the residents of lower Manhattan.
    The Federal Government's communications in September 2001 
and subsequently were conveyed real-time in very fast-moving 
circumstances, using a variety of approaches at a variety of 
levels. In all instances, the Federal agencies acted with the 
best available data at the time and updated their 
communications and actions as new information was obtained.
    Many of the allegations that have been raised in the 
opening statements here have been gone over again and again in 
the last several years. But they really culminated in the 
Senate EPW oversight investigation and then after that, in 
2004, these were carefully gone over by the 9/11 Commission, 
which came to conclusions other than those being described in 
some of the opening statements that were made today.
    We all learned a great deal from September 11th, including 
how to improve Federal response and communications efforts. But 
I would note, those improvements happened real-time in response 
to the episode itself. EPA did some amazing work in getting 
web-based access to resources. We had a level of interaction 
and coordination in communication that we had not had before. 
September 11th itself was an improvement in agency processes. 
Subsequent to that, the agencies have done numerous lessons 
learned exercises and those were ultimately incorporated into 
their National Approach to Response at EPA. But more broadly, 
we saw very rapidly the establishment of the Homeland Security 
Council, under Tom Ridge, as well as the creation of the 
Department of Homeland Security, which has institutionalized 
within a very short period of time those lessons learned.
    With respect to the test and cleanup program, I just want 
to say again, Chairwoman Clinton, that I appreciated the 
opportunity to sit down with you in October 2003 to work out a 
plan for moving forward. I think our staffs worked very well 
together in quickly developing a workable strategy, identifying 
appropriate resources and using an expert-led process with 
significant public involvement under the supervision and 
management of seasoned EPA professionals.
    I have not been directly involved in that process since 
then, but EPA has briefed me from time to time on its progress, 
because I wanted to be sure, Madam Chairwoman, that we were 
keeping track in the arrangement that we had reached. I am 
pleased that the top dogs at EPA, Administrator Susan Bodine, 
accompanied by Assistant Administrator, George Gray, are here 
today, who have been very closely associated with that effort.
    As we move forward, Madam Chairwoman and members of the 
committee, I think this inquiry is useful. I think getting the 
full story is helpful and I think we should continue to inform 
our efforts as we go forward. I hope to never have to employ 
the processes that we employed on September 11th again on our 
soil, and I think we can all share that view.
    Thank you.
    [The prepared statement of Mr. Connaughton follows:]

        Statement of James L. Connaughton, Chairman, Council on 
                         Environmental Quality

    Chairwoman Clinton, Ranking Member Craig and Members of the 
Committee, I welcome the opportunity to testify today. The tragedy of 
September 11th was unprecedented in its scope. The complexity of the 
situation facing the local, state, and Federal governments in 
responding to this terrorist attack was immense--the work by all was 
heroic.
    Chairwoman Clinton, I appreciate your leadership, as well as that 
of Senator Inhofe and Senator Lieberman, in providing constructive 
oversight and advice as we continue to cope with the aftermath of the 
terrorist attacks on New York City on September 11, 2001. You have been 
thoughtful with your questions, diligent in your pursuit of answers, 
and practical in working to find sensible solutions.
    With respect to a wide variety of risk communication issues, 
including those involving air quality, the Environmental Protection 
Agency did its utmost to communicate the best available information 
accurately, and in a timely fashion to meet the needs of lower-
Manhattan residents, workers, and businesses. To that end, EPA worked 
with the State of New York, the City of New York, OSHA, and the Council 
on Environmental Quality to ensure the safety, health, and wellbeing of 
the residents of lower-Manhattan.
    The Federal government's communications in September of 2001 were 
conveyed real-time in fast-moving circumstances, using a variety of 
approaches, at a variety of levels. In all instances, federal agencies 
acted with the best available data at the time, and updated their 
communications and actions as new information was obtained.
    We all learned a great deal following September 11th, including how 
to improve federal response and communications efforts. EPA completed a 
lessons learned document for the World Trade Center response in 
February 2002. EPA has used these lessons learned as well as lessons 
learned from subsequent responses to strengthen its organizational 
structure, to improve its preparedness and response program, and to 
develop its National Approach to Response. EPA will be discussing those 
changes during today's testimony. These improvements were successfully 
put to the test in the swift and well-coordinated response to the space 
shuttle Columbia tragedy in February 2003.
    With respect to the test and cleanup program, I appreciated the 
opportunity to sit down with you in October 2003 to work out a plan 
moving forward, building on the substantial effort previously 
undertaken. In a relatively short period of time, our staffs were able 
to quickly develop a workable strategy, identify appropriate resources, 
and initiate an expert-led process, with significant public 
involvement, under the supervision and management of seasoned EPA 
officials.
    Although I have not been directly involved since that time, EPA has 
briefed me on its progress. I am pleased that Assistant Administrator 
Susan Bodine, accompanied by Assistant Administrator George Gray, are 
here today to discuss their efforts to date.
    Along with EPA's leadership and expertise, I look forward to 
continuing to work with you, Members of the New York Congressional 
Delegation, and Members of this Committee. Thank you for the 
opportunity to testify, and I look forward to answering your questions.

    Senator Clinton. Thank you very much.
    Ms. Bodine.

  STATEMENT OF SUSAN PARKER BODINE, ASSISTANT ADMINISTRATOR, 
      OFFICE OF SOLID WASTE AND EMERGENCY RESPONSE, U.S. 
 ENVIRONMENTAL PROTECTION AGENCY, ACCOMPANIED BY: GEORGE GRAY, 
 ASSISTANT ADMINISTRATOR, OFFICE OF RESEARCH AND DEVELOPMENT, 
              U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. Bodine. Good morning, Madam Chairman, Senator Craig, 
members of the subcommittee. I am Susan Bodine, I am the 
Assistant Administrator for EPA's Office of Solid Waste and 
Emergency Response. I am accompanied here today by Dr. George 
Gray, who is EPA's Assistant Administrator for the Office of 
Research and Development. It was that office that coordinated 
the test and clean program with the city and with Region 2 of 
EPA.
    Thank you for the opportunity to be here to discuss both 
EPA's National Response Plan and their role in that plan, as 
well as EPA support for the World Trade Center response.
    On September 11th, our country was attacked by terrorists. 
There is a reason that we call them terrorists. They want to 
destroy our sense of security, they want to damage our economy 
and they want to create fear. On 9/11, their overall mission 
failed. Today, America is stronger than ever.
    But these terrorist acts caused a great deal of pain and 
suffering. There are a lot of individual victims of 9/11: 
people who were trapped in the Twin Towers or in the Pentagon 
or on Flight 93; people who were caught in the initial dust 
cloud when the Towers fell; the rescue workers who put their 
own lives at risk to help others; and the people who live and 
work in lower Manhattan.
    I am very proud of our Nation's response to this attack, 
and I am sure, and I think it has already been discussed, some 
members of this subcommittee went to Ground Zero in New York 
City in the days and weeks after the attack as part of your 
oversight responsibility. The scene there was very impressive 
and very emotional. What you saw was everybody working together 
to do their utmost both to help our Nation recover from the 
attack and to help the victims.
    The Federal agencies that responded to the World Trade 
Center disaster did an incredible job working together under 
our National Response Plan. It was called the Federal Response 
Plan, they changed the name. That was the overall framework for 
coordinating activities. As you know, the Federal Government's 
emergency authorities under the Stafford Act are activated when 
a Governor requests the President to declare a major Federal 
disaster; and then further, if, at the time FEMA, now Secretary 
for Homeland Security, determines that the State and local 
resources are going to be so overwhelmed that it is an incident 
of national significance, then we can also trigger the 
structure of the National Response Plan to provide assistance. 
The Federal assistance is divided into 15 separate emergency 
support functions. Agencies have leads under emergency support 
functions as well as support roles.
    Now, EPA is the coordinator and primary agency under 
Emergency Support Function 10, which is oil and hazardous 
substance materials response. On 9/11, that was the structure 
we were working under. FEMA activated Emergency Support 
Function 10, and EPA received its first mission assignment on 
9/11. EPA responded immediately. Our Region 2 headquarters is 
located in lower Manhattan. We have one of our special teams, 
the Environmental Response Team, located in Edison, NJ. With 
these assets in place, we were there. EPA personnel were there 
on the very first day and on the first day, they were already 
collecting air monitoring data for asbestos, lead and volatile 
organic compounds.
    As each day passed, we expanded our sampling programs and 
monitoring programs and ultimately took tens of thousands of 
samples and over a quarter of a million data points based on 
those samples. At that time, it was the most complex effort in 
the history of the Agency. At every step of the way, we were 
working not only with other Federal agencies, but we were 
coordinating also with top scientific and medical experts, 
again, from all levels of Government and from the academic 
world. We pulled together teams of experts to establish 
benchmarks. We found ways of getting test results quickly. We 
found ways of getting them up on our Web site quickly and 
available to the public, so everyone could see the data.
    In 2002, EPA also provided oversight and sampling for an 
indoor cleanup program that is going to be discussed today. 
Then in December 2006, EPA announced the availability of 
further testing and cleaning in lower Manhattan. Again, I know 
that that will be the topic of discussion today.
    In my last few seconds, I want to summarize why I am saying 
America is stronger than ever. We have talked about lessons 
learned. We can always improve. EPA now is even more prepared 
to respond. In 2003, we introduced our National Approach to 
Response that takes the view that it is the entire Agency that 
needs to work together cohesively to respond to an emergency. 
That means we embrace the National Incident Management System, 
which is part of the National Response Plan. That means we have 
trained our people under an Incident Command System, which 
again is part of the National Response Plan, so everybody knows 
what they are supposed to do when an emergency happens.
    We have added additional on-scene coordinators. We have 
created a West Coast Environmental Response Team like the one 
in Edison that responded. We have created a National 
Decontamination Team. We have increased our response capacity 
by training over 2,000 people in incident command as well as 
creating a Response Support Corps. We have done a number of 
additional things I don't have time to go into. In the written 
testimony, there is more detail.
    I just want to make sure that you know that EPA today is 
better prepared to respond to any emergency. We stand ready to 
support State and local governments when the next emergency 
happens.
    [The prepared statement of Ms. Bodine follows:]

 Statement of Susan Parker Bodine, Assistant Administrator, Office of 
   Solid Waste and Emergency Response, U.S. Environmental Protection 
                                 Agency

    Good morning, Madam Chairman and members of the Subcommittee. I am 
Susan Bodine, Assistant Administrator of the Office of Solid Waste and 
Emergency Response, U.S. Environmental Protection Agency (EPA). I am 
accompanied today by George Gray, Assistant Administrator of EPA's 
Office of Research and Development. Thank you for the opportunity to 
discuss EPA's role under the National Response Plan (NRP) and Agency 
efforts associated with the World Trade Center response.

                      EPA'S NATIONAL RESPONSE ROLE

    As with other federal agencies, EPA's response pursuant to a 
disaster declared by the President is facilitated through the NRP. The 
NRP facilitates federal support to State and local governments. Under 
the NRP, EPA is the Coordinator and Primary Agency for Emergency 
Support Function (ESE) #10--Oil and Hazardous Materials Response. EPA 
is one of many agencies that may be activated to provide coordinated 
federal support during an incident, and like the other responding 
agencies, EPA receives mission assignments from the Federal Emergency 
Management Agency (FEMA) to carry out activities in support of state 
and local governments.
    Our primary activities under ESF #10 include: efforts to detect, 
identify, contain, clean up or dispose of oil or hazardous materials; 
removal of drums and other bulk containers; collection of household 
hazardous waste; monitoring of debris disposal; air and water quality 
monitoring and sampling; and protection of natural resources. EPA is 
also a support agency for a number of other Emergency Support 
Functions.

                   EPA RESPONSE AT WORLD TRADE CENTER

    EPA played a key role in the nation's response to the September 11, 
2001 terrorist attacks on the World Trade Center in Lower Manhattan. We 
activated our emergency response personnel alter the first plane hit 
the North Tower. Before we knew the tragic consequences of the attack, 
EPA's responders, most of whom were located in our offices in Edison, 
New Jersey, headed to the site. After the collapse of the World Trade 
Center Towers, EPA began environmental monitoring of the resulting dust 
and debris. EPA responded pursuant to its first mission assignment 
under ESF #10 on September 11, 2001. EPA tested the air in the areas 
surrounding the World Trade Center site, including Brooklyn and Jersey 
City, New Jersey. On the first day, we tested for asbestos, lead and 
volatile organic compounds (VOCs).
    As each day passed, EPA expanded its sampling program and 
ultimately the Agency took tens of thousands of samples of air, dust 
and water, which yielded close to a quarter of a million results. 
Levels of pollutants were sometimes elevated, particularly on the 
debris pile, but for the most part levels of contaminants in the 
ambient air outside of the immediate vicinity of the pile were not at 
elevated levels.
    The information that EPA was giving to the public through daily 
interactions with the media was that workers should wear protective 
equipment and any person who experienced health effects should see a 
doctor. We shared data with reporters every day. As soon as we were 
able, we put our data on our Web site and made it available to the 
public from our offices in Lower Manhattan.
    EPA also sampled drinking water from water mains in Lower 
Manhattan. In addition, the Agency sampled water from the Hudson and 
East Rivers and wastewater from a treatment plant in Brooklyn after 
several rainfalls to check for pollutants emanating from the World 
Trade Center site. While EPA detected one instance of slightly elevated 
PCBs in rainwater runoff at the wastewater treatment plant, ambient 
surface water sampling results did not indicate human health or 
ecological concerns.
    EPA worked closely with the city to remove as much of the dust from 
public spaces as we could, including streets and parks. EPA even 
replaced sand in sandboxes. The City augmented our efforts by washing 
down streets, sidewalks and building exteriors. We also established 
worker and truck wash stations in both Lower Manhattan and on Staten 
Island to prevent dust from migrating from the recovery site.
    When the initial phase of recovery efforts drew to an end, EPA 
through its Interagency Agreements with FEMA, responded to the ongoing 
concerns of Lower Manhattan residents with a residential indoor dust 
cleanup program. We consulted with city, state and other federal health 
and environmental officials to find a way to offer free cleaning and 
testing to all residents in Lower Manhattan. In developing our program, 
EPA met extensively with resident and tenant organizations, 
environmental and community groups, community boards and many city, 
state, and federal elected officials to refine the clean and test 
program. The program was launched in June 2002, with cleaning and 
testing activities continuing through the following spring. In the end, 
more than 4,000 residences were either tested or cleaned. Of the 
approximately 29,000 residential air samples taken, about 0.4 percent 
exceeded health-based benchmarks for asbestos. The program was 
completed in the summer of 2003.

                       EPA TEST AND CLEAN PROGRAM

    On December 6, 2006, EPA announced the beginning of a $7-million, 
FEMA-funded program to further test indoor spaces in Lower Manhattan. 
Under this program, EPA has offered to test indoor spaces in Lower 
Manhattan in order to give information to people who have remaining 
concerns about possible contaminants in their indoor spaces. One 
challenge with such a program is that most of the contaminants that are 
associated with the World Trade Center dust are also found in every 
urban environment. EPA scientists did research to see if there is a 
reliable method to identify dust as being from the World Trade Center. 
Ultimately, after extensive peer review, EPA concluded that there is 
not a reliable method to definitively identify World Trade Center dust 
and distinguish it from other sources of such dust. In addition, the 
vast majority of occupied residential and commercial spaces in Lower 
Manhattan have been repeatedly cleaned in the more than 5 years since 
the terrorist attacks. However, we wanted to give people another 
opportunity to find out about possible contamination in their homes.
    The program allows residents and building owners in Lower Manhattan 
to have the air and dust in their units tested for four contaminants 
associated with dust from the collapse of the World Trade Center. 
Priority for testing is based on a property's proximity to the World 
Trade Center site. If analysis of dust and air samples indicates 
elevated levels of any of four contaminants of concern--asbestos, lead, 
polycyclic aromatic hydrocarbons, and man-made vitreous fibers such as 
fiberglass--the contaminants will be cleaned up. The registration 
period for this program closed on March 31, 2007. Twenty five building 
representatives and 272 individual residents registered for the 
program. Testing of interior spaces is expected to begin later this 
year for all registrants who have sent access agreements to EPA.

  CHANGING THE ORGANIZATION TO MEET GROWING NEEDS OF HOMELAND SECURITY

    Since the September 11, 2001 attacks, the Agency has made broad, 
national improvements to its emergency response program. EPA took 
several steps to reorganize around its new emergency response and 
homeland security functions, including the creation of an Office of 
Homeland Security and the establishment of a new position of Associate 
Administrator for Homeland Security. Additionally, we have reorganized 
OSWER's emergency response functions under a single office--the Office 
of Emergency Management, which focuses on emergency planning, 
preparedness and response. This new organization allows us to 
concentrate our efforts and our resources to meet the national 
requirements identified by the Department of Homeland Security (DHS), 
as well as our internal planning, preparedness, and response goals.
    We increased our specialized dedicated emergency response staff to 
improve our preparedness and response capabilities. The Agency hired 50 
additional On-Scene Coordinators specifically trained to deal with 
Incidents of National Significance (INS) and issues relating to Weapons 
of Mass Destruction. We expanded and extended the capabilities of our 
existing Environmental Response Team (ERT) responsible for 
technological support and training through the establishment of an 
additional ERT office in Las Vegas, NV. We established a National 
Decontamination Team dedicated to providing decontamination expertise 
related to biological, chemical, and radiological agents used as 
Weapons of Mass Destruction (WMD).
    The National Decontamination Team is the first of its kind and 
provides general scientific support and technical expertise for 
identifying technologies and methods for decontamination of buildings, 
building contents, public infrastructure (including waste/drinking 
water plants, chemical plants, power plants, food processing facilities 
and subways), agriculture, and associated environmental media (air, 
soil and water). This special team is honing its expertise, building 
relationships with other agencies, and providing training to EPA 
responders. Most importantly, it is developing a Decontamination 
Portfolio which will include comprehensive analytical, sampling, and 
decontamination methods, as well as health and safety information for 
chemical, biological and radiochemical agents.
    EPA's newly renovated Emergency Operations Center (EOC) is EPA's 
hub for emergency management communication and coordination. The EOC is 
capable of 24/7 operations and has its own independent computer center, 
backup power source and dedicated HVAC, and has a secure access 
facility.
    Staff in the EOC provide situational awareness to EPA management 
during emergency responses and are the central link with regional and 
field response assets. The EOC is linked to many other federal 
operations centers including the FEMA National Response Coordination 
Center, DHS's Homeland Security Operations Center and the U.S. Coast 
Guard Command Center.
    Emergency response and associated homeland security issues remain 
among EPA's top priorities. EPA has drafted a Homeland Security Work 
Plan to provide a framework for advancing the Agency to our next level 
of preparedness.

       EPA'S NATIONAL APPROACH TO RESPONSE TARGETED IMPROVEMENTS

    In addition to strengthening our organizational structure, EPA 
strengthened its policy as well. EPA's National Approach to Response 
(NAR) was established in June 2003 to complement the government-wide 
NRP and National Incident Management System (NIMS). This policy ensures 
efficient use of emergency response assets within the Agency, creates 
the necessary consistency across the regions, and highlights priorities 
for further policy development and coordination. An important facet of 
the NAR is the recognition that an effective response requires 
participation from the entire Agency, not just those offices 
traditionally responsible for emergency response activities. This 
approach initially grew out of the lessons learned during the response 
to the September 11th attacks, and experience (e.g. anthrax, Columbia 
Space Shuttle, Hurricane Katrina) continues to inform its direction.
    The NAR has had a positive and tangible impact on EPA's ability to 
respond to an INS. In fact, as a result of these efforts, EPA responded 
more effectively to Hurricane Katrina, one of the largest coordinated 
response efforts in history. Today, I will highlight some of the 
actions we have taken under the NAR to improve our processes, 
procedures and capabilities during an INS.
    EPA has made a major effort to train responders at all levels in 
the Incident Management System, as required under NIMS. To date, EPA 
has trained approximately 2000 staff in the Incident Command System 
(ICS) and has expanded the training program to include EPA executive 
leadership, and non-emergency response volunteers from across the 
Agency. As a result of this training, ICS is used in EPA's day-to-day 
response operations and was successfully used in the response to 
Hurricane Katrina.
    EPA's resource of voluntary support personnel proved to be 
invaluable during our response to Hurricane Katrina when we needed to 
fill support roles at every level of the response on a 24/7 basis. 
Since the Katrina Response, EPA has made improvements to this important 
program. The Response Support Corps is finalizing national guidelines 
to facilitate consistency in its recruitment, training, and activation. 
The new basic training Program is designed to ensure that all 
volunteers understand ICS structure and the expectations of a response. 
In addition, a national database has been developed to track the 
skills, experience and training of all volunteers.
    EPA ensured communication with the public was one of its top 
priorities under the NAR. After the September 11th response, the Agency 
created a Crisis Communications Workgroup with the continuing goal of 
providing timely, accurate and consistent information to the public at 
the time of a response. The Workgroup is designing several new products 
including a training program specific to t<plus-minus>he public 
information role, which is an important aspect of the ICS structure.
Incident and Data Management
    EPA implemented a new information technology strategy to manage 
data more efficiently and consistently during a response event. This 
strategy was developed during the response to Hurricane Katrina, as 
part of an overall process to expedite the review and public posting of 
the results of over 400,000 laboratory analyses. EPA adapted and 
integrated existing Agency technology to provide interfaces that 
allowed the electronic flow of data from the field to the public. Data 
was posted promptly on the Internet for all media analyzed (floodwater, 
sediments, soil, surface water, air). This integrated approach is now 
serving as the prototype for the Emergency Management Portal currently 
under development to address day-to-day responses, as well as other 
potential INS.

Field Communications
    On September 11, 2001, the ability of all agencies to respond was 
seriously impacted following the collapse of the World Trade Center 
towers as cell phones and Internet connections were damaged. Under our 
telecommunication priority workgroup, EPA developed standards for 
quality, quantity and type of communications equipment that should be 
available to responders in each Region. Over the last three years, EPA 
purchased, evaluated and installed complex technology to create a 
national communications network for EPA responders. Through this 
national approach, EPA has amassed a pool of equipment that can be used 
daily in each region and shared quickly among regions during a 
disaster. This strategy paid off during the Katrina response when 
satellite dishes, radios and other communication equipment were sent 
from every region to assist Regions 4 and 6. As a result, EPA had data 
(Internet) and voice communications in areas that were otherwise 
disconnected for many months.

Environmental Lab Capacity
    EPA recognizes that our responsibilities under homeland security 
require us to increase our capacity to analyze and process a large 
number of field samples for contaminants directly related to terrorist 
threats based on needs identified after the 9/11 and Capitol Hill 
anthrax incidents. EPA created a compendium of labs with various pre-
identified capabilities that can be accessed as needed during a large 
scale event, and is establishing an Environmental Laboratory Response 
Network (eLRN) of labs capable of handling chemical, biological, and 
radiological agents. EPA, in conjunction with Department of Defense and 
DHS, developed two prototype triage facilities to handle unknown 
samples in order to protect laboratory staffs health and safety and 
laboratory assets. We are also working with DHS to expand chemical 
warfare agent lab capabilities in fixed laboratories and to design high 
capacity mobile units.

         CONTRIBUTING TO FEDERAL HOMELAND AND SECURITY EFFORTS

    EPA has a long history in emergency preparedness, planning and 
response. This experience allowed us to play a strong role in the 
development of the NRP and NIMS. EPA continues to learn from its 
experiences and is working with DHS to incorporate changes as the NRP 
is being revised.

                                CLOSING

    I am pleased to have had the opportunity to tell you about some of 
the critical steps EPA has taken to meet the needs of the public and 
the nation in its continued response to the September 11th attacks, and 
in preparation for another major incident. While the EPA requests only 
one part of the larger efforts occurring at the Federal, State and 
local levels, we take our role very seriously. We can never know the 
exact nature or location of the next incident. The extraordinary 
efforts of our response staff on a daily basis, combined with EPA's 
NAR, allows me to say that EPA stands ready to respond wherever and 
whenever it is needed.
                                 ______
                                 
 Response by Susan Bodine to an Additional Question from Senator Inhofe

    Question. EPA has consistently maintained that there were no 
elevated levels of contaminants largely in the immediate vicinity of 
the World Trade Center. For the hearing record, please describe the 
steps EPA took with other agencies involved immediately after September 
11 to determine the levels of contaminants and EPA's actions to protect 
residents.
    Response. Extent of Contamination.--The U.S. Environmental 
Protection Agency (EPA) and many other agencies collected and analyzed 
environmental samples after the September 11, 2001 attack on the World 
Trade Center (WTC). EPA has posted much of its monitoring data on its 
Website at http://www.epa.gov/wtc/monitoring/index.html.
    EPA has also made all of its data available to the public through 
the National Institute of Environmental Health Sciences and Columbia 
University at http://wtc.hs.columbia.edu/wtc/Default.aspx.
    The EPA sampling data and the data from many other federal and 
state agencies are also available on a CD at http://oaspub.epa.gov/nyr/
ced.
    Remote monitoring data was collected and analyzed by the United 
States Geological Survey (USGS, 2001), the Aerospace Corporation 
(2002), and EPA's Environmental Photographic and Interpretation Center 
(US EPA, December 2005). The New York City Department of Environmental 
Protection (NYCDEP) conducted a building-by-building survey of the 
lower Manhattan buildings to determine the extent of external 
contamination. The plumes resulting from the collapse of the towers and 
subsequent fires were modeled by EPA (Gilliam, et al., 2005, Huber, et 
al., 2004).
    It is clear from this data that the plumes from the collapse of the 
WTC and subsequent fires impacted much of the New York City (NYC) metro 
area. The most heavily impacted area is approximately bounded on the 
north by Chambers Street and the Brooklyn Bridge approaches. This area 
is entirely contained within the area that was the subject of EPA 
Region 2's 2002-2003 Indoor Air Residential Assistance Program.
    Impacts on the Indoor Environment.--Shortly after the 9/11 attack, 
concerns were raised about the impact of the attack on the indoor 
environment. The Ground Zero Task Force commissioned a survey of two 
residential buildings (Chatfield & Kominsky, 2001). The buildings 
sampled were 45 Warren Street, four blocks north of Ground Zero 
(undamaged); and 250 South End Avenue, close to Ground Zero, to the 
southwest of the WTC (damaged). The Warren Street building was 
considered to have been exposed to lower concentrations of dust than 
that at South End Avenue. The purpose of the survey was to assess the 
levels of polychlorinated biphenyls (PCBs), dioxins, furans, metals, 
and asbestos inside the buildings. Sampling was conducted on September 
18, 2001 The report concluded that concentrations of PCBs, dioxins, 
furans, and metals (excluding calcium) were generally low or below 
comparative background levels at both locations. Concentrations of 
asbestos found in dust samples and in the air inside the apartments 
were significantly elevated, and all of the indoor samples collected in 
the South End Avenue building exceeded 0.05 S/cc PCMe (structures per 
cubic centimeter phase contrast microscopy equivalents).
    From November 4 through December 11, 2001, the New York City 
Department of Health and Mental Hygiene (NYCDOHMH) and the Agency for 
Toxic Substances and Disease Registry (ATSDR) collected environmental 
samples in and around 30 residential buildings in lower Manhattan, and 
comparison samples in four buildings above 59th Street (NYCDOHMH/ATSDR, 
2002). The samples collected were analyzed for asbestos, synthetic 
vitreous fibers, mineral components of concrete (crystalline silica, 
calcite, and portlandite), and mineral components of building wallboard 
(gypsum, mica, and halite). Their 2002 report concluded that higher 
levels of asbestos, synthetic vitreous fibers (e.g., fiberglass), 
mineral components of concrete, and mineral components of building 
wallboard were found in settled surface dust in lower Manhattan 
residential areas when compared with comparison residential areas above 
59th Street. NYCDOHMH and ATSDR recommended:
    (1) Frequent cleaning with HEPA vacuums and damp cloths/mops to 
reduce the potential for exposure;
    (2) Additional monitoring of residential areas in lower Manhattan;
    (3) An investigation to better define background levels specific to 
New York City for asbestos, synthetic vitreous fibers, mineral 
components of concrete, and mineral components of building wallboard; 
and
    (4) Residents in lower Manhattan who were concerned about potential 
WTC-related dust in their residences participate in EPA Region 2's 
Indoor Air Residential Assistance Program.
    In February 2002, a multi-agency task force headed by EPA was 
formed to evaluate indoor environments for the presence of contaminants 
that might pose long-term health risks to residents. As part of this 
evaluation, a task force subcommittee was established (COPC Committee) 
to identify contaminants of potential concern that were likely to be 
associated with the WTC disaster and to establish health-based 
benchmarks for those contaminants during the planned (2002-2003) 
Assistance Program in lower Manhattan. A systematic risk-based approach 
was used to select COPC. The goal was to identify those contaminants 
likely to be present within indoor environments at levels of health 
concern. The following chemicals were identified as COPC: dioxins, 
PAHs, lead, asbestos, fibrous glass, and crystalline silica.
    Risk-based benchmarks were developed to be protective of long-term 
habitability of residential dwellings and were submitted for peer 
review (US EPA, 2003a). EPA also conducted a cleaning study to evaluate 
the performance of the cleaning methods recommended in the NYCDOHMH and 
ATSDR report to ensure that the health-based benchmarks could be 
achieved by using them (US EPA, 2003c). EPA concluded the following:
    (1) Observation of apparently WTC dust at that time was a good 
indicator that WTC contaminants were present, and the amount of such 
dust correlated with the level of contamination;
    (2) Concentrations of some contaminants in the WTC dust were 
elevated above health-based benchmarks;
    (3) Use of a standard cleaning method of vacuuming and wet wiping 
significantly reduced levels of WTC-related contamination with each 
cleaning event and was successful in reducing concentrations to levels 
below health-based benchmarks (in some cases, 2 or 3 cleanings were 
necessary);
    (4) Asbestos in air is a good indicator of whether additional 
cleaning is needed; and
    (5) Standard HVAC cleaning methods reduced the concentrations of 
WTC contaminants in HVAC systems.
    Concurrently, EPA also conducted a ``Background Study'' to 
determine levels of selected contaminants in fourteen residential 
buildings (north of 77th Street in Manhattan) not directly impacted by 
the airborne dust plume that emanated from the WTC site (US EPA, 
2003b). EPA sampled 25 residential units and nine common areas within 
the 14 buildings. The contaminants studied included: asbestos, lead, 
dioxins, PAHs, fibrous glass, crystalline silica, calcite, gypsum, and 
portlandite. The data collected from this study provided estimates of 
background concentrations for compounds that were identified as COPC 
related to the WTC collapse. The estimates were shown to be consistent 
with other background studies and historical data, where such 
comparison data were available.
    Beginning in 2002, residents of lower Manhattan, who lived below 
Canal Street were provided a choice of services. Residents could choose 
to have their residence professionally cleaned, followed by 
confirmatory testing, or they could choose to just have their homes 
tested. Owners and managers of residential buildings and boards of 
cooperatives and condominiums could also have their building's common 
areas cleaned and tested and the HVAC system evaluated and cleaned, as 
necessary. The common areas cleaned and tested included areas such as 
the building lobby, hallways, stairways, and elevator interiors. 
Certain other common areas, including laundry rooms, utility rooms, 
compactor rooms and elevator shafts, were tested and cleaned as needed.
    Between September 2002 and May 2003, residences were cleaned using 
standard asbestos cleanup methods: using HEPA-filtered vacuums and wet 
wiping all horizontal hard surfaces (i.e., floors, ceilings, ledges, 
trims, furnishings, appliances, equipment, etc.). Vertical and soft 
surfaces were HEPA vacuumed two times. Depending upon the size of the 
residence, from three to five air samples were collected and analyzed 
for asbestos by using transmission electron microscopy (TEM) and phase 
contrast microscopy (PCM). A total of 4,167 apartments in 454 buildings 
and 793 common areas in 144 buildings were sampled for asbestos in air. 
A total of 28,702 valid sample results were analyzed; 22,497 from 
residential units, and 6,205 from common areas within residential 
buildings (e.g., hallways, laundry rooms). In a subset of the 
residences, pre and post-cleanup dust wipe samples were collected 
(e.g., from floors, walls, and furniture) and analyzed for dioxin, 
mercury, lead, and 21 other metals.
    Of the total of 28,702 valid residential asbestos in air results 
generated, the number of samples that exceeded the health-based 
benchmarks for airborne asbestos was very small, 0.47% for the clean 
and test residences and 0.5% for the test only residences. In those 
residences and common spaces where the benchmark was exceeded in both 
residences and in common spaces, the cleanup program was successful in 
achieving the health-based benchmark for asbestos after the first 
cleaning approximately 99% of the time. An analysis of the location of 
asbestos exceedances does not demonstrate a spatial pattern of 
exceedances relative to WTC proximity. Apparent groups of asbestos 
exceedances could be explained by the location in the sampled buildings 
and the variability in the number of samples that were collected from 
each building. When we compared the frequency of detection from samples 
collected from clean and test and test only residences with the 
frequency of detection for samples collected in the background study, 
we found that they were similar. There was a detection rate of 2% in 
lower Manhattan (2.2% clean and test and 1.94% for test only) and 5% in 
upper Manhattan. The minimum concentrations from both areas were 
identical, while the maximum detected concentration in lower Manhattan 
was higher than the maximum detected concentration in upper Manhattan. 
Although the maximum detected concentrations were not similar between 
the two areas, the percentage of samples that exceeded the health-based 
criteria was similar, with 0.5% (of all asbestos samples) in lower 
Manhattan and 0.0% (no exceedances) in upper Manhattan. The mean values 
appear to be indistinguishable from background values.
    Wipe samples were collected from 263 apartments in 156 buildings. 
Aproximately 14% of the pre-cleanup samples exceeded the 25 mg/
ft<SUP>2</SUP> U.S. Department of Housing and Urban Development (HUD) 
screening level for lead. There were very few exceedances of the 
health-based screening values measured for any of the other 22 metals. 
The 627 mg/m<SUP>2</SUP> screening value for antimony was exceeded in 
two pre-cleanup samples (0.1% of all samples); the maximum measured 
value was 1,180 mg/m<SUP>2</SUP>. The 157 mg/m<SUP>2</SUP> screening 
value for mercury was exceeded in five pre-cleanup samples (0.4% of all 
samples). The health-based benchmark for residential dust dioxin 
loading of 2 mg/m<SUP>2</SUP> was exceeded in four pre-cleanup samples 
(0.26% of all samples). The percentage of apartments that exceeded the 
lead health-based benchmark was greater than the percentages of 
apartments that had exceedances for other metals, mercury and dioxin. 
The frequency of detection, the maximum detected concentration, and the 
percentage of samples that exceeded the risk-based criteria were higher 
in the dust cleanup program in lower Manhattan when compared with the 
results from the background study in upper Manhattan for both test and 
clean and test only residences. The clearest relationship found was 
between lead concentrations and age of building, suggesting lead paint 
as a cause for high lead measurements in lower Manhattan. Proximity to 
the WTC and floor of the building seemed to be, at best, weakly related 
to measured levels of lead. The level in lower Manhattan was 
consistent, however, with data from the HUD on mixed age housing stock 
in the northeast United States. This factor makes it difficult to 
distinguish between lead from WTC dust and other sources, especially in 
older buildings.
    EPA Interpretation of Data.--With the exception of heavily impacted 
buildings which remain uncleaned, such as the former Deutsche Bank 
building at 130 Liberty Street, the level of contamination measured in 
indoor environments in the area most heavily impacted by the plume is 
low. No pattern that could be related to the WTC collapse was 
detectable in this area of lower Manhattan. It appears that cleaning 
efforts by residents, building owners and operators, EPA, and NYC, 
where applied, have been successful in reducing levels of 
contamination. The COPC asbestos, man made vitreous fibers (MMVF), and 
lead, are common materials in the urban environment. Silicates form 59% 
of the earth's crust. PAHs and dioxins are produced by many combustion 
sources, including automobiles and the 28,000 structural fires that 
occur in NYC each year. We estimate that there are over 170 million 
square feet of interior space in lower Manhattan. There may be areas 
within this space that have not been cleaned of WTC dust. The lack of a 
specific indicator for WTC dust, the nature of the contaminants, the 
widespread, low-level, background contamination from other urban 
sources, and the large and varied nature of the space involved make a 
sampling effort to identify additional areas whose cleanup would result 
in a reduction in exposure to WTC contaminants infeasible.
    EPA has identified a small number of buildings that were not 
cleaned and are currently unoccupied. All of these buildings are 
scheduled for demolition or reconstruction. EPA and a number of 
federal, state, and local agencies are cooperating to ensure that this 
work is carried out in a manner that will not adversely impact public 
health and the environment.
                                 ______
                                 
 Responses by Susan Bodine to Additional Questions from Senator Clinton

    Question 1. EPA press releases announcing the latest test and clean 
program state that any residual health risk is minimal. Yet we know 
that people are getting sick. Just this month, a study published by 
researchers from the New York State Department of Health, the NYU 
School of Medicine, and SUNY at Albany concluded that residents who 
were exposed to contamination generated by the collapse that had been 
deposited in their homes had a significantly elevated rate of 
persistent airway disease. This study also found a strong correlation 
between reactive airway disease and exposures to indoor contamination 
for a period of 3 months or longer.
    These findings, and others like them, suggest that EPA's testing 
and risk assessments, which are based on data from 2001 and 2002, are 
lacking. Has EPA evaluated this and similar studies in order to inform 
and revise its post 9/11 risk assessment?
    Response. EPA has and continues to evaluate studies (particularly 
those that appear in peer-reviewed journals) on health effects and 
contaminant characterization resulting from the WTC disaster to inform 
its ongoing response actions. For example, the draft risk assessment 
which evaluates exposures and potential health risks from outdoor, 
ambient air developed by EPA's Office of Research and Development, has 
included evaluations and summaries of epidemiological studies on health 
effects attributed to exposure to World Trade Center-associated 
contaminants. This risk assessment, titled ``Assessment of Inhalation 
Exposures and Potential Health Risks to the General Population that 
Resulted from the Collapse of the World Trade Center Towers'' has been 
submitted as a manuscript for publication in the open literature. For 
more information on the status of that risk assessment, see response to 
question #10 below.
    The particular study referenced in Question 1 (Upper Respiratory 
Symptoms and Other Health Effects among Residents Living Near the World 
Trade Center after September 11, 2001.--Am J Epidem (162) P. 499-507, 
2005) focused on the indoor (residential) environment and assessed new 
onset and persisting upper respiratory symptoms during approximately 
the first 12 months post 9/11. One of the strengths of this study is 
that it attempted to recruit a large sample of residents in the 
vicinity of the WTC; however, like many epidemiologic studies, response 
rate was poor as was dose reconstruction for individuals in the study. 
Of particular concern is the lack of information reported in the study 
as to whether any of the subjects in the affected area were caught in 
the dust plume on the morning on 9/11/O1 . Acute, high intensity 
exposure of this type would likely be a strong contributing factor to 
new-onset upper respiratory symptoms directly after 9/11.
    In announcing its latest Test and Clean Program, the notation by 
EPA that residual health risk is minimal was based on information from 
sampling conducted by EPA and others (see above response to question 
from Senator Inhofe). Most compelling was the information obtained from 
EPA's 2002/2003 Indoor Air Residential Assistance Program that serviced 
over 4,000 residential apartments. The residential samples obtained 
from this program were generally obtained beyond one year after the 
event and were evaluated against health-based benchmarks that were 
developed to be protective of long-term exposure for contaminants such 
as asbestos that pose chronic health effects. Data show that about 1% 
of the residences that were either tested (1.15%) or cleaned and then 
tested (1.03%) exceeded EPA's benchmark for asbestos in air.
    The collapse of the World Trade Center Towers resulted in impacts 
to both the outdoor and indoor environments. These environmental 
impacts have resulted in measured health impacts to both WTC site 
workers and, to a lesser extent, the general population residing and 
working in the vicinity of Ground Zero. EPA has considered this 
information in its risk assessments and in its current Test and Clean 
Program.
    As noted in our response to Senator Inhofe's question, EPA 
implemented the program to address the recommendations outlined in the 
ATSDR and NYCDOH assessment.

    Question 2. Just this month, a study published by researchers from 
the New York State Department of Health, the NYU School of Medicine, 
and SUNY at Albany concluded that residents who were exposed to 
contamination generated by the collapse that had been deposited in 
their homes had a significantly elevated rate of persistent airway 
disease. This study also found a strong correlation between reactive 
airway disease and exposures to indoor contamination for a period of 3 
months or longer.
    What this study indicates is that exposure to WTC dust in 
residential settings caused negative health impacts after as little as 
3 months of exposure. Is EPA now prepared to respond within this kind 
of time frame to assess and remediate indoor contamination caused by a 
building collapse or other environmental disaster?
    Response. The scope and long-term timing of federal agency 
response, including EPA's response, will necessarily depend, in part, 
on the nature of the incident. After the events of September 11, New 
York City was initially responsible for residential and indoor air 
issues following the events of September 11. From the beginning, the 
Federal Emergency Management Agency (FEMA), New York City and State, as 
well as EPA, provided advice to residents on cleanup methods (wet 
wiping/mopping, HEPA vacuuming) that proved effective. In addition, for 
residences with more than minimal dust, EPA urged using professional 
asbestos abatement cleaners.
    Since that time EPA has made significant progress in preparedness 
efforts to assess and remediate indoor contamination caused by a 
building collapse or other environmental disaster. EPA's National 
Homeland Security Research Center is engaged in an effort for the 
development of subchronic health-based exposure advisory levels for the 
general public called Provisional Advisory Levels (PALs). PALs address 
exposure durations of one day, 30 days, and two years for chemical 
contaminants detected in air or drinking water. To date, EPA has 
developed PALs for over 20 chemicals (which equates to over 360 
separate values: three exposure durations, for three levels of severity 
and for two environmental media). In addition, EPA is also continuing 
an effort with the National Research Council's Committee on Toxicology 
in the development of Acute Exposure Guidance Levels (AEGLs). They are 
emergency response standards applicable to the general public . They 
are developed for three levels of severity and for the durations of ten 
minute, 30 minute, one hour, four hour and eight hour exposures. PALs 
are being developed to provide benchmarks to bridge the gap between the 
acute exposure durations covered by the AEGLs and the chronic lifetime 
exposures covered by inhalation RfCs (Reference Concentrations) and 
oral RfDs (Reference Doses).
    EPA also developed a method to assess risk from exposures to 
contaminated building surfaces. This guidance will be incorporated into 
an upcoming revision of the Risk Assessment Guidance for Superfund, 
Part E, Dermal Risk Assessment, which is expected to be released later 
in 2007.

    Question 3. In February of 2006, Whitehouse Homeland Security 
Advisor Fran Townsend issued a report about the Administration's 
response to Katrina. That report concluded the following:
    ``Federal officials could have improved the identification of 
environmental hazards and communication of appropriate warnings to 
emergency responders and the public . . . there must be a comprehensive 
plan to accurately and quickly communicate this critical information to 
the emergency responders and area residents who need it. Had such a 
plan existed, the mixed messages from Federal, State, and local 
officials on the reentry into New Orleans could have been avoided.''
    The report went on to make the following recommendation: ``DHS, in 
coordination with EPA, HHS, OSHA, and DOE should develop an integrated 
plan to quickly gather environmental data and provide the public and 
emergency responders the most accurate information available to decide 
whether it is safe to operate in a disaster environment or return after 
evacuation. This plan should address how to best communicate risk, as 
well as determine who is accountable for making the determination that 
an area is safe. It should also address the need for adequate 
laboratory capacity to support response to all hazards. The plan should 
be completed in 180 days.''
    At the hearing I asked a question about whether this work had been 
completed, and EPA responded that:
    ``The agency has been working on a crisis communication plan. It is 
still in draft, it is still under review within the agency.''
    Please provide a copy of that draft communication plan, as well the 
timeline for completion. In addition, please provide whether EPA is 
implementing the other recommendations made in the February 2006 White 
House report on the Katrina response.
    Response. The Townsend Report recommendation you reference 
recommended that the Department of Homeland Security (DHS) develop a 
plan in consultation with other federal agencies. DHS is in the best 
position to report on its progress in developing this plan. EPA's 
Crisis Communication Plan, (a copy is enclosed with this response) 
outlines responsibilities and procedures to help ensure the public 
receives accurate, timely, EPA information during a crisis. The plan 
summarizes EPA's public information roles at the field, regional and 
national levels during incidents of national significance; provides 
guidelines for developing and distributing information to the public, 
in coordination with partner agencies; and outlines the Agency's 
training requirements for public information staff. EPA considers this 
a living document and expects to update and revise the document 
periodically. Work is also underway to develop a companion resources 
guide for the implementation of the plan. This guide will include 
message maps, fact sheets, templates for communication of sampling 
data, job aides and other tools to assist the public information staff 
during a response. The Incident Command System training course for EPA 
Public Information Officers has already been revised to conform with 
the information in the Crisis Communications Plan.
    An important aspect of communicating risk is the coordination 
between the Public Information Officer staff and the Environmental Unit 
staff to assure that environmental data is communicated in an 
appropriate context in plain language. In response to Katrina, a policy 
was established to include an Environmental Unit in EPA Headquarters 
that will work with public information staff after the data has been 
evaluated, validated and interpreted to assure that the data is 
presented in language that is easily understood and in formats easily 
accessible to the public.
    EPA also is in the process of establishing an Environmental 
Response Lab Network (eLRN). The criteria for joining the eLRN will be 
in place at the end of this fiscal year and will include quality 
assurance and data standard requirements. The network will include 
existing capabilities for standard toxic industrial chemicals as well 
as chemical, biological and radiological (CBR) agents. The 
environmental lab capacity for these CBR agents is limited at this time 
EPA is working with the DHS, Department of Defense (DOD) and other 
agencies to expand these capabilities.
    Although EPA was not assigned the lead on any of the 
recommendations in the 2006 White House report on the Katrina response, 
EPA stands ready to continue coordination with the DHS and other 
agencies to improve inter-agency coordination on this important topic 
of risk communication and community outreach, and other 
recommendations.

    Question 4. In November of last year, Paul Lioy, Edo Pellizzari, 
and David Prezant published an article in the journal Environmental 
Science and Technology. As you know, Dr. Lioy was the Vice-Chairman of 
the EPA WTC Expert Technical Review Panel and is director of the 
Exposure Science Division of the EIOSHI at RWJMS, and Dr. Prezant is 
the chief medical officer of the FDNY. The authors have been heavily 
involved in examining contamination, exposure and health issues arising 
from the 9/11 attacks. In this article, they review the lessons of 9/11 
and conclude that new protocols, strategies and tools are needed in 
order to better prepare for future disasters and to avoid repeating the 
mistakes made after 9/11. They make a detailed set of recommendations 
for EPA, OSHA and DHS, and I am going to follow up with detailed 
questions about these recommendations.
    In regards to the EPA, the report states: ``We need to develop 
exposure-science measurement tools (personal and biological markers), 
models and strategies for event preparedness. A set of ``on the 
ground'' protocols is necessary for quickly assessing the hazards and 
extent of contamination indoors and outdoors. Specific types of 
personal and stationary monitors must be made available for placement 
in strategic locations. A solution for measuring supercoarse particles 
still needs to be provided. Disaster preparedness requires that we 
develop an effective, universal disaster plan, with disaster-specific 
components, for outdoor and indoor sampling and cleanup with 
appropriate quality assurance.''
    Has EPA taken steps to implement these recommendations or to 
address the concerns raised by the authors?
    Response. EPA has long used environmental data and a variety of 
risk-based models and tools to estimate the hazards of toxic compounds 
and their potential for human exposure and harm. These tools have been 
tested against both real and simulated releases and have been found to 
be very reliable. These tools are used to develop preparedness plans to 
respond to a variety of disaster scenarios.
    The response to Question 2 above provides information about ongoing 
efforts to develop exposure science measurement tools, models and 
strategies for event preparedness.
    EPA has a number of emergency response models and tools to quickly 
assess the hazards and extent of contamination at disaster sites. 
Onsite monitoring data, prevailing meteorological conditions and geo-
spatial data can be processed, in real-time, to produce site-specific 
maps depicting the extent, location of the contaminant plume, estimated 
concentration, as well as its migration and movements. These site-
specific maps can help direct emergency response activities such as 
directing sampling efforts or initiating evacuation, to hasten the 
recovery efforts and protect the public.
    EPA is currently evaluating its inventory of response equipment, 
methods and protocols. Part of this effort has been to develop uniform 
guidelines for use of response equipment and the compilation of a 
database of all available response equipment throughout the agency. The 
location and availability of specific monitoring equipment, vehicles, 
and sampling and analysis equipment will be at the disposal of EPA OSCs 
across the United States. Equipment can be deployed from any EPA 
warehouse to disaster sites throughout the United States. The database 
is currently undergoing beta-testing, with final release scheduled for 
the end of 2007.
    EPA is continually developing and refining scenario driven disaster 
response plans on both the national and regional level. Inter-agency 
working groups, sponsored by EPA and DHS, have developed restoration 
plans for large transportation infrastructures. These have produced 
universal templates that can be used in developing generic disaster 
preparedness plans for a variety of scenarios. EPA is also supporting 
several inter-agency working groups developing uniform validated 
sampling plans, analytical methods and quality assurance protocols to 
support the timely cleanup and restoration of infrastructures after 
disaster events.

    Question 5. EPA's testimony stated that the Agency did a good job 
after Katrina in collecting data and making that data available. 
However, the EPA IG report about EPA's Katrina response states that: 
``EPA During emergencies such as Hurricane Katrina, there is an 
immediate need for decision makers at various levels of government to 
have reliable water quality data. One of the databases used by EPA to 
store floodwater data is the SCRIBE database. EPA provided access to 
the data to officials at the State level and New Orleans parishes. 
However, Louisiana officials had trouble querying the database due to a 
lack of training and had trouble verifying the quality of data due to 
inconsistent data entry. Set protocols would address these types of 
issues.
    EPA regional officials concurred that problems existed with 
querying SCRIBE. Region 6 officials said they have taken actions to 
correct these issues. This included querying the database on behalf of 
Louisiana until the issue was resolved to ensure Louisiana obtained the 
information it needed. This also included Region 6 providing training 
on the use of SCRIBE and making a SCRIBE user guide available to State 
officials.''
    Clearly, the communication plan was not prepared to respond to 
post-Katrina needs from outside of the Agency. How do you reconcile 
your testimony with the IG's assessments? Can you please provide a 
report on the steps that EPA has taken to address the problems 
identified by the IG report, and to ensure that it has a fully 
operational communication plan in place for response to future 
emergencies?
    Response. SCRIBE is a field tool for collecting and managing data 
by On-Scene Coordinators (OSCs) and other field personnel. Since SCRIBE 
is a local application for use on personal computers, it is difficult 
to share data consistently. During Katrina, EPA used a preexisting 
water quality database to store the analytical data from the flood 
water and sediment sampling. This allowed us to share the data with the 
public via EPA's Enviromapper software. EPA is working to create a data 
store more suited to its environmental assessment data using its new 
Portal technology. Since there will be a predetermined path for the 
data from the field to the central database, this technology will allow 
us to securely share our data with our partners and will also assist 
EPA in quickly sharing data with the general public. The Emergency 
Management Portal (EMP) will allow data to be queried and viewed in 
tabular format or spatially using existing EPA GIS tools. It will also 
allow data to be downloaded for use in other analytical tools. This 
module of the EMP is scheduled to be ready in 2008. In the interim, 
another approach has been identified in lieu of the approach that was 
utilized during the Hurricane Katrina response. In this interim 
approach as well as the EMP approach, the sharing of information with 
States and other partners will be greatly simplified and EPA does not 
forsee any issues with use of the technology by our partners.

    Question 6. The 9/11 Commission report states ``The EPA did not 
have the health-based benchmarks needed to assess the extraordinary air 
quality conditions in Lower Manhattan after 9/11. The EPA and the White 
House therefore improvised and applied standards developed for other 
circumstances in order to make pronouncements regarding air safety, 
advising workers at Ground Zero to use protective gear and advising the 
general population that the air was safe. Whether those improvisations 
were appropriate is still a subject for medical and scientific 
debate.''
    Based on the emerging scientific evidence, I believe it is clear 
that the improvisations made by the EPA and the White House were 
flawed, and have placed the long-term health of thousands of Americans 
in jeopardy. Please provide a detailed plan of what metrics you have 
designed for assessing risk, and your risk communication plan for 
informing the public of those risks during future disaster scenarios. 
What elements of this plan when tested by Hurricane Katrina fell short, 
and how as a result have you modified your action plan in order to 
protect public health and the environment?
    Response. As noted in the response to Question #2 above, EPA has 
and continues to take part in an inter-agency effort to develop acute 
exposure guideline levels (AEGLs). AEGLS span acute exposure durations 
from 10 minutes to 8 hrs. Evaluation of available AEGLs informed EPA's 
position that workers on the pile should be equipped with appropriate 
respiratory protection. For exposures extending beyond the acute phase 
(greater than 24 hours), EPA developed screening criteria for the 
ambient air based on a subchronic exposure of 1 year (the best estimate 
in the days after 9/11 for site clean-up to be completed and in 
retrospect a reasonable upper-bound estimate given the site clean-up 
was completed by the end of May, 2002).
    The methodology used to develop sub-chronic screening criteria for 
the ambient air, as noted in the above 9/11 Commission quote, employed 
existing standards (e.g., National Ambient Air Quality Standards--
NAAQS) where relevant and appropriate. However, standards are not 
available for every chemical that may be released as the result of an 
incident of national significance. Thus, for most of the contaminants 
associated with the WTC disaster, screening criteria were risk-based 
and developed using well-established EPA risk assessment procedures and 
protocols. The full process was submitted for peer review in the draft 
of the ``World Trade Center Indoor Air Assessment: Selecting 
Contaminants of Concern and Setting Health Based Benchmarks_September, 
2002. A similar hierarchical process (employing existing standards 
where applicable then reverting to risk-based methods) was used and 
well-received by the independent peer review panel, for developing 
long-term benchmarks for indoor air and settled in the aforementioned 
report.
    During the Hurricane Katrina response, we were able to quickly and 
effectively use the methodology that had been developed post 9/11 to 
generate appropriate screening levels to compare to outdoor/ambient air 
monitoring results. The screening levels included relevant standards 
and the development of one year, risk based criteria for those 
chemicals without applicable standards. In order to ensure that EPA 
uses the best available scientific information, it is critical to 
develop incident-specific screening levels at the time of the response.

    Question 7. In your testimony you highlight the fact that the EPA's 
own Emergency Operations Center has a state of the art HVAC system in 
order to allow it to operate effectively in an emergency situation (pg. 
6). A building's air-handling system can be likened to its lungs, and 
if its air handling system becomes internally contaminated, all persons 
present within it will be continually exposed to those air 
contaminants. As EPA highlights the importance of a building's air 
handling system, how do you explain the fact that the EPA's test and 
clean program was very restrictive in evaluating and cleaning HVAC 
systems in buildings that were clearly impacted by WTC dust and debris?
    Response. The configuration of HVAC systems makes it impractical to 
obtain load samples (mass per unit area) that could be related to the 
benchmarks. Load samples are collected with a series of templates and 
equipment that cannot be reliably operated in a confined space. 
Concentration (weight per weight) of a contaminant in settled dust is a 
poor indicator of risk. A very dusty environment may pose a risk even 
if the concentration in dust is low. Conversely, an environment with 
little dust would not pose a risk even if there was a high 
concentration of the contaminant in the small amount of dust. The 
decision criteria for HVAC cleanup was proposed, in early plans, and 
remains based on the 95% upper confidence level (UCL) for a contaminant 
of potential concern (COPC) in the common areas of the building. Common 
area samples will be collected in close proximity to HVAC supply ducts 
in the air and of dust from surfaces in these areas. We do not consider 
this to be restrictive. It is in accord with EPA cleanup goals in many 
areas; an exceedance in a pathway of concern (air or dust) triggers a 
cleanup.

    Question 8. The GAO testified that they: ``found no basis for the 
$7 million EPA identified to implement its second program. It was 
simply the money left over from the first test and clean program, and 
it is less than 20 percent of the first program's funding. EPA chose to 
limit the scope of the second program to fit within these available 
resources, rather than design a comprehensive program and then estimate 
the resources needed to carry it out. EPA told us that if the demand 
had exceeded available resources, it would have limited participation 
in the program, rather than request additional resources.''
    Taking into account the human health data available when the test 
and clean program was implemented in 2007, how do you justify the 
modest budget allotted to the program in relation to the human health 
cost attributed to exposure to WTC collapse materials? What is the 
EPA's policy of giving weight to economic assessments in determining an 
adequate level of human health protection? In terms of protecting human 
health in an emergency or disaster scenario, where current risk 
analysis paradigms may have little or no applicability, what would be 
the benefit of implementing a response that is directed solely from the 
scientific guidance versus that, as in the post 9/11 New York, in which 
economic assessments also played a directing role? What would a test 
and clean program look like if it were developed without any 
consideration of economic assessment or existing budgetary allotments?
    Response. EPA informed GAO that there is approximately $7 million 
in FEMA funds available to EPA to execute a plan. However, we did not 
develop a plan based on a $7 million budget. Each plan that EPA has 
proposed has included a table indicating what specific samples would be 
collected in each unit, space or building sampled. Based upon our 
experience in the indoor dust clean up program, and information on 
contract costs in EPA's existing programs, EPA has evaluated the 
potential costs for the plans by multiplying out the number of samples 
by the expected sample costs and by adding estimates for the costs of 
collecting samples, validating sample results and performing any 
necessary cleaning. The only significant variable involved in the cost 
estimates is the number of participants. Budgets did not dictate the 
plans, they arose from the plans.
    GAO notes that the $7 million available for the current plan is a 
little less than 20% of the first program funding. In the first program 
a total of 4,167 apartments and 144 buildings were sampled for asbestos 
in air. In the current program, a total of 272 apartments and 25 
buildings are expected to participate. EPA has not asked for additional 
supplemental appropriations. At this time EPA has no reason to do so.
    Regarding the development of a test and clean program without any 
consideration of economic assessment or existing budgetary allotments, 
our response to Senator Inhofe in Question 1 describes the efforts of 
NYCDOHMH and ATSDR, the agencies responsible for public health 
evaluation, in the aftermath of the WTC attack. As noted in the 
testimony provided by ATSDR to your Committee, the primary finding of 
their investigation was that the levels of materials detected in the 
air and dust did not pose a potential health hazard provided that 
recommended cleaning measures were followed. Based upon their 
investigation, NYCDOHMH and ATSDR recommended:
    <bullet> Additional monitoring of residential areas be conducted in 
lower Manhattan;
    <bullet> Additional investigation be conducted to define background 
levels specific to the City of New York; and
    <bullet> Lower Manhattan residents concerned about possible WTC-
related dust in their residential areas participate in the 2002-3 EPA 
voluntary cleaning/sampling program.
    EPA, acting in concert with NYC, implemented these recommendations. 
Our evaluation of the program results are included in the response to 
Senator Inhofe: ``No pattern that could be related to the WTC collapse 
was detectable in this area of lower Manhattan. It appears that 
cleaning efforts by residents, building owners and operators, EPA, and 
NYC, where applied, have been successful in reducing levels of 
contamination.'' This conclusion is consistent with the initial 
findings of NYCDOHMH and ATSDR.

    Question 9. CEQ's testimony stated that: ``We had a particular 
focus on the workers, who faced extreme danger in the conditions during 
the recovery and rescue work. We had a second focus on the people who 
were acutely exposed to the volume of dust immediately after the 
collapse, and that really was in the hands of the public health 
professionals. EPA was instrumental in encouraging people to go seek 
medical help and monitoring.''
    Based on the Administration's position, why then were there no 
statements issued to public health professionals advising them to be 
cognitive of acute exposure symptoms and potential long-term health 
impacts of exposure to WTC debris and materials? Have you integrated 
into your future communication plan safeguards to ensure that the 
medical community and health care system are properly informed?
    Response. The National Institute of Occupational Safety and Health 
(NIOSH) did issue statements to public health professionals advising 
them to be aware of potential impacts from exposure to WTC debris and 
material. The National Institute of Environmental Health Sciences also 
worked to provide information to health professionals. While the two 
Institutes are better able to fully detail their actions, each has 
posted explanatory information on their websites. Information on 
efforts by NIOSH can be found on the NIOSH website at: http://
www.cdc.gov/niosh/topics/wtc/ and at: http://www.cdc.gov/niosh/02-
143.html. Information on efforts by NIEHS can be found at: http://
www.niehs.nih.gov/dert/profiles/stories/2002/911.htm
    EPA will defer to the Department of Health and Human Services 
(DHHS) on statements issued on public health and to public health 
professionals in general. However, as stated in reply to Question 3, 
EPA's Crisis Communication Plan outlines responsibilities and 
procedures to ensure the public receives the most accurate information 
in a timely manner. EPA's communication plan does make it clear that 
the review environmental data (which is closely linked to health 
effects) will be coordinated with appropriate affected agencies. As EPA 
develops the companion resources guide, EPA will coordinate with 
agencies such as the Agency for Toxic Substances and Disease Registry 
(ATSDR). During the response to Hurricane Katrina, EPA worked closely 
with DHHS, ATSDR and the Centers for Disease Control (CDC) regarding 
the communication of environmental data. As mentioned above, we also 
stand ready to continue this interagency coordination on risk 
communication with DHS and other appropriate agencies to assure 
necessary community outreach.

    Question 10a. EPA's draft document, ``Exposure and Human Health 
Evaluation of Airborne Pollution from the World Trade Center 
Disaster'', was released for comment and brought to the attention of 
the press by the Agency during the last week of 2002, generating a 12/
28 NYT article headlined: ``No Serious Risks for Public Near Ground 
Zero, E.P.A. Reports''. The draft document underwent peer review at a 
two day meeting, held in NYC and hosted by Versar, Inc., on July 14-15, 
2003. The peer review report, ``Summary Report of the U.S. EPA 
Technical Peer Meeting on the Draft Document Entitled: Exposure and 
Human Health Evaluation of Airborne Pollution from the World Trade 
Center Disaster'', was finalized in December of 2003. Though the 
product of an external peer review panel is a public document, the 
conclusions and recommendations of the peer reviewers were so 
antithetical to EPA's purposes that the Agency sought to suppress the 
report. Only with the assistance of the OIG, was I able to secure its 
release.
    In December 2005, New Yorkers queried EPA regarding the status of 
the report and learned that it had been revised, and that the revised 
draft had been submitted to the July 2003 peer review panel for a 
letter review in the summer of 2005 under the title, ``An Inhalation 
Exposure and Risk Assessment of Ambient Air Pollution from the World 
Trade Center Disaster'' An EPA email response to this query in December 
of 2005 stated that EPA was in the process of preparing the report for 
public release in January or February 2006. However, requests for 
revised drafts of this document and other information about the process 
have been unanswered. Please provide the following documents and 
information:
    The revised version of the external review draft, ``Exposure and 
Human Health Evaluation of Airborne Pollution from the World Trade 
Center Disaster'', that was submitted for peer review in 2005, under 
the title, ``An Inhalation Exposure and Risk Assessment of Ambient Air 
Pollution from the World Trade Center Disaster'', or under its original 
title, or under another title:
    The name of the contractor that managed the 2005 peer review for 
EPA.
    Response. Versar, Inc., 6850 Versar Center, Springfield, VA 22151.

    Question 10b. The names of the peer reviewers who participated in 
the 2005 peer review.
    Response. Michael Dourson, Ph.D., DABT, Toxicology Excellence for 
Risk Assessment (TERA), Cincinnati, OH 45211; Alison Geyh, Ph.D., Johns 
Hopkins University School of Public Health, Department of Environmental 
Health Sciences, Baltimore, MD 21205; Patrick L. Kinney, Sc.D., Mailman 
School of Public Health at Columbia University, Department of 
Environmental Health Sciences, New York, NY 10032; John R. Kominsky, 
M.Sc., CIH, CSP, CHMM, ROH, Environmental Quality Management, Inc., 
Cincinnati, Ohio 45240; Margaret MacDonell, Ph.D., Argonne National 
Laboratory, Argonne, IL 60439; Bertram Price, Ph.D., Price Associates, 
Inc., White Plains, NY 10601; Clifford P. Weisel, Ph.D., Environmental 
& Occupational Health Sciences Institute (EOHSI)/UMDNJ, Department of 
Environmental Medicine, Piscataway, NJ 08854.

    Question 10c. All work products completed by peer reviewers for the 
2005 peer review and communicated back to EPA.
    Response. The peer reviewers did not provide any products to EPA 
directly. They were hired by Versar and provided their review comments 
back to Versar. Versar provided EPA with a report titled, ``Support for 
the External Re-Review of the NCEA Report Exposure and Human Health 
Evaluation of Airborne Pollution from the World Trade Center Disaster'' 
dated October 11, 2005. That report contained a brief synopsis by 
Versar of the overall reviewer response to each of the charge 
questions, followed by the unedited reviews supplied by each reviewer.

    Question 10d. The charge questions provided to peer reviewers, the 
list of background documents, and the record of clarifying questions 
from peer reviewers and EPA's responses to those questions.
    Do you agree that these were important changes to have been made to 
the document? Do you have any comments on these new additions/changes? 
Would you recommend further major changes?
    Response. (a) Two new primary conclusions were added, bringing the 
total to five major assessment conclusions. The original three 
conclusions remain substantially the same, with some word changes. 
Please reread those and provide any fresh insights or comments, if 
appropriate. The new conclusions address the fact that health effects 
research has indicated that WTC-related respiratory and reproductive 
health effects have been observed in the general population. The new 
conclusions read:
    Respiratory impacts, such as exacerbated asthma and ``World Trade 
Center Cough'', have been observed in residents and other individuals 
living and working on the perimeter of Ground Zero, and these impacts 
have persisted in some individuals to the current time. As in this 
assessment, researchers studying the respiratory impacts have 
hypothesized that these effects resulted from inhalation exposures 
which occurred near Ground Zero, and very near September 11 in time 
when concentrations of critical respiratory contaminants (particulate 
matter, synthetic vitreous fibers, asbestos, and others) were thought 
to be substantially elevated over typical background levels in air.
    In addition to respiratory effects, reproductive effects were 
observed in two studies. In both studies, the cohorts were selected 
based on being near Ground Zero on September 11, but also who lived and 
worked in the area for weeks to months afterwards. Thus, both outdoor 
and indoor exposures may have contributed to the observed effects. In 
one study, the reproductive effect of intrauterine growth restriction 
resulting in small for gestational age babies was observed. In the 
second study, a small but significant reduction in gestation and birth 
weight was observed. Although attribution is not certain, the 
researchers concluded that the observed reproductive effects suggest an 
impact of pollutants (PAHs and particulates) and/or stress related to 
the WTC disaster.
    (b) The monitoring chapter was greatly expanded to provide a more 
complete overview of the monitoring activities and the monitoring data 
available for analysis in this report.
    (c) A new section on Health Risk Uncertainty, including the latest 
findings on observed health effects has been added to Chapter 2. 
Exposure Assessment and Risk Characterization Approach, and to the 
Executive Summary.
    (d) A new table outlining the health or regulatory basis for all 
benchmarks used in this assessment is now included as Table 2.2.
    (e) New contaminant assessments have been included on synthetic 
vitreous fibers (SVFs), PAHs, and silica.
    (f) A new cancer risk assessment on asbestos has been added.
    (g) All contaminant monitoring summaries were updated to include 
all final data (the original assessment included data only through 
March or April of 2002; most monitoring activities were discontinued in 
the summer of 2002). As well, summaries of monitoring for all metals 
and all volatile organic contaminants were added, even though only a 
limited number of them were assessed.
    (h) A new section in Chapter 5. Comment on the First Several Days 
After September 11, has been added. This section details the day-by-day 
monitoring activities which occurred between September 11 and September 
18, 2001.
    (i) The original Chapter 6. Data on Occupational and Indoor 
Exposures, has been deleted.
    (j) A new appendix, Appendix B. Compilation of World Trade Center 
Studies on Environmental Impacts, Human Exposures, and Health Impacts, 
has been added to the document. (2) The panel also made recommendations 
that were not followed for this version of the assessment. 
Specifically, the panel recommended that existing health benchmarks, 
developed for a different purpose such as occupational exposure, be 
adjusted so that they are more appropriate for the exposure patterns 
that might be relevant to the target population of this assessment, the 
general public living and working near Ground Zero. EPA had decided 
that this assessment was not the appropriate forum to be developing new 
benchmarks. Also, the panel advocated addressing cumulative or 
aggregate effects of multiple chemical/multiple pathway exposures, to 
the extent possible and practical. EPA identified the lack of 
cumulative/aggregate exposure assessment as a major uncertainty for 
this assessment, but felt that both the WTC data and the procedures for 
cumulative/aggregate assessment were not sufficiently developed for 
this assessment. Does the panel agree with these decisions?
    (3) Is the panel aware of any new data or studies that would 
benefit this assessment?
    (4) Does the panel have any additional comments they wish to make 
after seeing this assessment a second time, given the years between 
reviews and the information and insights that have come out of the WTC 
experience?
    List of background documents
    1. The current version of the report
    2. The December 2002 version of the report
    3. A draft response-to-comments document prepared by EPA which 
includes responses to the comments made by the July 2003 external 
review panel as well as responses to comments provided by the public 
following the December 2002 release of the report.
    4. A letter from EPA (developed by EPA and supplied to the 
contractor prior to the initiation of the review) which contains 
general information about the revised report and any specific re-review 
directions or charges.
    Clarifying questions and responses
    The review was conducted by Versar. If the reviewers had any 
questions, they supplied them to Versar and Versar was responsible for 
answering the question. If Versar did not have an adequate answer, they 
would ask EPA for assistance in answering the question. No assistance 
was asked of EPA, so if there were any clarifying questions posed by 
the reviewers to Versar, EPA is not aware of them.

    Question 10e. The status of the final report.
    Response. Based on the review, EPA prepared a final report and a 
response-to-comments document which included responses to: public 
comments supplied after the release of the December, 2002 draft 
document, comments provided by the July 2003 external review panel, and 
comments provided by the letter re-review of 2005. During an internal 
Office of Research and Development review of 2006, it was decided that 
the final report would be most useful if it were prepared as a journal 
article that would be submitted to a peer-reviewed journal for 
publication. That article was developed during the summer/fall of 2006 
and reviewed internally by the Office of Research of Development. The 
manuscript was titled, ``Assessment of Inhalation Exposures and 
Potential Health Risks to the General Population that Resulted from the 
Collapse of the World Trade Center Towers'', and was submitted to the 
journal, Risk Analysis, in December of 2006. As of July, 2007, the 
journal has not made a final decision to accept or reject the 
manuscript for publication.

    Question 11. ``Presidential Decision Directive-62 (PDD-62), 
``Protection Against Unconventional Threats to the Homeland and 
Americans Overseas,'' dated May 22, 1998, puts EPA in charge of 
building decontamination after terrorist attacks. Why did EPA ignore 
this directive after 9-11?''
    Response. EPA has carefully reviewed this classified document and 
did not find any reference to EPA being in charge of building 
decontamination after terrorist attacks. EPA's responsibility, per this 
document, is to participate with the Federal Emergency Management 
Agency (FEMA) in responding to such an event. EPA did work closely with 
FEMA and other appropriate State and Federal agencies in responding to 
9/11.

[GRAPHIC] [TIFF OMITTED] T1970.032

[GRAPHIC] [TIFF OMITTED] T1970.033

[GRAPHIC] [TIFF OMITTED] T1970.034

[GRAPHIC] [TIFF OMITTED] T1970.035

[GRAPHIC] [TIFF OMITTED] T1970.036

[GRAPHIC] [TIFF OMITTED] T1970.037

[GRAPHIC] [TIFF OMITTED] T1970.038

[GRAPHIC] [TIFF OMITTED] T1970.039

[GRAPHIC] [TIFF OMITTED] T1970.040

[GRAPHIC] [TIFF OMITTED] T1970.041

[GRAPHIC] [TIFF OMITTED] T1970.042

[GRAPHIC] [TIFF OMITTED] T1970.043

[GRAPHIC] [TIFF OMITTED] T1970.044

    Senator Clinton. Thank you very much, Ms. Bodine.
    Captain Rodenbeck.

 STATEMENT OF SVEN RODENBECK, SC.D., P.E., BCEE CAPTAIN, U.S. 
 PUBLIC HEALTH SERVICE, DEPUTY BRANCH CHIEF, AGENCY FOR TOXIC 
SUBSTANCES AND DISEASE REGISTRY, U.S. DEPARTMENT OF HEALTH AND 
                         HUMAN SERVICES

    Captain Rodenbeck. Yes, good morning, Madam Chairperson, 
members of the subcommittee and my fellow panel members. My 
name is Captain Sven Rodenbeck. I am a U.S. Public Health 
Service Commissioned Officer with the Agency for Toxic 
Substances and Disease Registry (ATSDR). Some of my 
responsibilities while stationed at ATSDR have been evaluating 
the public health impacts over 90 Superfund hazardous waste 
sites and leading various high profile agency responses to 
environmental health emergencies, including the World Trade 
Center and Hurricanes Katrina and Rita responses.
    I am here today to provide you and the Subcommittee with a 
briefing of ATSDR's support that was provided to the New York 
City Department of Health and Mental Hygiene; our participation 
on multiple World Trade Center task forces; and our efforts to 
strengthen environmental health sciences and responses to 
environmental disasters.
    First, however, I would like to take this opportunity to 
remember all those that we lost on 9/11 and their families who 
continue to remember them and love them in their memories. I 
would also like to acknowledge the sacrifices that the 
countless responders and volunteers made on that day, some of 
whom are still suffering. I know I will always remember them.
    During the World Trade Center recovery efforts, ATSDR 
provided direct support to the New York City Department of 
Health and Mental Hygiene. Our biggest contribution was the 
implementation of a pilot residential sampling program. The 
objective of that pilot program was to sample a small number of 
residential units to determine what the indoor and immediately 
surrounding outdoor environment had as far as residue dust.
    The sampling occurred from November 4 through December 11, 
2001. The New York City Department of Health and Mental Hygiene 
and ATSDR released preliminary sampling results on February 8, 
2002, and provided the final report on October 4, 2002. Our 
primary finding of the pilot investigation was that levels of 
materials detected in the air and dust did not pose potential 
health hazards, provided that recommended cleaning measures 
were followed.
    ATSDR also participated on several World Trade Center-
related task forces. From February 2002 through the summer 
2003, we supported the EPA Task Force on Indoor Air in Lower 
Manhattan. This task force provided technical consultation to 
EPA Region 2 on several projects, including the initial EPA 
voluntary cleaning and sampling of residential areas, the 
cleaning demonstration project and the selection of World Trade 
Center Chemicals of Potential Concern. ATSDR also participated 
on the 2004-2005 EPA Expert Technical Review Panel.
    To help strengthen the environmental health sciences, ATSDR 
published the 2002 Toxicological Profile for Synthetic Vitreous 
Fibers, also known as man-made vitreous fibers. We also 
convened an expert panel to gain a greater understanding of the 
toxicity of asbestos and man-made vitreous fibers, particularly 
the fibers that are sometime called short fibers, those that 
are less than 5 microns in length.
    ATSDR's involvement on these various multi-agency World 
Trade Center task forces has served as a template for our 
responses to future environmental disasters. The early 
establishment of these types of task forces can improve the 
development and implementation of responses to the complex 
issues that arise from environmental disasters. An example of 
how this can be done is the 2005 CDC/ATSDR and EPA 
Environmental Health Needs and Habitability Assessment Task 
Force, which provided the State of Louisiana and the city of 
New Orleans with a rapid scientific evaluation of the 
overarching environmental health issues that needed to be done 
before the city could be reoccupied.
    ATSDR also participated on the multi-agency task force that 
evaluated whether the storm surge from Hurricanes Katrina and 
Rita caused widespread sediment or soil contamination in the 
New Orleans area.
    Madam Chairperson, this concludes my testimony. I would be 
more than happy to answer any questions.
    [The prepared statement of Captain Rodenbeck follows:]

Statement of Sven E. Rodenbeck, Sc.D., P.E., BCEE, Captain, U.S. Public 
 Health Service, Deputy Branch Chief, Agency for Toxic Substances and 
     Disease Registry, U.S. Department of Health and Human Services

    Good morning Madam Chairperson and Members of the Subcommittee. My 
name is Captain Sven Rodenbeck, Deputy Branch Chief within the Agency 
for Toxic Substances and Disease Registry (ATSDR). I have been a U.S. 
Public Health Service Commissioned Officer for over 28 years. Since 
September 1987, I have been stationed at ATSDR performing various 
technical and managerial assignments. These assignments have included 
evaluating the public health impacts of over 90 Superfund hazardous 
waste sites, co-authoring the 1990 ATSDR The Public Health Implications 
of Medical Waste: A Report To Congress, and leading various high 
profile agency responses to environmental health emergencies including 
the ATSDR World Trade Center (WTC) (September 2001 through April 2003) 
and the Hurricane Katrina/Rita (September 2005 through July 2006) 
environmental monitoring and public health assessment activities. In 
addition, from March 2004 through December 2005, I represented ATSDR on 
the U.S. Environmental Protection Agency's (EPA) WTC Expert Technical 
Review Panel. I received my Bachelor of Science degree in Environmental 
Engineering from the University of Central Florida (1978), Master of 
Science degree in Environmental Engineering from the University of 
Maryland (1983), and Doctor of Science degree in Environmental Health 
(with emphasis in epidemiology, toxicology, and risk assessment) from 
the Tulane University School of Public Health and Tropical Medicine 
(1997). I am a registered professional engineer in the states of 
Florida and Maryland and a Board Certified Environmental Engineering. I 
have authored or coauthored numerous peer-reviewed publications and a 
book chapter on solid and hazardous waste.
    I am here today to provide you and the Subcommittee with a briefing 
of ATSDR's WTC environmental monitoring involvement. I will 
specifically discuss: (1) ATSDR's support provided to New York City 
Department of Health and Mental Hygiene (NYC DOHMH), (2) ATSDR's 
participation on multi-agency WTC Task Forces, and (3) ATSDR's efforts 
to strengthen environmental health sciences and responses to 
environmental disasters.
    Almost immediately after the planes crashed into the World Trade 
Center Towers, ATSDR implemented its emergency response procedures. 
From September 16-26, 2001, an ATSDR technical staff person traveled to 
the EPA Region II Edison, New Jersey, Office to assure reliable 
communications between EPA Region II and ATSDR.
    On September 26, 2001, NYC DOHMH requested that ATSDR provide on-
site technical support to interpret the environmental monitoring data 
collected, assist with developing public health informational/
educational material, and assist in providing technical information to 
the New York City public during public meetings. The on-site technical 
support to NYC DOHMH continued through June 28, 2002. In addition, 
ATSDR headquarters provided technical support which included the 
plotting and generation of geographic information system (GIS) maps and 
development of draft fact sheets that discussed asbestos, our pilot 
residential sampling investigation, and particulate matter (PM). NYC 
DOHMH and the deployed ATSDR staff used these technical materials to 
prepare for the various community meetings.

          NYC DOHMH/ATSDR PILOT RESIDENTIAL AREA INVESTIGATION

    ATSDR supported NYC DOHMH by implementing the Ambient and Indoor 
Sampling for Public Health Evaluations of Residential Areas Near the 
World Trade Center. Additional support was provided by the U.S. Federal 
Emergency Management Agency, EPA, the U.S. Public Health Service 
Commissioned Corps, and state and local environmental and health 
agencies. The objective was to conduct environmental sampling that 
characterized ambient and indoor airborne surface dust in a small 
number of residential areas of lower Manhattan. Sampling of residential 
units occurred from November 4 through December 11, 2001. NYC DOHMH and 
ATSDR released preliminary sampling results on February 8, 2002 and 
provided the final report for this investigation to the public on 
October 4, 2002. The primary finding of the pilot investigation was 
that the levels of materials detected in the air and dust did not pose 
potential health hazard provided that recommended cleaning measures 
were followed. Some of the other finding included:
    <bullet> Low levels of asbestos were found in some settled surface 
dust, primarily below Chambers Street.
    <bullet> The lower Manhattan residential areas had higher 
percentages of manmade vitreous fibers (MMVF), mineral components of 
concrete, and mineral components of building wallboard in settled 
surface dust than the comparison area.
    <bullet> Lower Manhattan airborne levels of total fibers were no 
different than the levels detected in the four buildings above 59th 
Street, which served as the comparison area.
    <bullet> Mineral components of concrete and mineral components of 
building wall board were detected in air samples at higher levels in 
lower Manhattan residential areas than in the comparison area.
    Based upon the findings, NYC DOHMH and ATSDR recommended:
    <bullet> Additional monitoring of residential areas be conducted in 
lower Manhattan,
    <bullet> Additional investigation be conducted to define background 
levels specific to the city of New York, and
    <bullet> Lower Manhattan residents concerned about possible WTC-
related dust in their residential areas participate in the 2002-3 EPA 
voluntary cleaning/sampling program.

         ATSDR SUPPORT TO MULTI-AGENCY WTC RELATED TASK FORCES

    ATSDR has participated on several WTC related task forces. ATSDR 
supported the EPA Task Force on Indoor Air in Lower Manhattan; which 
began in February 2002. This Task Force provided technical consultation 
to EPA Region II on how best EPA Region II should respond to the indoor 
air issues related to the collapse of the WTC towers. In addition to 
the 2002-3 EPA voluntary cleaning/sampling of residential area, The 
Task Force on Indoor Air in Lower Manhattan provided technical advice 
for the:
    <bullet> EPA sampling investigation to define better the typical 
New York City background levels of various WTC related materials (e.g., 
asbestos, MMVF, and crystalline silica);
    <bullet> EPA demonstration project that evaluated the various 
cleaning techniques that could be used to remove WTC related materials 
from residential areas (e.g., HEPA vacuum); and
    <bullet> EPA selection of chemicals of potential concern (COPC) to 
be addressed in indoor areas and development of air and surface 
screening values to employ as samples were collected.
    The EPA Task Force on Indoor Air in Lower Manhattan completed its 
efforts in the summer of 2003.
    ATSDR was also an active member of the New York City Lower 
Manhattan Air Task Force. The Mayor charged the task force to 
coordinate the response of the city agencies and to establish a 
complaint and information phone line to address WTC environmental 
issues. The City Task was active from March to June 2002.
    ATSDR also participated on EPA's 2004-5 WTC Expert Technical Review 
Panel. The purpose of that panel was to help guide EPA on how to 
determine whether any remaining WTC-related dust could be in lower 
Manhattan or other areas at levels of public health concern. As a 
member of the panel, ATSDR provided various technical guidance some of 
which is documented in the March 2005 ATSDR Health Consultation, Review 
of the Proposed Sampling Program to Determine Extent of World Trace 
Center Impacts to the Indoor Environment.

     STRENGTHENING ENVIRONMENTAL HEALTH SCIENCES AND RESPONSES TO 
                        ENVIRONMENTAL DISASTERS

    One science issue that ATSDR identified from its WTC experience was 
the need to further understand the health risks from exposure to MMVF, 
known also as synthetic vitreous fibers. To address this, ATSDR 
developed a ``white paper'' and the 2002 Toxicological Profile for 
Synthetic Vitreous Fibers. To obtain a better understanding of the 
health risks associated with asbestos and MMVF fibers less than 5 
microns in length (sometimes called ``short fibers''), ATSDR convened 
an expert panel. The panel met in New York City on October 29 and 30, 
2002. The discussions, findings, and recommendations of the panelists 
are presented in the 2003 ATSDR Report on the Expert Panel on Health 
Effects of Asbestos and Synthetic Vitreous Fibers: The Influence of 
Fiber Length.
    ATSDR's involvement on the various multi-agency WTC task forces has 
served as a template for our responses to other environmental 
disasters. The early establishment of multi-agency task forces can 
improve the development and implementation of comprehensive solutions 
to the complex environmental problems that are associated with 
disasters. For example, the 2005 Centers for Disease Control and 
Prevention and EPA Environmental Health Needs and Habitability 
Assessment Joint Task Force provided the State of Louisiana and the 
City of New Orleans with a rapid scientific evaluation of the 
overarching environmental health issues that needed to be addressed 
before the city could be reinhabited. ATSDR also participated on the 
multi-agency task force that evaluated whether the storm surges from 
Hurricanes Katrina and Rita had caused wide-spread sediment or soil 
contamination of the New Orleans area.
    In closing, I would like to take this opportunity to remember all 
of those lost as a result of the events of September 11, 2001, and 
their families and friends who will love them forever and keep their 
memories alive. And I would like to gratefully recognize the countless 
responders and volunteers, some of whom are still dealing with what 
happened on that fateful day and shortly thereafter. I know that I will 
always remember.
    Madam Chairperson, this concludes my testimony. I would be happy to 
answer any questions.
                                 ______
                                 
        Responses by Sven E. Rodenbeck to Additional Questions 
                          from Senator Inhofe

    Question 1. Please describe your role on the World Trade Center 
(WTC) expert panel the U.S. Environmental Protection Agency (EPA) 
convened.
    Response. I participated on the EPA WTC Expert Technical Review 
Panel from March 2004 through December 2005. As a panel member, I 
reviewed all of the WTC-related environmental sampling results, the 
various scientific articles that have been published concerning WTC, 
and the various documents and sampling proposals developed by EPA. 
Based upon that information, I provided verbal and written comments and 
recommendations concerning the various issues being evaluated by the 
Panel.

    Question 2. Although members of the panel has expressed 
disappointment over not identifying a dust signature, do you believe 
that the current testing and cleaning program is a step in the right 
direction and can you address the problems encountered in the peer-
reviewed process to develop a targeted signature dust?
    Response. The Current EPA Testing and Cleaning Program.--The 
testing and cleaning program currently being conducted by EPA in lower 
Manhattan provides the public with an opportunity to have their living 
spaces tested for WTC chemicals of potential concern. If the WTC 
chemicals of potential concern are found above the thresholds 
established by EPA and can not be attributed to other sources via a 
survey, then EPA will clean the space. To that end, the program should 
provide a level of assurance to the people participating in this 
program that their living areas do not contain any of those particular 
chemicals at levels of health concern.
    Developing a World Trade Center Dust Signature.--The panel and EPA 
focused a great deal of time and effort on trying to determine whether 
there was a specific pattern or signature that could differentiate 
between WTC and normal background dust. The development of a WTC dust 
signature was critical to addressing the main charge given the Panel. 
Without a signature, one cannot answer the basic questions that the 
public and policy leaders are asking:
    <bullet> Is there any remaining WTC dust located in indoor areas?
    <bullet> Is the WTC dust in the indoor areas at levels of health 
concern?
    <bullet> What is the current extent of WTC dust inside buildings in 
lower Manhattan and elsewhere?
    This was a very technically challenging charge to the Panel, 
particularly given the facts that the most of WTC-related dust 
constituents/chemicals can be found in typical/ordinary indoor dust, a 
vast majority of buildings surrounding WTC had already been cleaned to 
varying degrees, and so much time had passed since the collapse of the 
WTC buildings.
    These discussions and activities led to the development of a new 
laboratory procedure that could potentially identify a specific type of 
manmade vitreous fibers (MMVF) found in WTC dust. It was hoped that the 
MMVF could be used as a WTC signature. But this signature turned out to 
be an imperfect fit because the specific type of MMVF that was being 
considered was also used in other buildings as insulation and sound 
reduction material and can be found at varying levels in normal 
background dust. Use of this signature would likely lead to a high 
false positive identification, that is, a significant number of indoor 
areas being identified as containing WTC dust when they, in fact, did 
not. This could bring into question the scientific reliability of any 
sampling/cleaning program that is based on that particular MMVF 
signature.
    In addition, there were Panel discussions as to whether 
laboratories can consistently identify MMVF using the new laboratory 
procedure developed specifically for WTC. EPA conducted a pilot test in 
which a number of commercial laboratories were asked to use the new 
procedure. Unfortunately, the commercial laboratories could not 
consistently identify the specific MMVF when provided identical samples 
using the new procedure.

    Question 3. Please describe the air monitoring Agency for Toxic 
Substances and Disease Registry (ATSDR) conducted with the New York 
City Department of Health and Mental Hygiene (NYC DOHMH) following the 
WTC disaster, Can you further describe the work between EPA and ATSDR 
to identify contaminants of concern for the residential cleaning 
program initiated in 2002 and since?
    Response. NYC DOHMH/ATSDR Limited Residential Area Sampling Near 
the World Trade Center. A complete description, along with the sampling 
results and interpretation, of the limited air and dust monitoring 
ATSDR conducted with NYC DOHMH can be found at: 
http:((www.atsdr.cdc.gov/asbestos/asbestos/types-of-exposure/--
FullReport.html
    The following is a brief description of this limited sampling 
effort.
    From November 4 through December 11, 2001, environmental samples 
were collected in and around 30 residential buildings in lower 
Manhattan. In addition, four buildings above 59th Street were sampled 
and used as a comparison area for this limited investigation. The 
purpose of the sampling was to assess the composition of both outdoor 
and indoor settled surface and airborne dust within a limited number of 
residential areas around WTC This information was used to help 
determine whether additional public health actions were needed to 
address any remaining WTC-related dust inside residential areas.
    Attention was given to those materials reasonably expected to be in 
the original dust cloud and in dust generated by ongoing activities at 
WTC. Efforts were made to obtain as much information as possible with 
the sampling that could be conducted, given accessibility and equipment 
limitations. Air and settled surface dust samples were collected and 
analyzed for the following materials used in WTC construction 
components: asbestos, MMVF, crystalline silica, calcite, portlandite, 
gypsum, mica, and halite.
    Results from this investigation did not necessarily reflect 
conditions that would be found in other buildings, at other times 
immediately following the collapse, or after the sampling period. The 
measurements reflect conditions present at the time of the sampling 
(November 4-December 12, 2001) in the buildings and areas sampled. The 
limited number of results obtained from the comparison areas above 59th 
Street was an attempt to determine the New York City-specific 
background levels of asbestos, MMVF, mineral components of concrete 
(quartz, calcite, and portlandite), and mineral components of building 
wallboard (gypsum, mica, and halite).
    Identifying World Trade Center Contaminants of Potential Concern.--
On February 2, 2002, EPA Region II formed the Task Force on Indoor Air 
in Lower Manhattan. The ATSDR WTC Response Team was specifically asked 
to participate on this Task Force. The Task Force and its associated 
Working Groups were responsible for providing technical consultation to 
EPA Region II on how best EPA Region II should respond to the indoor 
air issues related to the collapse of the WTC towers.
    One of the Task Force Working Groups was specifically charged with 
establishing health-based benchmarks for the WTC contaminants of 
potential concern. ATSDR technical staff worked collaboratively with 
EPA, the Occupational Safety and Health Administration, New York State 
Department of Health, and NYC DOHMH technical staff in developing the 
benchmarks. The process began with the review of an extremely large 
environmental data set, including indoor and outdoor air and dust data. 
This was followed by a two-level screening which considered individual 
contaminant toxicity, the prevalence of a contaminant within and across 
media, and the likelihood that a detected contaminant was related to 
the WTC disaster. The goal of the process was to identify those 
contaminants most likely to be present within indoor environments at 
levels of health concern.
    Once the Working Group members had narrowed the contaminants to 
those that were thought to be related to the WTC, health-based 
benchmarks were developed to be protective of long-term habitability of 
residential dwellings. The following hierarchal approach was employed 
for developing benchmark values: use of relevant and appropriate 
environmental standards/regulations; calculation of health-based 
benchmarks employing environmental risk assessment guidance, and 
adaptation of occupational standards with additional safety factors.
    The final document developed by the Working Group, after an 
external peer review, can be found at: http://www.epa.gov/wtc/copc--
study.htm.

    Senator Clinton. Thank you very much, Captain.
    Mr. Stephenson.

 STATEMENT OF JOHN B. STEPHENSON, DIRECTOR, NATURAL RESOURCES 
     AND ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Stephenson. Madam Chairman and members of the 
subcommittee, I am here today to discuss GAO's ongoing review 
of EPA's second program to address indoor contamination from 
the World Trade Center. Our full report will be issued in 
September to you.
    As you know, the terrorist attack at the World Trade Center 
nearly 6 years ago turned lower Manhattan into a disastrous 
site on a scale the Nation had never experienced. As the Towers 
collapsed, lower Manhattan was blanketed in a mixture of 
building debris and combustible materials that coated building 
exteriors and streets, as well as the interiors of apartments 
and offices, exposing thousands of residents and workers to 
hazards in the air and in the dust, such as asbestos, lead, 
glass fibers and pulverized concrete.
    To put EPA's efforts into perspective, Figure 1 in my 
statement, you should all have a copy of this, contains a time 
line of EPA activity since 9/11. On the day of the attacks, the 
President signed a major disaster declaration, which activated 
the Federal Government's assistance to State and local 
agencies. In May 2002, after numerous cleanups, dust collection 
and air monitoring activities were conducted outdoors, New York 
City formally requested Federal assistance to test and clean 
indoor space and residences and common areas. As shown, EPA 
implemented the first program to test and clean indoor space 
about 1 year after the disaster. Residents of lower Manhattan 
living south of Canal Street, about 20,000 apartments, were 
eligible to participate in the program, and about 20 percent, 
or 4,100 apartments, did so.
    However, EPA's first program was severely criticized. In 
August 2003, as has been mentioned, the EPA's Inspector General 
complained that the cleanup did not require that entire 
buildings be systematically cleaned, including HVAC systems, 
and concluded that the contaminants in uncleaned apartments and 
common areas could enter the air supply system and 
recontaminate clean spaces.
    In March 2004, EPA convened an expert technical review 
panel to address IG and public concerns about EPA's program. 
The panel met periodically over 18 months through December 
2005. EPA announced its second program to address indoor 
contamination in December 2006, over 3 years after completion 
of the first program. Only 295 of the over 20,000 eligible home 
and building owners have enrolled, compared to about 4,100 the 
first time.
    Madam Chairman, you asked GAO to evaluate EPA's second test 
and clean program to determine, No. 1, the extent to which EPA 
implemented recommendations from the IG, the expert panel and 
others; No. 2, to determine the completeness of information EPA 
provided to the public about indoor contamination; and No. 3, 
to determine how EPA determined that $7 million was the 
appropriate amount to carry out the program.
    In summary, we found that EPA incorporated some 
recommendations into its second indoor air program, but its 
decision not to adopt others has limited, in our view, the 
overall effectiveness of the program. EPA did implement 
recommendations to expand the number of contaminants tested 
beyond asbestos and did agree to test in dust as well as air. 
However, it did not incorporate recommendations to expand the 
boundaries of cleanup beyond Canal Street. EPA reasoned that it 
would need to identify a World Trade Center signature, that is, 
a method for differentiating between normal urban dust and 
World Trade Center dust to justify expanding the program.
    EPA was ultimately never able to identify such a signature 
in part because it waited nearly 3 years to attempt to do so. 
EPA also did not incorporate recommendations to sample in HVACs 
or inaccessible locations within apartments and common areas, 
such as behind dishwashers, citing resource constraints. EPA 
also did not incorporate recommendations to expand the program 
to include workplaces, stating that worker safety is the 
responsibility of other agencies.
    We also found that EPA did not provide sufficient 
information to allow the public to make informed choices about 
the extent of contamination and ultimately their participation 
in the indoor program. For example, EPA publicly reported that 
a very small number of samples from its first program exceeded 
risk levels of airborne asbestos. However, it did not 
adequately explain that this conclusion was based on the fact 
that most testing was done after cleaning rather than before 
cleaning. This may have given residents a false sense of 
security and contributed to the low participation in the second 
program.
    Finally, we found no basis for the $7 million EPA 
identified to implement its second program. It was simply the 
money left over from the first test and clean program, and it 
is less than 20 percent of the first program's funding. EPA 
chose to limit the scope of the second program to fit within 
these available resources, rather than design a comprehensive 
program and then estimate the resources needed to carry it out. 
EPA told us that if the demand had exceeded available 
resources, it would have limited participation in the program, 
rather than request additional resources.
    Madam Chairman, that concludes my summary and I will be 
happy to answer questions.
    [The prepared statement of Mr. Stephenson follows:]

   Statement of John B. Stephenson, Director, Natural Resources and 
           Environment, U.S. Government Accountability Office

    Madam Chairman and Members of the Subcommittee:
    I am pleased to be here today to discuss the preliminary results of 
our ongoing work on the development of the Environmental Protection 
Agency's (EPA) second program to address World Trade Center (WTC) 
indoor contamination. As you know, the September 11, 2001, terrorist 
attack on the World Trade Center turned Lower Manhattan into a disaster 
site, on a scale the nation had never experienced. The World Trade 
Center was a complex of seven buildings on 16 acres surrounding a 5-
acre plaza in Lower Manhattan. The twin towers were at the center of 
the complex. Each tower had 110 floors, with approximately 43,200 
square feet on each floor. As the towers collapsed, Lower Manhattan was 
blanketed in a mixture of building debris and combustible materials 
that coated building exteriors and streets, as well as the interiors of 
apartments and offices. This complex mixture gave rise to another major 
concern: that thousands of residents and workers in the area would now 
be exposed to known hazards in the air and in the dust, such as 
asbestos, lead, glass fibers, and pulverized concrete.
    On the day of the attacks, the President signed a major disaster 
declaration, which activated the Federal Response Plan. The Federal 
Response Plan, now replaced by the National Response Plan, established 
the process and structure for the federal government's assistance to 
state and local agencies when responding to any major disaster or 
emergency declared under the Robert T. Stafford Disaster Relief and 
Emergency Assistance Act (Stafford Act).\1\ In May 2002, after numerous 
cleanup, dust collection, and air monitoring activities were conducted 
outdoors by EPA, other federal agencies, New York City and New York 
State, New York City formally requested federal assistance to clean 
and/or test residences in the vicinity of the WTC site for airborne 
asbestos.\2\
---------------------------------------------------------------------------
    \1\ 42 U.S.C. Sec. 5121, et seq. The purpose of the Stafford Act is 
``to provide an orderly and continuing means of assistance by the 
Federal Government to State and local governments in carrying out their 
responsibilities to alleviate the suffering and damage which result 
from such disasters.'' 42 U.S.C. Sec. 5121(b).
    \2\ In addition to using asbestos as a trigger for cleanup, in a 
small subset of residences, EPA conducted sampling for dioxin, mercury, 
and 22 metals to inform a study about the effectiveness of its cleaning 
techniques.
---------------------------------------------------------------------------
    The Federal Emergency Management Agency (FEMA), which administered 
the Federal Response Plan, provided such assistance, entering into 
interagency agreements with EPA in 2002 to develop EPA's first program. 
This program allowed residents of Lower Manhattan living south of Canal 
Street (representing over 20,000 residences) to elect to have their 
home professionally cleaned, followed by testing, or to have their home 
tested only. Approximately 20 percent of the eligible residences 
participated in the program. The majority of these residences were 
professionally cleaned before they were sampled for asbestos because 
their owners selected the clean and test option rather than the test 
only option.\3\ Even though samples were collected after cleaning in 
most cases, some residences (less than 1 percent) were still found to 
have unsafe levels of asbestos.
---------------------------------------------------------------------------
    \3\ EPA regional officials overseeing the program told us they 
assumed that some residents elected to have testing only because they 
had their residences cleaned before EPA's program.
---------------------------------------------------------------------------
    EPA's first program was criticized by several entities; as a 
result, EPA developed a second program, which is the focus of our 
ongoing work and our testimony today.\4\ Let me provide some 
information on the events leading up to the second program.
---------------------------------------------------------------------------
    \4\ A lawsuit was filed in March 2004 that, among other things, 
challenged the adequacy of EPA's first test and clean program. The case 
is on appeal in the U.S. Court of Appeals for the Second Circuit. 
Benzman v. Whitman, No. 04-1888 (S.D.N.Y. filed March 10, 2004), appeal 
docketed, Nos. 06-1166-cv, 06-1346-cv, 06-1454-cv (2nd Cir. March 10, 
2006). Pursuant to its long-standing policy of not addressing issues in 
ongoing litigation, GAO has not addressed EPA's first test and clean 
program.
---------------------------------------------------------------------------
    In August 2003, EPA's Inspector General made recommendations that 
addressed EPA's initial efforts to clean up indoor contamination 
following the towers' collapse, as well as recommendations that focused 
on EPA's future preparedness for large-scale disasters resulting in 
indoor contamination. The Inspector General reported that the effort to 
clean up indoor WTC contamination was inadequate for multiple reasons. 
For example, according to the Inspector General, the WTC cleanup did 
not require that entire buildings be systematically cleaned, including 
heating, ventilation, and air conditioning (HVAC) systems. As a result, 
the Inspector General concluded, the contaminants in uncleaned 
apartments and common areas could enter the air supply system and re-
contaminate cleaned spaces. With regard to future preparedness, the 
Inspector General recommended, among other things, that EPA develop 
protocols for determining how indoor environmental contamination would 
be handled in the event of a future disaster.
    The White House Council on Environmental Quality (CEQ) indicated in 
October 2003 that EPA would organize and lead an expert technical 
review panel to address the concerns of the Inspector General and 
others. In March 2004, EPA convened the WTC Expert Technical Review 
Panel, which met periodically through December 2005. The panel was 
composed of 20 individuals from academia and from city and federal 
health and science agencies, such as the Department of Labor's 
Occupational Safety and Health Administration (OSHA) and the Department 
of Health and Human Services (HHS). It also included two 
representatives from the Community-Labor Coalition (CLC), which is a 
network of community, tenant, labor, and environmental organizations 
formed after September 11, 2001, to advocate for appropriate health and 
safety efforts in the recovery from the WTC attack. The panel's overall 
task, as outlined by CEQ, was to advise EPA on efforts to protect New 
York City residents and workers potentially affected by the collapse of 
the World Trade Center. Specifically, the panel's goals were to help 
guide EPA in (1) identifying any remaining risks using exposure and 
health surveillance information; (2) identifying any unmet public 
health needs; and (3) determining steps to further minimize the risks. 
In addition, the panel was asked to provide advice for EPA's second 
program. Panel members, including the CLC representatives, submitted 
individual recommendations to EPA.
    After obtaining the views of advisory groups, including the 
Inspector General, the expert panel, and the CLC, EPA announced its 
plan for a second program in December 2006. This 2006 plan targets 
residents and building owners in the same portion of Lower Manhattan as 
EPA's first program. In the 2006 plan, EPA also provided the results of 
the sampling from its first program. The second program is set to begin 
later in 2007. As of May 10, 2007, EPA told us, 295 residents and 
building owners had enrolled in the second program, compared with 4,166 
eligible participants in the first program. Figure 1 shows the 
chronology of events preceding the second program.

[GRAPHIC] [TIFF OMITTED] T1970.045


    Our testimony, which is based on our ongoing work evaluating EPA's 
development of its second program, discusses (1) EPA's actions to 
implement recommendations from the expert panel and its Inspector 
General, (2) the completeness of information EPA provided to the public 
in its second plan, and
    (3) EPA's assessment of available resources to conduct the program.
    In summary, while we found that EPA has taken some actions to 
incorporate recommendations from the Inspector General and expert panel 
members into its second program, it decided not to incorporate other 
recommendations, which may limit the program's overall effectiveness. 
For example, EPA's second program incorporates recommendations to 
expand the number of contaminants tested, from asbestos only, to three 
additional contaminants and to test in dust as well as in the air. 
However, EPA's program does not incorporate a recommendation to expand 
the boundaries of cleanup to north of Canal Street and to Brooklyn. EPA 
reported that it was unable to develop a method for distinguishing 
between normal urban dust and WTC dust; therefore, the agency reported 
that it cannot assess the extent of WTC contamination, and has no basis 
for expanding the cleanup effort. EPA did not begin examining methods 
for differentiating between normal urban dust and WTC dust until May 
2004--nearly 3 years after the disaster--and therefore the process for 
differentiating was more difficult. In addition, EPA's second program 
does not incorporate recommendations to sample in HVACs or 
``inaccessible'' locations within apartments and common areas, such as 
behind dishwashers. The agency chose to offer more limited testing in a 
greater number of apartments and common areas rather than to provide 
more comprehensive testing (such as in HVACs) in a smaller number of 
these areas. Testing in such a restricted manner make evaluating the 
adequacy of clean up efforts very difficult, and may discourage 
participation. Moreover, this program does not incorporate the 
recommendation to test workplaces because, according to EPA officials, 
other federal agencies have procedures to address worker safety. We 
discussed the issues we address in this statement with EPA.
    EPA did not provide sufficient information in its second plan to 
allow the public to make informed choices about their participation. 
Specifically, EPA did not fully disclose the limitations in the testing 
results from its first program. EPA concluded that a ``very small'' 
number of samples from its first program exceeded risk levels for 
airborne asbestos. However, EPA did not explain that this conclusion 
was to be expected because it took over 80 percent of the samples after 
residences were professionally cleaned. In addition, EPA did not fully 
explain that its conclusion was based on participation from only 20 
percent of the eligible residences. Without this additional 
information, residents who could have elected to participate might have 
been discouraged from doing so because of EPA's conclusion.
    EPA did not assess the adequacy of available resources to carry out 
its second program effectively. Instead of assessing the costs of 
carrying out its program and providing resources accordingly, EPA has 
simply identified how much money was left over from the first program. 
Further, the amount of funding provided for the second program seems 
inconsistent with the scale of second program activities. Specifically, 
the $7 million EPA plans to spend for the second program's testing and 
cleaning is less than 20 percent of the first program's funding, 
despite an increase in the number and type of contaminants being 
sampled. EPA indicated that if demand had exceeded available resources, 
EPA would have simply limited participation in the program.

                               BACKGROUND

    After the collapse of the World Trade Center and the accompanying 
spread of dust resulting from the collapse, EPA, other federal 
agencies, and New York City and New York State public health and 
environmental authorities focused on numerous outdoor activities, 
including cleanup, dust collection, and air monitoring. In May 2002, 
New York City formally requested federal assistance to clean and test 
building interiors in the vicinity of the WTC site for airborne 
asbestos. Such assistance may be made available to state and local 
governments under the Stafford Act and the National Response Plan, 
which establishes the process and structure for the federal government 
to provide assistance to state and local agencies when responding to 
threats or acts of terrorism, major disasters, and other 
emergencies.\5\ FEMA, which coordinates the federal response to 
requests for assistance from state and local governments, entered into 
interagency agreements with EPA to develop and implement the first and 
second indoor cleanup programs for residents in Lower Manhattan.
---------------------------------------------------------------------------
    \5\ The National Response Plan replaced the Federal Response Plan. 
The Federal Response Plan was in effect on September 11, 2001.
---------------------------------------------------------------------------
 EPA INCORPORATED SOME RECOMMENDATIONS, BUT ITS DECISION NOT TO ADOPT 
          OTHERS MAY LIMIT THE SECOND PROGRAM'S EFFECTIVENESS

    In response to recommendations from the Inspector General and 
expert panel members, EPA's second program incorporates some additional 
testing elements. For example, EPA is testing for a wider range of 
contaminants. In addition to asbestos, EPA will test for man-made 
vitreous fibers, which are in such materials as building and appliance 
insulation; lead; and polycyclic aromatic hydrocarbons, a group of over 
100 different chemicals that are formed during the incomplete burning 
of coal, oil, gas, and garbage. EPA will also test dust as well as the 
air. In order to test the dust for these contaminants, EPA had to 
develop cleanup standards. However, EPA's second program does not 
incorporate the following other recommendations: (1) broadening the 
geographic scope of the testing effort, (2) testing HVACs and 
``inaccessible'' locations, and (3) expanding the program to include 
workplaces.\6\
---------------------------------------------------------------------------
    \6\ EPA's second program does allow commercial building owners to 
request testing and cleaning, but does not permit workers or employers 
to do so.
---------------------------------------------------------------------------
    Broadening the geographic scope of testing.--EPA did not expand the 
scope of testing north of Canal Street, as well as to Brooklyn, as 
advisory groups had recommended. EPA reported that it did not expand 
the scope of testing because it was not able to differentiate between 
normal urban dust and WTC dust, which would have enabled it to 
determine the geographic extent of WTC contamination. Some expert panel 
members had suggested that EPA investigate whether it was feasible to 
develop a method for distinguishing between normal urban dust and WTC 
dust. EPA ultimately agreed to do so. Beginning in 2004--almost 3 years 
after the disaster--EPA conducted this investigation. EPA officials 
told us that because so much time had passed since the terrorist 
attack, it was difficult to distinguish between WTC dust and urban 
dust. EPA ultimately abandoned this effort because peer reviewers 
questioned its methodology; EPA decided not to explore alternative 
methods that the peer reviewers had proposed. Instead, EPA will test 
only in an area where visible contamination has been confirmed by 
aerial photography conducted soon after the WTC attack. However, aerial 
photography does not reveal indoor contamination, and EPA officials 
told us that they knew that some WTC dust was found immediately after 
the terrorist attacks outside the area eligible for its first and 
second program, such as in Brooklyn.
    Testing HVACs and in inaccessible areas.--In its November 2005 
draft plan for the second program, EPA had proposed collecting samples 
from a number of locations in HVACs. In some buildings HVACs are 
shared, and in others each residence has its own system. In either 
case, contaminants in the HVAC could recontaminate the residence unless 
the system is also professionally cleaned. However, EPA's second 
program will not provide for testing in HVACs unless tests in common 
areas reveal that standards for any of four contaminants have been 
exceeded. EPA explains in the second plan that it will not sample 
within HVACs because it chose to offer more limited testing in a 
greater number of apartments and common areas rather than provide more 
comprehensive testing in a smaller number of these areas. Similarly, 
EPA had proposed sampling for contaminants in ``inaccessible'' 
locations, such as behind dishwashers and rarely moved furniture within 
apartments and common areas. Again, because it was unable to 
differentiate between normal urban dust and WTC dust, EPA stated that 
it would not test in inaccessible locations in order to devote its 
resources to as many requests as possible. In fact, EPA only received 
295 requests from residents and building owners to participate in the 
second program, compared with 4,166 eligible participants in the first 
program.\7\
---------------------------------------------------------------------------
    \7\ A total of 640 individual residents and building owners 
registered for the second program. Of this total, 295 eligible 
participants submitted the necessary access agreements.
---------------------------------------------------------------------------
    Expanding the program to include workers/workplaces. According to 
EPA's second program plan, the plan is ``the result of ongoing efforts 
to respond to concerns of residents and workers.'' Workers were 
concerned that workplaces in Lower Manhattan experienced the same 
contamination as residences. In its second program, EPA will test and 
clean common areas in commercial buildings, but will do so only if an 
individual property owner or manager requests the service. EPA stated 
that employees who believe their working conditions are unsafe as a 
result of WTC dust may file a complaint with OSHA or request an 
evaluation by HHS's National Institute of Occupational Safety and 
Health. Concerns remain, however, because these other agencies do not 
have the authority to conduct cleanup in response to contaminant levels 
that exceed standards. In addition, OSHA's standards are designed 
primarily to address airborne contamination, while EPA's test and clean 
program is designed to address contamination in building spaces, 
whether the contamination is airborne or in settled dust. Thus, OSHA 
can require individual employers to adopt work practices to reduce 
employee exposure to airborne contaminants, whereas EPA's test and 
clean program is designed to remove contaminants from affected spaces.

  EPA DID NOT PROVIDE THE PUBLIC WITH SUFFICIENT INFORMATION TO MAKE 
                        FULLY INFORMED DECISIONS

    EPA did not provide sufficient information in its second plan so 
that the public could make informed choices about their participation. 
Specifically, EPA did not fully disclose the limitations in the testing 
results from its first program. While EPA stated that the number of 
samples in its first program exceeding risk levels for airborne 
asbestos was ``very small,'' it did not fully explain that this 
conclusion was limited by the following factors.
    Participation.--Participation in the program came from about 20 
percent of the residences eligible for participation. In addition, 
participation was voluntary, which may suggest that the sample of 
apartments was not representative of all the residences eligible for 
the program. Those who chose to participate may not have been at 
greatest risk.
    Contaminants tested.--EPA's cleanup decisions were based only on 
tests for asbestos, rather than other contaminants, and the decisions 
focused on airborne contamination rather than contamination in dust 
inside residences.
    Sampling protocol.--EPA took over 80 percent of the samples after 
professional cleaning was complete. Therefore it is not surprising that 
EPA found few samples exceeding its asbestos standard.
    EPA also did not explain in its second program plan that its first 
program's test results excluded samples that were discarded because 
they were ``not cleared--that is, could not be analyzed because the 
filter had too many fibers to be analyzed under a microscope. However, 
EPA's final report on its first program stated that residences with 
more than one inconclusive result, such as filter overload, were 
encouraged to have their residences re-cleaned and re-tested. EPA did 
not explain the impact of excluding these samples or other data 
limitations from its conclusion that the number of samples exceeding 
asbestos standards was very small. Without providing complete 
explanations of the data, residents who could have elected to 
participate might have been discouraged from doing so.

  EPA DID NOT ADEQUATELY ASSESS RESOURCE NEEDS FOR THE SECOND PROGRAM

    EPA did not take steps to ensure that resources would be adequate 
to achieve the second program's objectives. Instead, EPA is 
implementing this program with the funding remaining after its first 
program--approximately $7 million. EPA could not provide us with any 
basis for determining whether this funding level is appropriate. EPA 
officials told us that they were unable to determine the cost of the 
program without knowing the number of participants. However, we note 
that funds available for the second program are less than 20 percent of 
the first program's funding, despite an increase in the number and type 
of contaminants being sampled.
    Almost two-thirds of the panel members told us they did not believe 
the $7 million for the sampling and cleanup was sufficient. According 
to one of the expert panel's chairmen--a former EPA Assistant 
Administrator--the $7 million was sufficient for initial sampling in 
the second program, but not for sampling and cleanup. If demand had 
exceeded available resources, EPA would have simply limited 
participation by ranking program applicants on the basis of their 
proximity to the WTC site.

                        CONCLUDING OBSERVATIONS

    Shortcomings in EPA's second program to test and clean residences 
for WTC contamination raise questions about the agency's preparedness 
for addressing indoor contamination resulting from future disasters. 
The effectiveness of this program may be limited because some important 
recommendations were not incorporated, and because program 
implementation will not begin until later this year--more than 5 years 
after the World Trade Center collapsed. Furthermore, owing to these 
factors, the majority of panel members do not support EPA's second 
program, noting that it was not responsive to the concerns of residents 
and workers harmed by the collapse of the WTC towers, it was 
scientifically and technically flawed, or it was unacceptable because 
it would not identify the extent of contamination. Some panel members 
questioned the value of participating in EPA's program, and even stated 
that they would discourage participation.
    Madam Chairman, this concludes my prepared statement. I would be 
happy to respond to any questions that you or Members of the 
Subcommittee may have.

                      CONTACTS AND ACKNOWLEDGMENTS

    Contact points for our Offices of Congressional Relations and 
Public Affairs may be found on the last page of this testimony. For 
further information about this testimony, please contact John B. 
Stephenson, Director, Natural Resources and Environment (202) 512-3841, 
or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cdbeb9a8bda5a8a3bea2a3a78daaaca2e3aaa2bbe3">[email&#160;protected]</a> Key contributors to this testimony were Janice 
Ceperich, Katheryn Summers Hubbell, Karen Keegan, Omari Norman, Diane 
B. Raynes, Carol Herrnstadt Shulman, and Sandra Tasic. Additional 
assistance was provided by Katherine M. Raheb.

[GRAPHIC] [TIFF OMITTED] T1970.046


    Senator Clinton. Thank you very much, Mr. Stephenson.
    If I may begin by directing a series of questions to Mr. 
Connaughton, Chairman Connaughton. As you noted in your 
testimony, you and I did meet to discuss the findings of the 
2003 Inspector General report, because the report did raise a 
number of serious concerns, primarily White House interference 
with EPA's communications about air quality and flaws with 
EPA's indoor test and clean plan.
    I appreciate that we reached an accommodation at that time 
on the indoor contamination issue in the form of your 
commitment to launch an expert panel to look into it. We will 
explore the work of that panel and its results with other 
witnesses.
    But I think it is fair to say, Chairman Connaughton, that 
there remained a number of troubling issues, raised by the EPA 
Inspector General, about EPA's early statements about air 
quality. This is really an opportunity for you to respond to 
some of these, because I think in the area of lessons learned, 
the whole issue of how we communicate with the public is 
critical. Every study that I have read about how best to convey 
information to the public with respect to a disaster puts a 
very high priority on the quality of information, the accuracy 
of information, the validation of that information by 
independent sources. Certainly, the Inspector General found 
that EPA's early statements that the air was safe to breathe 
was incomplete. It lacked necessary qualifications and was not 
supported by the data available at the time.
    Let me just ask you, isn't it true that CEQ was involved in 
the drafting of those statements about air quality?
    Mr. Connaughton. Yes, that's right, Madam Chairwoman. Very 
soon after the attack, Deputy Chief of Staff Josh Bolton 
established a domestic consequences group that ensured that 
there would be significant coordination among the different 
agencies, Federal agencies, in responding, not just in 
response, but also in communications and other issues 
associated with that, so that we would be working in a 
coordinated manner. You had ATSDR, you had EPA, you had OSHA, 
you had the New York State Department of Health, you had the 
New York City Department of Health. There were a lot of 
entities that were ramping up to a response. It was clear that 
some level of organization and coordination was going to be 
necessary.
    Not just with the response. What we were doing with the 
environmental response had to then also take into account, we 
did not know if another attack was coming. The National 
Security Council, there needed to be a central node with them, 
so that we could feed in the environmental piece of the 
equation while they were looking at some of the human health 
issues, while they were looking at some of the security issues, 
the first responder issues, to be sure that we are doing triage 
on the highest priorities, getting the information that we 
needed in order and being sure we were taking advantage of 
resources.
    Senator Clinton. But let me ask you, Mr. Chairman, because 
the Inspector General goes on to say that the Agency did not 
reflect in its statements the best professional advice of the 
Agency's own experts. It appeared that the EPA's best 
professional advice was overruled when relaying information to 
the public in the weeks immediately following the disaster.
    Further, the AGA found that the White House Council on 
Environmental Quality, which you chair, influenced through the 
collaboration process which you just described the information 
that EPA communicated to the public through its early press 
releases, when it convinced EPA to add reassuring statements 
and to delete cautionary ones.
    So let me ask: did you convince EPA to add reassuring 
statements and delete cautionary ones?
    Mr. Connaughton. I think those characterizations by the 
Inspector General were incompletely formed and inaccurate.
    Senator Clinton. Well, let me just show you, the EPA IG 
report contains several specific examples of these types of 
changes, and one of them is reproduced on a chart that I 
brought today. Let me see--it is impossible to read, but as the 
chart shows, a draft September 13, 2001 press release stated 
that ``Preliminary results of EPA's sampling activities,'' the 
thousands of samples that Ms. Bodine referred to, ``indicated 
no or very low levels of asbestos. However, even at low levels, 
EPA considers asbestos hazardous and will continue to monitor 
and sample for elevated levels of asbestos and work with 
appropriate officials to ensure awareness and proper handling, 
transportation and disposal of potentially contaminated debris 
or materials.''
    That was the original draft. The final release stated that 
``EPA is greatly relieved to have learned that there appears to 
be no significant levels of asbestos dust in the air in New 
York City. We are working closely with rescue crews to ensure 
that all appropriate precautions are taken. We will continue to 
monitor closely. Public health concerns about asbestos 
contamination are primarily related to long-term exposure. 
Short-term low-level exposure is unlikely to cause significant 
effects.''
    There is a difference between the meaning and the impact of 
those. EPA originally said, however, even at low levels, EPA 
considered asbestos hazardous.
    So why did CEQ overrule EPA, an agency with considerably 
more staff and expertise about environmental hazards, and 
modify that press release?
    Mr. Connaughton. Actually, the inverse was the case, Madam 
Chairwoman. We had daily and sometimes more than daily 
conference calls with the people from Region 2, as well as the 
people here in Washington, including CEQ, that were going over 
all the communications and all of the data. What Mr. 
Thurndstrom was doing was coordinating the output of those 
discussions. The people drafting the press releases were not 
necessarily the professionals who were providing advice on how 
to construe the data.
    So the final product of that one particular press release 
was the product of a much broader discussion among the public 
health professionals in the field and back here in Washington 
on how to make this one particular statement.
    The other thing that is important, Madam Chairman, this is 
one press release out of what were thousands and thousands of 
communications. We had a particular focus on the workers, who 
faced extreme danger in the conditions during the recovery and 
rescue work. We had a second focus on the people who were 
acutely exposed to the volume of dust immediately after the 
collapse, and that really was in the hands of the public health 
professionals. EPA was instrumental in encouraging people to go 
seek medical help and monitoring.
    Then there was the third category about the residents, the 
people who were distant from the immediate Ground Zero, but who 
were worried about the smell and the odor and all the things 
that you all know about, the visceral scents from the fires in 
the days that followed September 11th. So what this one press 
release was was the first statement regarding the ambient 
concerns and it was specifically focused on the questions that 
came up with respect to asbestos. The data that we had in hand 
5 days after monitoring started actually provided much greater 
reassurance. I can tell you, all of us were relieved. We feared 
that there would be quite substantial amounts of asbestos that 
people might be directly exposed to. As it happens, the data 
was showing that that was not the case.
    I think the statement in the final press release was the 
accurate one. It is the other formulations that we decided as a 
group that needed to be adjusted. So this is not--your 
representation of overruling or not overruling and misleading, 
it just doesn't capture the nature of the dynamic we had at the 
time. We discussed this a bit in your office, and again, I am 
happy to go into greater detail on that process.
    Senator Clinton. Well, Mr. Connaughton, my time is up, I am 
going to go to my colleagues. But would you be willing to 
answer more specific questions of the nature that would get to 
the bottom of this? Because there is, as you are well aware, 
other evidence, particularly concerning Mr. Thurndstrom and 
some of his statements and some of the e-mail exchanges between 
Region 2 and the CEQ and EPA here in Washington.
    What we are trying to figure out is how to sort this out. 
Because I think it is fair to say that many people in New York 
took the statements and were greatly relieved and reassured 
about them. If there had been a more accurate depiction, and I 
would argue that the first press release was more accurate, 
that low levels of asbestos exposure, to say nothing of 
everything else that was in the air, could pose health hazards, 
people could have made appropriate decisions.
    That is where we are trying to get to the lessons learned 
here. I believe we should always err on the side of giving as 
accurate a picture as possible, so that people can make 
decisions for themselves. But let me move now to Senator Craig.
    Mr. Connaughton. Senator, if I might, just on one point, 
the 9/11 Commission did look at all this very carefully and 
they talked with all of us. They concluded that although the 
White House review process resulted in some editorial changes 
to the press releases, these changes were consistent with what 
the EPA had already been saying without White House clearance.
    What we are trying to do on that one press release that 
everyone is focused on is bring into one place what had been a 
constant flow of information on the ground directly to people. 
I don't know about you, but I don't read press releases. I 
don't think the public was reading the press release. What it 
was was follow-up by reporters who were getting more detailed, 
there were outside people commenting on what the risks were. 
The New York Department of Public Health was making commentary 
on some of the human health issues.
    But really, the most important communications are the ones 
that Governor Whitman----
    Senator Clinton. Mr. Connaughton, I understand your 
position. It is also clear, and we should put into the record, 
there is a current lawsuit going on, which you are well aware 
of, and under oath, the judge has reached very different 
conclusions based on the testimony that has been provided so 
far, and gone to the extent of even calling Governor Whitman 
and others at the EPA misleading and given great emphasis to 
the way that this information was communicated, and done so, I 
think based more accurately on the evidence that has been 
before it.
    But I would just appreciate your willingness to provide 
additional information, so that we could sort this out. Let me 
turn now to Senator Craig.
    Senator Craig. Madam Chairman, I am going to yield to 
Senator Inhofe because of his schedule, then I will come back.
    Senator Inhofe. Thank you very much, Senator Craig and 
Madam Chairman.
    Let me start off by recalling to the memories around here 
that I chaired this committee during the years after 9/11. In 
fact, I was somewhat apologetic to you and others during that 
period of time, because we had such intense oversight and so 
many questions. You were always very, very cooperative, and I 
want to compliment you publicly on that, Chairman Connaughton.
    Let me ask you this question. Isn't it reasonable for a 
White House office, such as CEQ, to coordinate with Federal 
agencies to involve and produce common Federal messages? Are 
there any issues about this you would like to clarify 
concerning Federal communications?
    Mr. Connaughton. I think in the after-reviews of what 
happened, I think the process that Deputy Chief of Staff Bolton 
put in place earned high praise, the fact that we were able to 
so rapidly create the coordination function that later became 
the Homeland Security Council, which also everybody was very 
strongly supportive of across the country, the Governors in 
particular. So what we had going on what exactly what people 
would expect. You would hope that the President and the White 
House were on top of the situation, and were actually 
coordinating to be sure that information was being obtained in 
a timely fashion, we are prioritizing those needs and we are 
getting people out to the right people in the right place at 
the right time.
    As a participant in that process, I found it particularly 
effective. Everyone was throwing in their oars. We had fly-
overs, doing satellite monitoring, we had airplane monitoring, 
we had on the ground monitoring. That information was coming in 
at a level of detail and a level of coordination that you 
typically do not see, and it is to be commended.
    Senator Inhofe. I am glad you are clarifying that, because 
we had hearings involving all those other parties. I thought it 
was done quite well.
    Let me ask you, Mr. Stephenson, you heard my opening 
statement, a quote that I made from the New York City Health 
Commissioner Frieden. I will read it again: ``The environmental 
investigations and testing conducted in lower Manhattan 
indicate that the potential health impacts from any remaining 
World Trade Center dust are extremely low or non-existent.'' 
Did you consult New York City's Department of Health during the 
compilation of your report, and do you disagree or agree with 
that statement?
    Mr. Stephenson. We did meet with them. They are talking 
about ambient air samples, I believe. We were looking 
specifically at indoor air and the second program in 
particular. So the sampling I was talking about took place on a 
voluntary basis from indoor apartments.
    Senator Inhofe. All right. Captain Rodenbeck, let me ask 
you a question. Why don't you first of all define for some of 
us what dust signature is, then I will ask my question.
    Captain Rodenbeck. In this particular case, when we are 
talking about a dust signature, it is the makeup of the dust 
that makes it unique to the original source. So in this case, 
we are talking about how the building material that generated 
the dust is different in a way so you could look at different 
samples and say, yes, this originated from the World Trade 
Center.
    Senator Inhofe. All right. Now, were you able to do that, I 
understand that you were not able to complete the dust sampling 
to your satisfaction?
    Captain Rodenbeck. Not to our satisfaction, no.
    Senator Inhofe. I see. Can you comment on whether you 
believe that the current testing and cleaning program is a step 
in the right direction?
    Captain Rodenbeck. Without the dust signature, we cannot 
fundamentally answer the basic question that we all want to 
answer: is there still World Trade Center dust out there at 
levels of health concern.
    Senator Inhofe. Ms. Bodine, you made the comment that you 
talked about lessons learned. I don't think you had a chance to 
elaborate any on that. Would you like to?
    Ms. Bodine. Yes, thank you, Senator.
    I wanted to point out, one of the challenges during 9/11 
was certainly trying to come up with benchmarks and sampling 
protocols and methods to address situations that the Agency had 
not previously had to address. The staff did a tremendous job 
of consulting with experts, drawing together expert opinion and 
developing benchmarks and protocols.
    But certainly as a lesson learned, we know that we can 
today look and say, what can we anticipate, what don't we know. 
Today, we can start working on closing those information gaps.
    I mentioned that we had established a National 
Decontamination Team. One of their roles is of course, to 
respond. They always have their bags packed. But it is also to 
identify data gaps and work with our National Homeland Security 
Research Center, which is in Cincinnati, it is one of Dr. 
Gray's labs, to work together to do research to close some of 
those data gaps.
    In addition, we have been developing a network of 
environmental laboratories. Because again, one of the issues 
during 9/11 and even more so during Katrina was just the vast 
amount of data we collected and it became a capacity issue, 
collecting data and having the labs that are able to analyze it 
in a sufficient time to then provide good information to the 
public and provide information to officials who need to make 
decisions.
    So we have been working with laboratories around the 
country, again, to establish common protocols, so that we have 
good information, we have information that is of high quality, 
so that when the next disaster hits, we have that capacity.
    Senator Inhofe. Thank you very much, and thank you, Senator 
Craig, for helping accommodate my schedule.
    Senator Clinton. Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman.
    It is obvious that there are different memories of things 
that were done and said and challenges to the reliability of 
things. You are all under strictures that talked about correct 
or not false statements. So I just wanted to be sure that that 
is clearly understood, and that, because, as the Chairperson 
described, we are going to continue this research of ours. 
Because there are so many challenges to what is said to be the 
intention of the White House to cover issues, so that they were 
to downplay the public risks and the EPA press releases were 
changed or modified to downplay those risks.
    Why did the CEQ, Mr. Connaughton, decline to meet with the 
EPA Inspector General's investigators as they were preparing 
their report?
    Mr. Connaughton. As I understand it, and you are now taking 
me back many years on this particular item, as I understand it, 
the Inspector General doesn't have authority to do oversight of 
offices outside of the EPA, and in particular, the President's 
offices. So it was just an issue of the Inspector General's 
authority. That is as I understand it. But I was not closely 
attuned to all the ins and outs of that. But that was dealt 
with by the White House Counsel's Office.
    Senator Lautenberg. It is hard to see why that wouldn't, 
they wouldn't be included in the traditional IG's activities.
    EPA officials told the Inspector General that your staff 
deleted recommendations that New York City residents obtain 
professional cleaning services for indoor areas. Why would the 
White House recommend removing those alerts from the 
statements?
    Mr. Connaughton. Actually, Senator, I am not in a position 
to recall very specific decisions about very specific pieces of 
text, some of which I was not directly involved in. There was 
an interface between Mr. Thurndstrom of my office, who actually 
is a New Yorker as well, and the EPA on compiling the results 
of these broader interfaces among the public health 
professionals that I talked about.
    So the effort between them was to see, to do the best job 
they could, using their best professional judgment, to capture 
the information we were receiving and then communicate that in 
the most accurate and timely way we could, and then to update 
that information as it was obtained. So any particular issue, 
items were added to the press releases, items were deleted to 
the press releases, items were changed in the press releases. 
EPA made changes, my office made changes, OSHA suggested 
changes. This was a typical process of an inter-agency 
coordination on a communications document.
    Senator Lautenberg. But without laboring under the review 
of the process, what are the elements that were obviously 
changed, differentiated, that would cause people to make 
changes that said, well, one particular CEQ official was 
designated to work with the EPA to ensure that clearances were 
obtained through the National Security Council. Although EPA's 
position is that World Trade Center area residents should 
obtain professional cleaning, EPA's press releases did not 
instruct residents to do so. Instead, they instructed residents 
to follow recommended and proper cleaning procedures.
    We asked the OCEM, our associate administrator, whether her 
office had considered advising the public through a press 
release that they needed to obtain professional cleaning. The 
associate administrator said it was in a press release, it was 
removed by a CEQ contact. So there are so many differences 
here, Madam Chairman, that we are going to have to continue 
getting answers to these questions, if necessary, by writing, 
but also under the framework of forthrightness.
    I want to close, Ms. Bodine, your statement about America 
stronger than ever is almost gratuitous. Because you make that 
statement without looking at the total problems that this 
country has as a result of inaction in the post-9/11 days, and 
further problems that we have. We have thousands of people 
doing security work, we have constant, we have new findings 
that terrorists are after us, people are living in a fearful 
mode. In my judgment, and I love our country, and I respect so 
much those who did the heroic work to try and save lives down 
there, there is no insinuation that those things were not done 
properly. It was as a result of the decisions that were made by 
the Administration, I think, that put people in jeopardy.
    So when you make a statement like that, America is stronger 
than ever, it doesn't really register. That is your opinion and 
it would be best if you said, just registered it that way. 
Thank you.
    Senator Clinton. I am going to ask the witnesses' 
indulgence. I have to go vote, I will be right back. We will 
have one final round of questions for the witnesses before we 
move on to the next panel.
    Those of you who have never been to a Senate hearing 
before, this is the way it works. We never know exactly what we 
are going to have to do from minute to minute. But I really 
appreciate your being here. These are important issues and I 
will be back very shortly.
    [Recess.]
    Senator Clinton. Thank you very, very much for your 
patience.
    I want to just put a few things in the record before I ask 
my final questions. One, the ATSDR fact sheet, and their study 
says, ``Results probably underestimate the levels of World 
Trade Center-related material that were in lower Manhattan 
immediately after 9/11.'' The sampling that was done and the 
results, I think are very important for our continuing 
evaluation.
    Second, there is no consensus, it has been said about 
whether a signature is possible, but there were two studies 
that I would like to enter into the record that said a 
signature was possible. Unfortunately, we didn't act in a 
timely manner. The National Science Foundation funded work that 
has even found a defined dust signature in the sediments of New 
York Harbor. I would enter that into the record.
    Then the USGS released in 2005 preliminary studies 
demonstrating the ability to apply a World Trade Center dust 
signature that can be used to guide health-based research and 
remediation.
    [The referenced information follows:]

    [GRAPHIC] [TIFF OMITTED] T1970.047
    
    [GRAPHIC] [TIFF OMITTED] T1970.048
    
    [GRAPHIC] [TIFF OMITTED] T1970.049
    
    [GRAPHIC] [TIFF OMITTED] T1970.050
    
    [GRAPHIC] [TIFF OMITTED] T1970.051
    
    [GRAPHIC] [TIFF OMITTED] T1970.052
    
    [GRAPHIC] [TIFF OMITTED] T1970.053
    
    [GRAPHIC] [TIFF OMITTED] T1970.054
    
    [GRAPHIC] [TIFF OMITTED] T1970.055
    
    [GRAPHIC] [TIFF OMITTED] T1970.056
    
    [GRAPHIC] [TIFF OMITTED] T1970.057
    
    [GRAPHIC] [TIFF OMITTED] T1970.058
    
    [GRAPHIC] [TIFF OMITTED] T1970.059
    
    [GRAPHIC] [TIFF OMITTED] T1970.060
    
    [GRAPHIC] [TIFF OMITTED] T1970.061
    
    [GRAPHIC] [TIFF OMITTED] T1970.062
    
    [GRAPHIC] [TIFF OMITTED] T1970.063
    
    [GRAPHIC] [TIFF OMITTED] T1970.064
    
    [GRAPHIC] [TIFF OMITTED] T1970.065
    
    [GRAPHIC] [TIFF OMITTED] T1970.066
    
    [GRAPHIC] [TIFF OMITTED] T1970.067
    
    [GRAPHIC] [TIFF OMITTED] T1970.068
    
    [GRAPHIC] [TIFF OMITTED] T1970.069
    
    [GRAPHIC] [TIFF OMITTED] T1970.070
    
    [GRAPHIC] [TIFF OMITTED] T1970.071
    
    [GRAPHIC] [TIFF OMITTED] T1970.072
    
    [GRAPHIC] [TIFF OMITTED] T1970.073
    
    [GRAPHIC] [TIFF OMITTED] T1970.074
    
    [GRAPHIC] [TIFF OMITTED] T1970.075
    
    [GRAPHIC] [TIFF OMITTED] T1970.076
    
    Senator Clinton. Two final things on some of what has been 
discussed about the EPA's authority.
    The EPA has done indoor work in Libby, MT since 1992. In 
1998, there was a Presidential directive put in place putting 
EPA in charge of building decontamination. That is one of the 
reasons why it was quite bewildering to us that there wasn't an 
immediate acceptance of responsibility by the EPA and I can 
only assume that that Presidential directive putting EPA in 
charge of indoor contamination was either not known of or 
disregarded.
    Now, I want to go back to Ms. Bodine because you spoke at 
some length about the National Response Plan that the EPA put 
in place, I believe you said, in 2003, is that correct?
    Ms. Bodine. Our National Approach to Response, correct.
    Senator Clinton. Right. Well, then, I would like to direct 
your attention to a report issued by the White House Homeland 
Security Advisor, Fran Townsend, in February 2006, about the 
Administration's response to Katrina. Again, I quote from it.
    ``Federal officials could have improved the identification 
of environmental hazards and communication of appropriate 
warnings to emergency responders and the public. There must be 
a comprehensive plan to accurately and quickly communicate this 
critical information to the emergency responders and area 
residents who need it. Had such a plan existed, the mixed 
messages from Federal, State and local officials on the re-
entry into New Orleans could have been avoided. DHS, in 
coordination with EPA, HHS, OSHA and DOE, should develop an 
integrated plan to quickly gather environmental data and 
provide the public and emergency responders the most accurate 
information available to decide whether it is safe to operate 
in a disaster environment or return after evacuation. This plan 
should address how to best communicate risk as well as 
determine who is accountable for making the determination that 
an area is safe. It should also address the need for adequate 
laboratory capacity to support response to all hazards. The 
plan should be completed in 180 days.''
    Now, this was a finding in a report actually done by the 
White House. It certainly raises questions about the 
comprehensiveness and adequacy of the plan that EPA put into 
place. Has EPA worked with the Department of Homeland Security 
to respond to these requests that Fran Townsend made in her 
assessment of what the Government did after Katrina?
    Ms. Bodine. The Agency has been working on a crisis 
communication plan. It is still in draft, it is still under 
review within the Agency. There is also under the National 
Response Plan an Emergency Support Function Number 15, which is 
called External Affairs, which talks about the coordination of 
communications among all the agencies.
    Senator Clinton. Well, Ms. Bodine, it has to be clear that 
if there were problems in communicating after 9/11, and as you 
have testified today, the Agency began to take steps to try to 
have a better plan in place, and yet Katrina comes along and 
the White House's own review finds that the communication 
system was inadequate, and it is now nearly 2 years after 
Katrina and there is still not a communication plan, that has 
to raise serious doubts about the urgency with which the 
Administration approaches these issues. I would like to see a 
report from the EPA detailing where you are in response to this 
requirement to have a better plan and a further report as soon 
as you can get that to the committee.
    [The referenced information follows:]

    Recommendation 87 of the White House (Townsend) Report, ``The 
Federal Response to Hurricane Katrina: Lessons Learned,'' referred to 
by Chairman Clinton, recommended that the Department of Homeland 
Security, in consultation with EPA and other Federal agencies, develop 
an integrated plan regarding communication of environmental and safety 
information to the public and emergency responders. The Department of 
Homeland Security is in a better position to report on its efforts to 
address this recommendation. Meanwhile, EPA has taken a number of 
actions to increase the Agency's ability to provide timely and accurate 
environmental data in future disaster environments, including 
establishing a crisis communications work group to identify and 
implement opportunities to strengthen crisis communication procedures 
and developing a draft crisis communications plan.

    Let me now turn to GAO, because GAO has done a very 
thorough job in trying to make sense out of many of the 
contradictory statements and actions that have marked the 9/11 
experience. EPA's testimony notes a very low exceedance rate 
for asbestos in its first indoor test and clean program. Your 
testimony suggests that EPA used this data in a misleading way. 
Can you elaborate on this point, and does GAO have any other 
criticisms about EPA's risk communication after 9/11? Mr. 
Stephenson?
    Mr. Stephenson. First, you have to remember that the first 
program, as was the second, was a voluntary program. Air 
samples were taken largely after the apartments had been 
cleaned. There was an option for residents to select tests only 
or test and clean. Eighty percent of them, I believe, chose the 
latter option, to clean first and then test. But you have to 
assume that the others who tested only were not sitting around 
not cleaning their apartments.
    Our only point was that including that information with any 
public communication might have been heard differently by 
residents deciding to participate in the program or not.
    Senator Clinton. Let me follow up on that. EPA's December 
2006 press release announcing the current test and clean 
program included the following statement from Dr. George Gray: 
``We believe the potential for exposure related to dust that 
may remain from the collapse of the World Trade Center 
buildings is low.''
    In your judgment, is this statement by Dr. Gray supported 
by the data that the Agency has collected?
    Mr. Stephenson. Well, EPA doesn't have, has never done a 
comprehensive assessment of a single building. It is all based 
on voluntary samples from individual residences. It was done 
without benefit of looking for dust in HVAC areas, hard to 
access areas, et cetera. There was an aggressive test approach 
where they would go into the apartment and blow the air out. 
But it wasn't clear which of the samples were done in that 
manner versus the samples simply taken after cleaning. So we 
think the data is quite inconclusive, and we don't think EPA 
has ever done a comprehensive assessment of the extent of 
damage in a building, let alone in the lower Manhattan area.
    Senator Clinton. I certainly agree with that, and I think 
that is the fair conclusion, that EPA has not done a 
comprehensive study. I think it's clear that we don't have an 
accurate base of information to try to determine the causation 
behind a lot of the illnesses that people are suffering. We 
know people are getting sick.
    I mentioned a number of studies in my opening statement. 
Here is another one. Just this month, a study published by 
researchers from the New York State Department of Health, the 
New York University School of Medicine and the State University 
of New York at Albany concluded that residents who were exposed 
to contamination generated by the collapse that had been 
deposited in their homes had a significantly elevated rate of 
persistent airway disease. The study also found a strong 
correlation between reactive airway disease and exposures to 
indoor contamination for a period of 3 months or longer.
    I would like to enter this report into the record, because 
really this all comes back to my concern that we were never 
fully focused on what we needed to do at the time and instead 
of going forward and saying, well, maybe in the immediate 
aftermath, which I absolutely agree was confusing and 
difficult, we missed some points, we weren't as clear as we 
needed to be, let's regroup and go forward. I think the 
evidence is very clear that we never did what was required. The 
EPA never did it, the Council on Environmental Quality never 
required it. I think it is critical to do the oversight and 
have a detailed evaluation of EPA's readiness to respond to 
releases of hazardous substances in disasters.
    [The referenced material follows:]

    [GRAPHIC] [TIFF OMITTED] T1970.077
    
    [GRAPHIC] [TIFF OMITTED] T1970.078
    
    [GRAPHIC] [TIFF OMITTED] T1970.079
    
    [GRAPHIC] [TIFF OMITTED] T1970.080
    
    [GRAPHIC] [TIFF OMITTED] T1970.081
    
    [GRAPHIC] [TIFF OMITTED] T1970.082
    
    [GRAPHIC] [TIFF OMITTED] T1970.083
    
    [GRAPHIC] [TIFF OMITTED] T1970.084
    
    [GRAPHIC] [TIFF OMITTED] T1970.085
    
    Senator Clinton. Mr. Stephenson, I will soon submit a 
request to GAO to look into this issue of EPA preparedness more 
broadly. Because my concern is intensified by the White House's 
own findings about EPA's failures in the wake of Katrina. I 
don't know how any of us can sit here and be satisfied that if 
something disastrous happened tomorrow, we would not once again 
be facing confusion, misstatements, failures, that are going to 
cost people their lives and/or their health.
    So we will be submitting additional questions to each of 
the witnesses. I look forward to your cooperation. Because for 
me, this is about how do we know we are doing better. That is a 
duty we owe to all of our citizens, and I think it is a duty we 
have not met.
    I would also submit to the record the decision by Judge 
Batts in the case that I referenced in New York that found that 
Administrator Whitman certainly knew better than the statements 
that she made. On the contrary, the judge found, after looking 
at extensive evidence, that Governor Whitman's statements were 
deliberate and misleading, and in fact, they shock the 
conscience. No argument can be made that Whitman could not have 
understood from existing law that her conduct was unlawful. 
That is not me, that is not Inspector General, that is not a 
political person, that is a Federal judge.
    So we have to do much better. We owe it to the people that 
look to their Government to protect them and I hope that we 
will be able to come up with some lessons learned that will 
plug holes in legislation and regulation.
    Senator Lautenberg, do you have any other questions for 
this panel?
    Senator Lautenberg. Just if I might, and I thank the panel 
for their continuing to be with us. I want to ask Ms. Bodine 
about whether or not EPA today is prepared to make clear and 
consistent statements about the potential short-term and long-
term risks posed by toxics and dust during an incident that 
would produce that kind of an after effect. Does EPA have a 
communications program in place to make the kind of, that kind 
of statement on an issue of environmental protection health, 
really alerting the people who could be affected to the risks 
that are posed by the consequence of this type?
    Ms. Bodine. Senator, I believe that we do. I would like to 
point out the review of EPA's communications during Katrina by 
our EPA Inspector General. There was a May 2, 2006 report, the 
title is ``EPA Provided Quality and Timely Information on 
Hurricane Katrina, Hazardous Materials Releases and Debris 
Management.'' The Agency did a fabulous job during Katrina in 
collecting data and making that data available to the public, 
so that they could make decisions about their own safety.
    Senator Lautenberg. So you feel that we are in better shape 
today as a result of the post-Katrina data flow than we were at 
the time of 9/11?
    Ms. Bodine. Yes. As has been described, at the time the 
World Trade Center event was unprecedented in terms of the 
amount of environmental information we were collecting, 
analyzing, making available. Katrina was even greater in 
magnitude. Yet our Agency employees have developed ways of 
getting, creating portals, creating data bases, getting 
information out far more quickly than we were able to during 
the World Trade Center response. So yes, we are in a better 
position to communicate.
    Senator Lautenberg. Thanks. Mr. Connaughton, we know that 
CEQ was involved in editing EPA press releases to minimize the 
concern that a more candid assessment of health risks from 
toxic dust might have done. Why does the White House, why do 
they seem so focused on preventing the raw truth to the public? 
Why did you feel it necessary in CEQ to review press statements 
and change things that were in there that might have been of 
more concern but more candid?
    Mr. Connaughton. We don't.
    Senator Lautenberg. Well, you did then, according to the 
reports that we see, that there were modifications of words and 
statements that you were the final decisionmaker in terms of 
what was allowable, what could go to the press. There are lots 
of things that stress the fact that no releases were to go out 
without the approval of the Administration, and that would have 
been you.
    Mr. Connaughton. I disagree with your conclusion, Senator.
    Senator Lautenberg. All right. Well, we are going to 
examine the record closely and maybe sharpen your recollection. 
Thanks very much.
    Senator Clinton. Thank you very much, Senator Lautenberg. 
Thanks to the panel. I appreciate all of you being here. We 
will follow up with some specific requests that we hope will 
get your prompt attention. Thank you all.
    Our next panel, as they are coming forward, includes two 
people with direct experience in New York with respect to the 
issues we are examining. David Newman is from the New York 
Committee for Occupational Safety and Health. Nina Lavin is a 
resident of the World Trade Center area. I thank them both very 
much for being part of this investigation and oversight 
hearing.
    Nina, we are going to start with you. I thank you for 
taking your time to be with us. I look forward to your 
testimony.

               STATEMENT OF NINA LAVIN, RESIDENT

    Ms. Lavin. Chairman Clinton, Senator Lautenberg, thank you 
for inviting me here to testify today.
    My name is Nina Lavin and I have resided for the past 5 
years at 105 Duane Street, which is situated seven blocks 
directly north of the World Trade Center. I was home on 
September 11th and witnessed the collapse of both Towers. 
Stunned, I evacuated that afternoon.
    The next day I returned home to rescue my pets and collect 
a few belongings. Ten days later, when I returned home to stay, 
a fine, glittery dust had settled on virtually every surface 
and belonging throughout my apartment.
    The fabric wallpaper in our hallways had grayed throughout 
the building. I also noticed dust accumulating around the door 
frame of the entrance to my apartment, which looked completely 
different from the standard, grimy dust I was familiar with 
from housecleaning.
    Christie Todd Whitman's statement on September 18, 2001, 
that ``the air is safe to breathe'' set dangerous chaos in 
motion in lower Manhattan. For 8 months, EPA insisted they had 
no responsibility for indoor cleanup. Instead, city agencies 
were left to take the lead. But city agencies weren't set up to 
handle the fall-out of what was in truth a Superfund site. They 
also had longstanding, inbred relationships with real estate 
interests.
    The City Department of Environmental Protection allowed 
landlords to self-certify that their buildings were safe and 
looked the other way when landlords mis-used testing methods to 
obtain artificially low results, or failed to test at all. When 
residents sought guidance on how to clean up from EPA, they 
were directed to the City Department of Health Web site, where 
they were instructed to clean up World Trade Center dust 
themselves, by wet wiping. That is what I did.
    Later, to protect myself as best I could, I also purchased 
a HEPA vacuum and ran a HEPA air filtration device. For months, 
noxious fumes from the site entered our homes, so that even 
inside my apartment, the fumes were so intense, it was as 
though I had stuck my head inside an oil drum full of burning 
industrial materials. Consequently, I experienced headaches, 
burning in my eyes, nose and throat, and developed a painful, 
hacking cough.
    By July 2002, I was diagnosed with chronic bronchitis by a 
pulmonologist at NYU Medical Center and was moved out of my 
apartment for almost 10 months with funding from FEMA. 
Currently, I am receiving treatment at the Bellevue World Trade 
Center Environmental Health Clinic.
    Today, 5\1/2\ years after the event, like so many other 
residents, I have sinusitis and esophagitis, which are 
conditions of chronic inflammation, and acid reflux, all of 
which are now recognized as being linked to World Trade Center 
exposures. These symptoms are not diminishing, and while they 
may not be life-threatening, no one knows what is in store down 
the road.
    The big questions remain: What were we exposed to, for how 
long, and are we still being exposed? Unfortunately, we have no 
answers to any of these questions, in large part because the 
EPA refused to take its responsibility for assessing and 
cleaning up indoor contamination.
    In 2002, since EPA wasn't doing any indoor testing at that 
point to protect residents, I took matters into my own hands. I 
privately hired a certified industrial hygienist to conducted 
asbestos testing inside my apartment. My building was 
constructed in the early 1990s and therefore, can be presumed 
to have been constructed free of asbestos-containing materials. 
Testing using the microvac method revealed highly elevated 
concentrations of asbestos in dust clumps formed in the front 
doorway of my apartment, which opens into an interior hallway 
of the building. Significant but lesser levels were found deep 
inside the two HVAC units.
    Because of these findings, I chose to participate in the 
voluntary cleanup program EPA offered in 2002. I am not a 
scientist, but common sense tells me this program was woefully 
inadequate. First, the cleanup was voluntary and many of my 
neighbors took this as a sign that participation was 
unnecessary and a waste of time. Second, cleanup of building 
common areas, hallways, lobbies, et cetera, was entirely left 
to the discretion of building owners, posing a serious 
recontamination scenario.
    Third, cleaning of HVAC systems was flawed and based 
exclusively upon an unscientific evaluation of dust color. Very 
few HVACs were ever cleaned.
    Finally, the cleanups were performed by seemingly untrained 
workers, using poor equipment. In my apartment, the cleaning 
crew used cheap, dark-colored, non-absorbent, synthetic 
bathroom towels, which moved the wet dirt around without 
picking it up. Luckily, though, on the advice of cleanup 
professionals I had spoken with, I had a backup plan: Huggie 
wipes. I gave these to the cleaners and once they began using 
them, the dust and dirt started coming off, and coming off--the 
same surfaces that had previously been cleaned using the cheap, 
synthetic towels.
    Six months after the EPA cleanup of my apartment, I had 
testing done again for asbestos, lead and numerous heavy metal 
analytes. While asbestos was found in a low level in one window 
well, the lead was found to be elevated in both windows and in 
one of them, just below the cutoff point for which immediate 
lead remediation would have been required.
    To quote the written report on the finding of heavy metals, 
``The heavy metal sampling revealed the presence of various 
heavy metals found in the apartment. Published standards for 
acceptable levels of heavy metals on surfaces within the space 
do not exist. Standards have not been developed because the 
presence of most of these contaminants is neither a normal nor 
an acceptable condition in commercial or residential space.''
    It is now 2007. Is the air safe to breathe? No one knows. 
Lessons learned by EPA? I have learned the latest EPA cleanup 
plan is as poor as the last.
    Thank you for allowing me to speak today.
    [The prepared statement of Ms. Lavin follows:]

                   Statement of Nina Lavin, Resident

    Chairman Clinton, Ranking Member Craig, and members of the 
Committee:
    My name is Nina Lavin. I am a resident of lower Manhattan who 
experienced first hand the devastation that the collapse of the World 
Trade Center wreaked upon my neighborhood. I would like to tell you my 
story with the understanding that it is a stand-in for thousands of 
others like it. I also want you to know of our serious lingering 
concerns that toxic contaminants still remain in our homes.
    I do not always remember the precise dates of events anymore and 
the story of what happened downtown is hard to summarize in one 
statement. But what remains crystal clear is that Christie Todd 
Whitman's words on September 18, 2001, assuring New York and the nation 
that ``the good news is the air is safe to breathe,'' was reckless and 
false and set dangerous chaos in motion for all of us living downtown.
    Her statement is directly at odds with what she, her agency, and 
the administration already knew: that out of 143 bulk samples collected 
out of doors in the days immediately following 9/11, 76% of the tests 
contained asbestos and 34% of those tests met the regulatory definition 
of asbestos containing materials, or ACMs as they are known.
    And EPA would also have understood that while outdoor toxins may 
dissipate over time with wind, rain and sunlight, those that make their 
way indoors can build up and remain in high concentrations, settling on 
surfaces only to be stirred up over and over, often invisibly, as 
people go about their daily lives. In addition, and importantly, those 
results were only for asbestos, the tip of the iceberg in terms of what 
we were exposed to down here.
    Once the EPA shirked its responsibility to protect us at the 
federal level, there was an immediate trickle down effect to our local 
EPA Region 2, and to the City Department of Environmental Protection 
(DEP) and the City Department of Health (DOH). As a resident, I saw the 
way deception starting at the federal level, where policy-making 
begins, then permeated local policy making in all three of these 
agencies, putting the health and lives of so many people at risk.
    This trickle down was demonstrated over and over in testimony given 
during the February 23, 2002 hearing convened by the EPA Ombudsman's 
office, an independent internal watchdog that no longer exists. Indeed, 
the only two EPA employees I witnessed trying to protect our health 
here in New York were Ombudsman Robert Martin and his Chief 
Investigator Hugh Kaufman, who were stripped of their jobs while trying 
to expose the failures of the EPA after 9/11.
    Without EPA acting as the lead agency, it was left to the city 
agencies to take the lead; but the city agencies weren't set up to 
handle the fall-out of what was in truth a super fund site. And those 
agencies have long standing, inbred relationships with real-estate 
interests so that they looked the other way and sanctioned use of 
passive air testing methods for indoor use, guaranteed to produce 
artificially low estimates of asbestos in indoor environments.
    I was asked to tell you about ways in which the collapse of the 
Towers impacted my residence, my health, and to describe the EPA 
cleanup I received in 2003. Here is my history.

                           RESIDENTIAL IMPACT

    I have resided for the past 12 years at 105 Duane St, which is 
located in Tribeca and situated seven blocks directly north of the WTC 
site. I was home on September 11 and witnessed the collapse of both 
towers. I closed the windows and HVAC flu vents before the buildings 
fell; (little did I know that they even would). I closed them in an 
effort to keep the fumes from burning fuel, and the glass which visibly 
sparkled in the sky, from entering my apartment. After the collapse I 
waited a couple of hours to make sure my two cats would be all right--
the sky outside had turned the most apocalyptic color I have ever seen, 
and I had the fear I might return home to find them dead, like canaries 
in a mine. Ultimately, having just witnessed the collapse of an urban 
Mt. Fuji before my very eyes, I was numb with shock, and fled. The next 
day I returned, making my way through pitch black hallways with a 
flashlight to rescue my pets, and collected a few belongings. When I 
returned home ten days later, a fine, glittery dust had settled on 
virtually every surface and belonging throughout my apartment. The 
wallpaper in the building, made of some type of synthetic fabric, was 
grayed throughout the building. I also noticed a dust accumulating 
around the doorframe to the entranceway of my apartment which looked 
completely different from the standard grimy dust I was familiar with 
periodically wiping away when house cleaning. Adding to the impact of 
the collapse, our recently hired building superintendent, the father of 
two small children who no doubt had panicked himself on 9/11, had 
failed to shut down the building's centralized HVAC system, which 
continued to run until mid afternoon, when the entire neighborhood 
finally lost power.
    There were also noxious fumes we all inhaled indoors and out for 
months. Although I live seven blocks north of the site, the fumes were 
so intense indoors it was sometimes almost as though I had stuck my 
head inside an oil drum full of burning industrial materials, office 
furniture and whatever else was incinerating on that pyre. I knew 
several people who were having nosebleeds and I experienced headaches, 
burning in my eyes, nose, throat, and developed a painful hacking 
cough.
    I did the best I could to clean my apartment using whatever 
information I could find at that time; I used wet wipe cleaning methods 
to avoid stirring up the dust, I purchased a HEPA vacuum cleaner, and 
ran a HEPA air filtration device.
    In December 2001, a resident on the 10th floor of my building hired 
Ed Olmsted, a Certified Industrial Hygienist, to test the public air 
supply grille on that floor. Olmsted conducted a microvac test that 
revealed 550,000 structures of asbestos per cubic centimeter, a high 
finding, especially for a building built free of ACM's.
    Meanwhile, the building owner, Related Management, hired Air Tech 
to do a standard air shaft cleaning. Not only was Air Tech not 
certified to do asbestos remediation, they had never cleaned a building 
this size.
    Since stirring up the dust in the air supply duct would send the 
dust straight into hallways throughout the building, Joel Kupferman, an 
environmental attorney to whom one of my neighbors had turned for help, 
contacted the DEP and DOH and notified them of the asbestos finding. He 
also contacted Related Management and insisted that representatives of 
the two agencies be admitted to do an inspection.
    Along with another tenant, I attended the walk-through of several 
hallways, pointing out the dust on the HVAC grille to the DEP and DOH 
inspectors and to Related Management's Head of Engineering Peter Hoyle. 
It should be noted that Related Management is one of the wealthiest and 
most politically powerful real estate entities in New York. In the 
meeting, Hoyle asked Carlstein Lutchmedial, a senior member of DEP's 
asbestos enforcement team, ``Is it not so that Related Management has 
done everything which it is legally mandated to do?'' Lutchmedial 
replied, ``Yes, Related Management has done everything which is legally 
mandated.''
    Both agencies then permitted the cleanup to go forward in a 
building full of residents coming and going, who were largely unaware 
that this was even an issue.
    By July of 2002 I finally had developed such a serious cough I felt 
as though my throat would fly out of my mouth. Since EPA wasn't doing 
any indoor testing to protect residents, the air being safe to breathe, 
I realized it was time for me to do what should have been the 
government's job. I privately hired Certified Industrial Hygienist Ed 
Olmsted, who had tested the 10th floor grille back in December and who 
headed air monitoring oversight at the Fresh Kills 9/11 debris removal 
site in Staten Island, to conduct asbestos testing inside my apartment.
    I reside in a one bedroom apartment in which the windows and two 
individual HVAC units, located in my living room and bedroom, directly 
face the World Trade Center site. My building was constructed in the 
early 1990's and therefore can be presumed to have been constructed 
free of asbestos containing materials and likewise free of corrosive 
lead containing paint and pipes. Due to the highly cost prohibitive 
nature of such testing (a written report, three asbestos tests plus one 
blank for control cost $1,700.00) I tested for asbestos alone.
    Testing using the microvac method revealed highly elevated 
concentrations of asbestos in dust clumps formed in the front doorway 
of my apartment which opens into an interior hallway of the building, 
and lesser levels deep inside the two HVAC units. The interior doorway 
finding is particularly significant because due to the design of 
airflow in the building, it definitively implicates the central air 
intake shaft as being the source of the contamination. Presumably it 
therefore entered other apartments as well.
    I took my test report to FEMA in late July, believing they would 
move me with these results in hand. But again, because ``the air was 
safe to breathe,'' and because the building was structurally sound, 
FEMA would not move me. FEMA was not willing to move anyone without a 
doctor's note, which meant people had to wait until they became 
sufficiently sick to obtain a doctor's note before being moved. What I 
needed was not proof of exposure, it was a doctor's note, and as I was 
becoming sick, that was my next step.

                             HEALTH IMPACT

    In July of 2002 I was diagnosed with chronic bronchitis by a 
pulmonologist at NYU Medical Center, a diagnosis corroborated by my 
primary care physician. Doctor's letter in hand, I was finally moved 
out of my apartment for almost ten months with funding from FEMA. I 
should add that even with this letter, it took the intervention of 
Congressman Nadler's office to get FEMA to comply in a timely manner 
and relocate me. (I wonder how many others whose health was impacted 
didn't know they could turn to their elected officials for help.) By 
the time I was moved out I had an uncontrollable racking, painful cough 
and my sinuses and esophagus were chronically inflamed. I had also 
developed acid reflux.
    Currently I am receiving treatment at the Bellevue WTC Clinic from 
its medical director Dr. Joan Riebman. Initially I had hoped my 
symptoms might begin to subside, but unfortunately, five and a half 
years after the event, I like so many others continue to have a 
lingering group of symptoms, now recognized by the medical community as 
being linked to WTC exposure. My particular symptoms are sinusitis, 
esophagitis and acid reflux. My voice has changed slightly and I 
frequently become horse at night; I do not have asthma, but subtle 
changes in my small airways have shown up on x-rays. I am sorry to say 
I am not seeing diminishment of symptoms.
    These health problems are not life threatening at the moment but no 
one knows what's in store down the road. We certainly know of the 
exposure related deaths of first responders and recovery workers. The 
big questions remain: what were we exposed to, for how long, and does 
the exposure continue?

                              EPA CLEANUP

    Months after the collapse, in May of 2002, EPA finally announced 
they were offering a voluntary residential cleanup program. 
Comprehensive testing and remediation of indoor residences and office 
spaces should have been mandatory to protect the health of citizens and 
to prevent recontamination of cleaned spaces by nearby un-remediated 
spaces.
    Voluntary enrollment implied there was no problem; I spoke with 
neighbors who trusted the government assurances and who read 
``voluntary'' to mean having their homes cleaned was unnecessary and a 
waste of time. To also quote from one of the outreach fliers created by 
EPA for public distribution: ``While scientific data does not point to 
any significant long-term health risks, people should not have to live 
with uncertainty about the future.'' http://www.epa.gov/wtc/flyers/
onepagead.pdf This quote implies there is no problem with air quality 
because if there were, there would be long-term health risks.
    Another voluntary choice thrust upon residents by EPA was between 
two different options, with no explanation given for choosing one over 
the other. They were:
    <bullet> ``To have your residence professionally cleaned and then 
tested for asbestos in air.''
    <bullet> ``To have your residence tested for asbestos in air 
without professional cleaning.
    (If--and only if--asbestos is found during testing, you many then 
ask that your residence be professionally cleaned.'') Again, the air 
testing methods used for this determination were of questionable use in 
revealing presence of asbestos, and were not adequate for uncovering 
other kinds of contamination.
    While individuals could elect to have their homes cleaned, cleanup 
of building common areas, hallways, lobbies, laundry rooms, etc. was 
entirely at the discretion of building owners. Many landlords did not 
want to participate in the EPA cleanup since this could be seen as 
suggesting that their buildings were contaminated, potentially setting 
off tenants' fears and even flight, raising the specter of litigation 
or possible devaluation of their property.
    There was the further, key issue of residual contamination in 
central HVAC systems. EPA and DEP avoided cleaning those by devising a 
visual inspection method. Sometime in early 2003 I witnessed the 
inspection in my building. A duct cleaning contractor climbed up a 
ladder and peered into several of the building's 10'' x 10'' hallway 
vent openings, using a home owner's flashlight. The evaluation was 
based on the color of the dust. Looking inside the dark air shaft, my 
contractor described our dust as, ``kind of brownish grey. . . .'' 
Later I was extremely dismayed to learn that this description was being 
used by EPA to claim that our HVAC was free of WTC dust.
    Not content to accept this conclusion based on this preposterous 
and unscientific determination, a neighbor of mine and I reached out to 
Congressman Nadler for help. So Linda Rosenthal of Congressman Nadler's 
staff accompanied us to a meeting with Kathy Callahan, EPA Region 2 
Assistant Administrator. We argued that EPA was required to clean the 
ductwork, particularly since testing of the duct, seven months after 
Related Management's supposed cleanup job, again showed the presence of 
asbestos. Kallahan acknowledged she was aware of the asbestos in our 
building and stated she knew it originated from the collapse of the 
World Trade Center. Nonetheless, she staunchly refused to remediate the 
building's air supply duct. I believe this refusal stemmed from her 
awareness that it would set a precedent for cleaning of duct work in 
other buildings, particularly large ones.
    On the day of my cleanup in late April of 2003, several work crews 
arrived on my floor, the goal being for several units to be cleaned 
simultaneously per day. Many of the workers appeared to be quite young. 
They were not equipped with dual cartridge respirators as this was 
conceived of as a ``courtesy cleanup,'' not a remediation. My apartment 
was an exception; armed with my test results, I was able to make the 
case that the workers wear respirators; cleaning crews elsewhere on the 
same floor wore none. The contractor had not supplied the crew with 
sufficient amounts of filter cartridges on hand, so I distributed some 
of my own.
    Towards the end of the day the On Scene Coordinator (OSC) stopped 
by my apartment to check on the proceedings; I learned the mandatory 
air filtration device in my apartment, required in order to capture 
airborne particulates during cleanup, had been improperly set-up; so no 
air filtration had occurred. It is a good thing we were all wearing 
respirators.
    And the wet wiping methods used to clean surfaces in my home? They 
were all dark colored, cheap synthetic bathroom towels, purple and 
forest green, which just dragged the wet dust around without picking it 
up. The same was true for their disposable, synthetic paper towels.
    But on advice I had previously gathered from environmental cleanup 
professionals, I had a backup cleaning plan--Huggy Wipes. When I 
purchased my respirator from a major supplier to the environmental 
cleanup industry I explained to them my apartment had been impacted by 
the WTC; they advised me the very best thing I could use for wet wiping 
cleanup was Huggy Wipes. And they were right.
    I brought out the Huggy Wipes and once the crew began using them, 
the dust and dirt just kept coming off and coming off--the same 
surfaces that had already been ``cleaned'' with the cheap supplies they 
had brought.
    They cleaned wall surfaces and floors, and objects, but they didn't 
clean interiors of closets, cabinets or drawers, because the EPA 
protocol excluded those places. And they didn't remove the HVAC units 
from the walls to get at the contamination behind them that had 
penetrated from outdoors.
    When the cleanup crew left at the end of the day, I looked down at 
the door jam and saw a large clump of dust, fallen from around the same 
doorway where independent testing had found the asbestos.
    And it stands to reason that dust was left behind in hard to reach 
places. The cleanup protocol had no provision for inclusion of window 
tracks, so my sliding windows were not removed from their tracks, and 
the dust reservoirs were left untouched.
    That has ramifications to this day. The exterior of my windows are 
depressingly dirty, but they must be removed from their tracks in order 
for the exteriors to be cleaned. Removal of them for standard cleanup 
may well re-contaminate my apartment with underlying dust deposits; if 
dust is still there, it may be seeping into my apartment slowly 
instead.
    Six months after the EPA cleanup of my apartment I had testing done 
again, for asbestos, lead and numerous heavy metal analytes. While 
asbestos was found in a low level in one window well, lead was found to 
be elevated in both window wells and in one of them, just below the 
cutoff point for which immediate lead remediation would have been 
required. To quote the written report on the finding of heavy metals, 
``The heavy metal sampling revealed the presence of various heavy 
metals found in the apartment. Published standards for acceptable 
levels of heavy metals on surfaces within the space do not exist. 
Standards have not been developed because the presence of most of these 
contaminants is neither a normal nor an acceptable condition in 
commercial or residential space.''
    It is now 2007. Is the air safe to breathe? No one knows and the 
newly devised cleanup plan is as poor as the last. Members, I implore 
you to see to it we get the science based, effective cleanup we so 
desperately need and thank you for reading my testimony.

    Senator Clinton. Thank you very much for your very thorough 
and informative testimony.
    I want to turn now to David Newman. I want to thank Mr. 
Newman for your work on the EPA World Trade Center Expert 
Technical Review Panel, and for all of your efforts to address 
these important and difficult issues in New York.
    Mr. Newman.

 STATEMENT OF DAVID M. NEWMAN, M.A., M.S., NEW YORK COMMITTEE 
               FOR OCCUPATIONAL SAFETY AND HEALTH

    Mr. Newman. Thank you. Good afternoon, Chairperson Clinton 
and Senator Lautenberg. My name is David Newman. I am an 
industrial hygienist with the New York Committee for 
Occupational Safety and Health. I also had the privilege of 
serving on the EPA World Trade Center Expert Technical Review 
Panel.
    The attacks of September 11, 2001, produced not only an 
initial catastrophic loss of life but also a lingering 
environmental disaster, with adverse health consequences for 
responders at Ground Zero as well as for workers and residents 
in a much larger geographic area. Toxic contaminants were 
dispersed over a wide area of lower Manhattan and Brooklyn and 
beyond. We now know that those caught in the dust cloud and/or 
those responding at the World Trade Center site in the first 
hours or days have higher incidences and greater severities of 
health impacts. Presumably the intensity and duration of 
exposure and lack of respiratory protection were significant 
factors.
    These early exposures were unavoidable. However, EPA's 
inappropriately reassuring pronouncements that the air was safe 
to breathe were counter-productive to efforts at implementation 
of respiratory protection programs by employers and counter-
productive to respirator use by rescue recovery and cleanup 
workers. EPA's actions contributed to unnecessary exposures to 
toxic contaminants by thousands of workers and volunteers. 
Similarly, EPA's risk communications served as disincentives to 
landlords, employers and Government agencies regarding the 
suitability of conducing indoor environmental testing and 
cleanup.
    The failure of EPA to provide environmental assessment and 
cleanup in commercial and government buildings, coupled with 
the Agency's limited and inadequate sampling and cleanup in 
residences, is likely to have subjected area workers and area 
residents to additional unnecessary and unavoidable exposures.
    Because EPA contended for the first 8 months that it had no 
legal responsibility for addressing indoor contaminants, 
sampling and remediation efforts during that time occurred only 
on a limited, haphazard and often ineffectual basis. The single 
EPA indoor cleanup effort was modest, limited to residences and 
of questionable effectiveness and scientific merit. The current 
EPA program fundamentally replicates the prior program and 
disregards virtually all of the recommendations of the members 
of the WTC Panel. This program, like its predecessor, is 
technically and scientifically flawed, and is unlikely to 
adequately identify or cleanup 9/11 contaminants if and where 
they still exist.
    The geographic boundaries of the current program are 
arbitrary and not scientifically determined. EPA used aerial 
photographs of debris deposition to establish the boundaries. 
However, aerial photographs do not show the invisible smaller 
particles that are of considerable health concern and are 
likely to have been dispersed over a wider geographic area. The 
World Trade Center Expert Panel strongly recommended that the 
program's geographic boundaries be expanded further north in 
Manhattan and east into parts of Brooklyn. EPA agreed to do so 
in May 2005, but has reneged on that commitment.
    There is no scientific justification for the exclusion of 
workplaces. There is no evidence that workplaces were impacted 
differently or less severely than residences. There is no 
evidence that a significant number or any number of workplaces 
benefited from employer-conducted cleanup efforts or that such 
efforts were effective. Most workplaces were not and will never 
be tested or cleaned.
    The EPA program is designed to avoid finding contaminants. 
It is biased toward sampling cleaner areas and it de-emphasizes 
sampling in dirtier areas. It excludes testing in precisely the 
spaces that are most likely to harbor residual contaminants, 
such as mechanical ventilation systems and ceiling plenums. 
This is problematic for two reasons. First, maintenance workers 
regularly access these spaces and inadvertently disturb settled 
dust, resuspending it into the air, where it is available for 
inhalation by workers and tenants. Second, contaminants in the 
mechanical ventilation system can lie dormant indefinitely. If 
they are disturbed at a later date by maintenance activities or 
other causes, the ventilation system will provide a very 
efficient mechanism for distribution of contaminants throughout 
occupied indoor spaces.
    The EPA program, the current program, diverges 
significantly from established regulatory and best work 
practices. The plan establishes different triggers for cleanup 
of asbestos in different parts of residences. It permits higher 
levels of asbestos to remain on top of bookcases or behind 
large objects of furniture. It is ill-advised to remove 
asbestos from the living room floor and allow it to remain 
behind the refrigerator. City and State asbestos regulations 
require that all areas of a contaminated space be cleaned to a 
single protective standard.
    The potential consequences of these shortcomings are 
worrisome. Scientists may received skewed data on the extent of 
geographic dispersion of 9/11 contaminants. Residents may 
receive inaccurate assessments of the presence or absence of 9/
11 contaminants in their living spaces, and may receive 
inadequately supported assurances of safety. Workers and 
employers will continue to lack effective access to 
environmental testing and clean-up.
    Thank you very much.
    [The prepared statement of Mr. Newman follows:]

   Statement of David M. Newman, M.A., M.S., New York Committee for 
                     Occupational Safety and Health

    Good morning, Chairperson Clinton, Ranking Member Craig, and other 
members of the Superfund and Environmental Health Subcommittee. Thank 
you for this opportunity to present testimony. My name is David Newman. 
I am an industrial hygienist with the New York Committee for 
Occupational Safety and Health (NYCOSH). NYCOSH is a nongovernmental, 
nonprofit organization that has provided technical assistance and 
comprehensive training in occupational safety and health to unions, 
employers, government agencies, and community organizations for over 25 
years.
    The attacks of September 11, 2001 produced not only an initial 
catastrophic loss of life at the World Trade Center (WTC) site, but 
also a lingering environmental disaster, with adverse health 
consequences for responders at Ground Zero as well as for workers and 
residents in a much larger geographic area. Because we may 
unfortunately be faced with a similar situation again, it is imperative 
to examine and learn from government efforts to protect public and 
worker health in 9/11 response efforts.
    Since the tragic events of September 11, 2001 and continuing to 
this day, NYCOSH, in partnership with the National Disaster Ministries 
of the United Church of Christ, has worked closely with unions, 
employers, and community and tenant organizations at Ground Zero and 
throughout Lower Manhattan. This work has included outdoor and indoor 
environmental sampling, technical assistance with the design or 
evaluation of sampling, cleanup, and re-occupancy protocols and with 
mechanical ventilation and filtration issues. Within days of 9/11, 
NYCOSH produced and distributed the first fact sheets describing 
respiratory hazards at Ground Zero and outlining appropriate 
respiratory protection. We provided technical assistance to unions at, 
under, and around Ground Zero. NYCOSH, in collaboration with the Queens 
College Center for the Biology of Natural Systems and the Latin 
American Workers Project, operated a mobile medical unit near Ground 
Zero which provided medical screenings to hundreds of immigrant day 
laborers engaged in the cleanup of contaminated offices and residences. 
We also provided respirators to these cleanup workers, along with 
changeout filter cartridges, fit-testing, and training in proper 
respirator use. NYCOSH also trained additional hundreds of Lower 
Manhattan workers about 9/11-related occupational and environmental 
health issues. NYCOSH continues to work closely with the health care 
centers of excellence and with unions, employers, and tenant and 
community organizations to ensure that their constituents are informed 
about and have access to appropriate medical care for 9/11 health 
conditions.
    In addition, I had the privilege of serving on the U.S. 
Environmental Protection Agency (EPA) World Trade Center Expert 
Technical Review Panel. I also served on the Exposure Assessment 
Working Group of the World Trade Center Worker and Volunteer Medical 
Screening Program and on the Advisory Board of Columbia University's 
Mailman School of Public Health World Trade Center Evacuation Study. I 
currently serve on the Community Advisory Committee of the World Trade 
Center Environmental Health Center at Bellevue Hospital and on the 
Labor Advisory Committee of the New York City Department of Health and 
Mental Hygiene's World Trade Center Health Registry.
    My testimony will focus on five issues:
    1. Whether the data available to EPA at the time of the 9/11 
attacks and during subsequent recovery operations indicated a potential 
for elevated risk from environmental exposures;
    2. Whether the actions of EPA were consistent with regulatory 
requirements for risk assessment and protection of human health;
    3. Whether EPA's test and clean programs provide effective 
assessment and remediation of indoor environmental contaminants;
    4. Whether exposure to 9/11 contaminants resulted in harm to human 
health, and, if so, whether this harm was avoidable; and
    5. What lessons have been, or remain to be, learned from EPA's 9/11 
response and recovery efforts.
    NYCOSH is well situated to comment on these issues. In addition to 
our 9/11 efforts, we have provided training and technical assistance on 
respiratory protection, hazard assessment and control, confined space 
entry, and hazardous waste operations and emergency response, among 
other topics, to employers, unions, government agencies, and community-
based organizations for several decades, often in collaboration with 
OSHA, the National Institute for Occupational Safety and Health 
(NIOSH), the National Institute for Environmental Health Sciences 
(NIEHS), the New York State Department of Labor, the New York City 
Department of Environmental Protection, and the New York City 
Department of Health and Mental Hygiene.
    1. What data were available to EPA at the time of the 9/11 attacks 
and during subsequent recovery operations? Did these data indicate a 
potential for elevated risk to human health from environmental 
exposures?--Although the chemical composition and extent of dispersion 
of WTC dust remain poorly characterized, the current scientific 
literature is unambiguous as to its general nature and scope. 
Contaminants were dispersed over a wide area of Lower Manhattan and 
Brooklyn, and for ``miles beyond.'' Hundreds of contaminants have been 
identified in air, dust, and bulk samples.<SUP>1,2,3</SUP> Toxic 
contaminants of concern include asbestos, PCBs (polychlorinated 
biphenyls), PAHs (polycyclic aromatic hydrocarbons), manmade vitreous 
fibers, dioxins, volatile organic compounds, crystalline silica, 
pulverized glass shards, highly alkaline concrete dust, and lead, 
mercury, and other heavy metals.
    Credible, substantive data that indicated the presence of toxic 
substances in significant quantities at the WTC site were readily 
available to EPA prior to and on September 11, 2001.
    Prior to and on 9/11, information on the documented presence of 
toxic substances at the WTC site was available in government databases 
that itemize storage of hazardous raw materials, as per the hazardous 
chemical storage reporting requirements of the federal Emergency 
Planning and Community Right to Know Act.<SUP>4</SUP> These data, 
readily available at the time, indicated at a minimum the probable 
presence of barium, lead, chloroform, chlordane, carbon tetrachloride, 
cadmium, chromium, mercury, hydrogen sulfide, arsenic, and other toxic 
raw materials at the offices of the United States Customs Service, 6 
World Trade Center, and of mercury, tetrachloroethylene, PCBs, arsenic, 
ethane, and other toxic raw materials at the offices of the Port 
Authority of New York and New Jersey, 1 World Trade Center. The purpose 
of the hazardous raw materials databases is precisely to facilitate 
safe emergency response and effective containment and cleanup in the 
event of an unanticipated chemical release.
    Additional information on hazardous in-place building materials and 
office furnishings was widely known in the regulatory and public health 
communities. Knowledge and use of this information was a prerequisite 
to appropriate preliminary risk assessment, design of safe and 
effective work methods, and selection of protective equipment, 
including respirators.
    An estimated 400 or more tons of asbestos had been utilized in 
sprayed-on fireproofing during the construction of the WTC 
towers.<SUP>5,6</SUP> Additional unknown amounts of asbestos-containing 
material were used in pipe insulation. The extensive use of asbestos at 
the WTC site was well documented prior to September 11, 2001. In 1971, 
while the WTC was still under construction, New York City passed Local 
Law 49, which banned the use of sprayed-on fireproofing that contained 
asbestos, effective February 25, 1972. Application of structural 
fireproofing at the WTC continued with non-asbestos-based 
materials.<SUP>7</SUP> The 1993 bombing of the WTC again raised the 
issue of inadvertent releases of WTC asbestos during disaster events, 
and some WTC asbestos was abated (removed). Thus, the regulatory 
agencies were without doubt cognizant of the potential for the release 
of hundreds of thousands of pounds of asbestos into the ambient air 
during the collapse of the WTC towers on September 11, 2001.
    Further essential, albeit imprecise, information about the 
potential for the release of additional toxic substances should have 
been intuitive to any environmental or occupational health 
professional. For example, computers and computer components contain 
significant amounts of lead.<SUP>8</SUP> It can be conservatively 
estimated that there were greater than 10,000personal computers in the 
WTC complex, each containing 4 or more pounds of lead, as well as 
numerous mainframe computers and servers. Consequently, it is likely 
that at least 40,000 pounds of lead were released into the general 
environment on 9/11, and very possibly a substantially larger amount.
    Similarly, fluorescent light bulbs contain tiny but environmentally 
significant amounts of mercury.<SUP>9</SUP> Estimates of the amount of 
mercury in a single bulb range from 3 milligrams to 21 milligrams. The 
Port Authority acknowledges the presence of 500,000 fluorescent light 
bulbs in the WTC complex.<SUP>10</SUP> It is therefore possible that 
the amount of mercury released from fluorescent light bulbs only (and 
not including additional sources of mercury such as electric switches) 
ranged from 3 to 23 pounds. This is the approximate equivalent of 8% of 
the total daily mercury emissions from all coal-fired utility boilers 
in the United States or 26% of the daily mercury emissions from all 
municipal waste incinerators.<SUP>11</SUP>
    Environmental sampling results obtained by or available to EPA 
subsequent to September 11 indicated the presence of toxic substances 
at levels of concern at Ground Zero as well as at other locations in 
Lower Manhattan, both outdoors and indoors.
    Early environmental sampling data by EPA confirmed that asbestos 
was a constituent of WTC dust, at levels of concern. The EPA website 
posted data for 143 bulk samples of dust collected in Lower Manhattan, 
outside of the 16-acre collapse site. Asbestos was detected in 76% of 
the samples. Twenty-six percent of the samples contained asbestos at 
levels between 1.1% and 4.49%--i.e., at levels between 110% and 449% of 
the level at which legal requirements are triggered. Most of EPA's 
outdoor air samples found relatively low concentrations of asbestos or 
no asbestos above the detection limit of the sampling, but the EPA 
website listed at least 25 12-hour samples, obtained at 10 separate 
locations, that exceeded the EPA clearance standard established under 
the Asbestos Hazard Emergency Response Act, the benchmark that EPA was 
using for 9/11 asbestos measurements.
    Additionally, 12 of 21 personal air samples obtained in September 
2001 by the U.S. Public Health Service from workers sifting WTC debris 
at the Staten Island landfill exceeded the OSHA Permissible Exposure 
Limit for asbestos.<SUP>12</SUP> Sixty percent of asbestos air samples 
collected at Ground Zero by the International Union of Operating 
Engineers' National Hazmat Program exceeded the EPA clearance 
standard.<SUP>13</SUP> Twenty-seven percent of 177 bulk samples 
initially collected by EPA and OSHA at Ground Zero were greater than 1% 
asbestos, the level at which legal requirements are 
triggered.<SUP>14</SUP> Early independent air monitoring in two Lower 
Manhattan apartments found significantly elevated indoor levels of 
asbestos, including results 2 to 5 times the EPA 9/11 asbestos 
clearance level in one apartment and 89 to 151 times the clearance 
level in the other apartment.<SUP>15</SUP>
    EPA test results for outdoor sampling for dioxin showed 
``unambiguous elevation'' when compared to typical urban background 
levels. An EPA report noted:

      the concentrations to which individuals could potentially be 
exposed . . . within and near the WTC site found through the latter 
part of November are likely the highest ambient concentrations that 
have ever been reported. [emphasis added]<SUP>16</SUP>

    These findings indicated that workers and residents who returned to 
areas that were reopened to the public as safe one week after 9/11 were 
potentially exposed to concentrations of dioxin ``nearly 6 times the 
highest dioxin level ever recorded in the U.S.'' The findings also 
indicated that the dioxin concentrations to which rescue and recovery 
workers were potentially exposed were between 100 and 1,500 times 
higher than the levels of dioxin typically found in urban 
air.<SUP>17</SUP>
    In another example, benzene was detected at Ground Zero in 57 of 96 
air samples, at levels from 5 to 86,000 parts per billion (ppb). (The 
OSHA permissible exposure limit (PEL) for benzene exposure averaged 
over 8 hours is 1,000 ppb. The OSHA short term exposure limit (STEL) 
for benzene exposure averaged over a 15-minute period is 5,000 ppb.)

      Even during November, readings exceeded the OSHA levels in half 
the tests conducted. . . . On November 8, an EPA grab sample at the 
North Tower plume detected 180,000 ppb of benzene--180 times above 
[sic] the OSHA limit. Even as late as January 7, benzene readings were 
as high as 5,300 ppb.<SUP>18</SUP>

    The United States Geological Survey (USGS) reported the results of 
its WTC environmental studies to government response teams as early as 
September 18, 2001. USGS found that steel beams from the WTC site were 
coated with fireproofing containing chrysotile asbestos at 
concentrations up to 20%. It reported that in the ``area around the WTC 
. . . potentially asbestiform minerals might be present in 
concentrations of a few percent to tens of percent'' and may occur ``in 
a discontinuous pattern radially in west, north, and easterly 
directions perhaps at distances greater than 3/4 kilometer from ground 
zero.'' USGS also found that WTC dusts ``can be quite alkaline,'' 
reaching a pH of 11.8. The agency warned government response teams that 
``cleanup of dusts and the WTC debris should be done with appropriate 
respiratory protection and dust control measures.''<SUP>19</SUP>
    2. Were the actions of EPA consistent with regulatory requirements 
for risk assessment and protection of human health?--Multiple federal 
statutes have applicability to the protection of public health during 
catastrophic environmental emergencies. The applicability of statutory 
requirements to disaster response efforts and to subsequent cleanup 
operations and the uses of agency discretionary power in the 
application of legal standards are central to assessing governmental 
response to 9/11.
    EPA is clearly required to protect the public health against 
exposure to toxic environmental contaminants associated with 
catastrophic disasters.
    EPA has legal authority and responsibility to respond to a 
hazardous substance release that presents or has the potential to 
present an imminent and substantial danger to public health. EPA is 
required to assume lead authority with regard to issues of 
environmental health by the National Contingency Plan, the National 
Response Plan, and Presidential Decision Directive 62 of 1998.
    The National Emissions Standards for Hazardous Air Pollutants 
(NESHAPS), section 112 of the Clean Air Act, establishes standards for 
air pollutants that may cause fatalities or serious, irreversible, or 
incapacitating illness.<SUP>20,}21</SUP> Hazardous air pollutants 
regulated under the Clean Air Act are also regulated as hazardous 
substances under the Comprehensive Environmental Response, 
Compensation, and Liability Act (CERCLA), known as Superfund. The 
National Contingency Plan (NCP), part of CERCLA, is the federal plan 
for responding to hazardous substance releases. The NCP assigns the 
authority to respond to the release of hazardous substances to EPA. In 
the event of a hazardous release, the NCP requires that the release 
site be assessed to characterize the source and type of the release, 
the pathways of exposure, and the nature and magnitude of the threat to 
public health. In addition, EPA is authorized to ``enter any vessel, 
facility, establishment or other place, property, or location . . . and 
conduct, complete, operate, and maintain any response actions. . . . '' 
Further, ``the NCP applies to and is in effect when the Federal 
Response Plan and some or all of its Emergency Support Functions (ESFs) 
are activated.''<SUP>22</SUP>
    The National Response Plan (NRP) mandates a comprehensive response 
to terrorism incidents. (The Federal Response Plan<SUP>23</SUP> 
preceded the National Response Plan, was in effect on September 11, 
2001, and was substantively similar to the NRP.) The NRP establishes 
protocols to protect the health and safety of the public, responders, 
and recovery workers. National Response Plan Emergency Support Function 
#10, the Oil and Hazardous Materials Response Annex, assigns explicit 
responsibility to EPA as both the primary agency and the emergency 
support function coordinator in response to an actual or potential 
discharge or uncontrolled release of hazardous materials.<SUP>24</SUP>
    Presidential Decision Directive (PDD) 62 names EPA as the lead 
agency for responding to the release of hazardous materials in a 
terrorist attack and gives EPA specific responsibility for indoor 
remediation. <SUP>25,}26</SUP> Shortly after 9/11, then--EPA 
Administrator Christine Whitman confirmed EPA's responsibility under 
PDD 62: ``Under the provisions of PDD 62 . . . EPA is assigned lead 
responsibility for cleaning up buildings and other sites contaminated 
by chemical or biological agents as a result of an act of 
terrorism.''<SUP>27</SUP>
    EPA's response actions were not consistent with its legal 
obligations to protect the health of the public against exposure to 
outdoor and indoor toxic environmental contaminants associated with a 
catastrophic disaster.
    EPA's 9/11 response efforts were predicated on the agency's 
contention that environmental regulations were not applicable to 
natural or technological disasters or to terrorist 
incidents.<SUP>28</SUP> EPA minimized the issue of hazardous waste and 
chose not to consider the WTC site as either a Resource Conservation 
and Recovery Act (RCRA)<SUP>29</SUP> hazardous waste site or a 
Superfund site, even though the collapse and combustion of the WTC 
``must have released chemicals orders of magnitude times the reporting 
thresholds.''<SUP>30,}31</SUP> According to an EPA senior policy 
analyst, this was the first major chemical or hazardous waste release 
in 20 years for which EPA did not conduct a site characterization for 
environmental hazards and risks.<SUP>32</SUP> In addition, the agency 
did not ensure that clearance tests were conducted at the conclusion of 
the waste and debris removal project to confirm that environmental 
contaminants had been effectively removed from the WTC site, and no 
such tests were conducted.<SUP>33</SUP>
    EPA provided limited, and sometimes incorrect and hazardous, 
technical guidance to the impacted public. EPA press releases counseled 
residential and business tenants to clean their indoor spaces using 
``appropriate'' equipment, following ``recommended'' and ``proper'' 
procedures, without defining these terms.<SUP>34</SUP> EPA's technical 
advice sometimes contradicted regulatory requirements and even common 
sense. In one instance EPA advised that ``if dust or debris from the 
World Trade Center site has entered homes or offices, people should be 
sure to clean thoroughly and avoid inhaling dust while doing 
so.''<SUP>35</SUP> The same press release referred readers to the 
website of the New York City Department of Health for further technical 
guidance. That website advised ``residents and workers returning to 
homes and offices in Lower Manhattan'' to clean up WTC dust (i.e., 
asbestos and other toxic substances, in many cases) with wet rags and 
HEPA vacuum cleaners, in violation of federal and city regulations. It 
further advised that respiratory protection was not necessary so long 
as these ``guidelines'' were followed.<SUP>36</SUP> The report of the 
EPA Inspector General ultimately concluded that advice such as this 
``may have increased the long-term health risks for those [tenants] who 
cleaned WTC dust.''<SUP>37</SUP>
    EPA's public statements mischaracterized or ignored sampling 
results. Its September 18 announcement that the ``air is safe to 
breathe''<SUP>38</SUP> was not supported by the available 
data.<SUP>39</SUP> EPA risk communication statements were altered to 
conform to political directives from the White House. ``Guidance for 
cleaning indoor spaces and information about the potential health 
effects from WTC debris were not included in EPA's issued press 
releases. . . . Reassuring information was added . . . and cautionary 
information was deleted'' after intervention by the White House Council 
on Environmental Quality.<SUP>40</SUP> Other government agencies also 
issued inaccurate risk communication statements. EPA's unsupported 
assurances of lack of risk had the unfortunate effect of giving a green 
light to employers and workers not to use respiratory protection and to 
landlords, employers, and government agencies that remediation of 
contaminants was not necessary.
    For eight months after 9/11, EPA contended that it had no legal 
responsibility for assessing or addressing indoor environmental 
contamination.<SUP>41,}42</SUP> Indoor environmental testing and 
remediation in common spaces were left to building owners; testing and 
remediation of private spaces were left to commercial and residential 
tenants.<SUP>43,}44</SUP> Because government financial assistance, 
reoccupancy guidelines, oversight, and enforcement were not provided, 
private environmental sampling and remediation efforts occurred only on 
an occasional, haphazard, limited, and often ineffectual basis. The 
single government-sponsored indoor cleanup effort that ultimately took 
place, EPA's 2002--2003 ``test or clean'' program, was modest, non-
mandatory, limited to residences, and of questionable effectiveness and 
scientific and technical merit. Only 18% of eligible downtown 
apartments were cleaned or tested.<SUP>45</SUP> Approximately 1,500 
Lower Manhattan buildings were excluded, including all schools, 
hospitals, firehouses, workplaces, businesses, and commercial and 
government buildings--even City Hall. Most of Chinatown and other 
impacted communities were also excluded. The failure of EPA to require 
or even encourage indoor environmental assessments, and cleanup where 
warranted, in commercial and government buildings, coupled with the 
agency's limited and inadequate sampling and cleanup in residential 
spaces, is likely to have subjected area workers and residents to 
unnecessary and avoidable exposures.
    3. Will EPA's December 2006 Lower Manhattan Indoor Dust Test and 
Clean Program provide effective assessment and remediation of indoor 
environmental contaminants?--The current EPA test and clean program 
disregards virtually all of the recommendations and concerns expressed 
by members of the EPA WTC Expert Technical Review Panel in its 21 
months of deliberations. The current program fundamentally replicates 
the ineffective 2002-2003 Residential Dust Cleanup Program. This 
program, like its predecessor, is technically and scientifically flawed 
and is unlikely to provide any significant public health or scientific 
benefit. It is unlikely to adequately identify or clean up 9/11 
contaminants if and where they exist. It is probable that it will 
under-report any residual 9/11 contamination. The potential 
consequences of these shortcomings are worrisome. Scientists may 
receive skewed data on the extent of geographic dispersion of 9/11 
contaminants. Residents may receive inaccurate assessments of the 
presence or absence of 9/11 contaminants in their living spaces and may 
receive inadequately supported assurances of safety. Workers and 
employers will continue to lack effective access to environmental 
testing or cleanup.
    Among the many significant deficiencies of the current plan are the 
following:
    <bullet> Insufficient financial resources are allocated for testing 
or cleaning, if warranted, of potentially affected residences and 
workplaces. According to EPA and FEMA, funds allocated for EPA's 2002-
2003 program were in excess of $25 million, while funds allocated for 
the current program are capped at approximately $7 million. The 
geographic boundaries and eligibility criteria for the plans are 
virtually identical. That is, the current program is funded at a level 
approximately 28% of the prior program, yet is charged with providing 
sampling and cleanup in 100% of the geographic area served by the prior 
program.
    <bullet> The geographic boundaries of the program are arbitrarily 
determined. EPA has cited images and mapping results from aerial 
photographs taken on September 13, 2001 as the basis for the geographic 
boundaries of the current program. However, EPA misinterprets or 
misuses that data, which actually indicate the ``probable'' and 
``possible'' deposition of WTC dust and debris over a larger geographic 
area than that included in the current sampling program.<SUP>46</SUP> 
These data themselves are of limited scientific utility as they rely 
entirely on detection of visible dust. The Environmental Photographic 
Interpretation Center (EPIC) report acknowledges that its analysis is 
limited to ``ground dust/debris deposition as an aggregate (paper, 
pulverized concrete and wall board, larger building materials, 
etc.).''<SUP>47</SUP> Smaller particles that are invisible to the naked 
eye or to the camera lens, such as PM<INF>10</INF>, PM<INF>2.5</INF>, 
and asbestos fibers, are likely to have been dispersed over a wider 
geographic area and are of considerable health concern. These are not 
addressed by these data. The EPIC report notes that ``it is possible 
that dust/debris may extend beyond the boundaries as delineated in this 
report.''<SUP>48</SUP> Members of the EPA WTC Panel strongly 
recommended that the program's geographic boundaries be expanded 
further north in Manhattan, including all of Chinatown, and east into 
parts of Brooklyn. EPA agreed to do so in May 2005 but has reneged on 
that commitment in its current program.<SUP>49</SUP>
    <bullet> There is no scientific or legal justification for the 
exclusion of workplaces and places of business from the current 
program. EPA has not offered any evidence demonstrating that workplaces 
were impacted differently or less severely than residences. I believe 
no such data exist and no such assertion could be plausibly made. Nor 
has EPA presented any data that indicate that a significant number (or 
any number) of workplaces benefitted from employer-conducted and -
financed cleanup efforts, or that these efforts were effective. Because 
the EPA program leaves employers to bear the financial and technical 
burden of testing and cleanup, it is likely that workplaces which have 
not yet been privately tested or cleaned will never be tested or 
cleaned.
    Neither OSHA nor NIOSH can effectively address the issue of 9/11 
contaminants in workplaces. Comments at the July 12, 2005 meeting of 
the EPA WTC Expert Technical Review Panel by representatives from OSHA 
and NIOSH made clear that while these agencies will continue to be 
responsive to queries from workers, unions, and employers, neither 
agency engages in or funds remediation of workplace contaminants. OSHA, 
if it finds violations of OSHA standards, may require employers to 
engage in cleanup, or in other protective measures short of cleanup, at 
employer expense. NIOSH may recommend but cannot require remediation, 
nor can it fund remediation. It is possible that indoor environmental 
conditions in downtown workplaces may not violate OSHA Permissible 
Exposure Limits (PELs), or that there may be no applicable OSHA 
standards (as is the case for PAHs), while at the same time they may 
exceed EPA benchmarks for settled 9/11 dust. In such situations, OSHA 
could not require remediation. Thus, contamination at levels that would 
compel remediation in residences will be allowed to remain in 
workplaces.
    <bullet> Because it de-emphasizes testing in indoor areas that are 
most likely to harbor residual contaminants and emphasizes testing in 
areas that are most likely to have been routinely and repeatedly 
cleaned, the EPA program has a built-in selection bias toward sampling 
cleaner areas. It is designed to avoid finding residual contaminants.
    The nature and extent of residual indoor WTC-derived contamination, 
if any, is unknown at this point in time. Residual indoor 
contamination, if present, will most likely be found in spaces that 
have been subjected to the least disturbance. Typically, these spaces 
include: infrequently cleaned areas such as those behind refrigerators, 
above suspended ceilings, and in cable chases; porous materials such as 
carpets and drapes that act as reservoirs or ``sinks'' for settled 
particulates; and ``dead spots'' where deposition occurs in mechanical 
ventilation systems, such as in areas of low velocity and at bends in 
high velocity areas in ducts.<SUP>50</SUP>
    The current EPA program does include testing on porous materials 
like carpets and in infrequently cleaned spaces behind furniture and 
equipment such as refrigerators. However, it excludes without 
justification testing in what it mistakenly labels ``inaccessible 
spaces,'' i.e, mechanical ventilation systems, ceiling plenums, cable 
chases, etc. This is problematic for two reasons.
    First, so-called inaccessible spaces are accessed by maintenance 
and utility workers on a regular basis. These workers engage in 
activities that may disturb settled dust and resuspend it in the air, 
where it becomes available for inhalation both by the workers and by 
tenants. Although a particular ``inaccessible space'' may not be 
accessed regularly, workers routinely access these kinds of spaces 
repeatedly over the course of every work day.
    Second, the ability of a mechanical ventilation system to capture 
contaminants in the dead spots of the duct work is well known. These 
settled particulates will lie dormant and cannot be identified or 
measured by sampling that is conducted outside the mechanical 
ventilation system. However, if the settled particulates are disturbed 
at a later date by maintenance activities or other causes, the 
mechanical ventilation system can provide a very efficient mechanism 
for the distribution of contaminants throughout occupied indoor spaces.
    <bullet> The EPA program diverges significantly from established 
regulatory and best work practices in industrial hygiene and 
environmental remediation. For example, the plan establishes different 
benchmarks, or triggers, for cleanup of asbestos in different parts of 
residences. It permits higher levels of asbestos contamination to 
remain in ``infrequently accessed areas'' such as ``out of reach 
shelving''<SUP>51</SUP> or ``on top, beneath, or behind large objects 
of furniture such as bookcases.''<SUP>52</SUP> By contrast, 
city<SUP>53</SUP> and state<SUP>54</SUP> asbestos regulations 
explicitly and appropriately require that all areas of a contaminated 
space be cleaned to a single protective standard.
    4. Did exposure to WTC-derived contaminants result in harm to human 
health, and was this exposure and harm avoidable?--Within days of the 
attacks, EPA declared Lower Manhattan's air ``safe to 
breathe.''<SUP>55</SUP> EPA maintained until recently that ``short-term 
health effects dissipated for most once the fires were put out [and] 
there is little concern about any long-term health 
effects.''<SUP>56</SUP> Unfortunately, there is considerable evidence 
to the contrary. It is now well-established that a large and increasing 
number of people who were exposed to 9/11 contaminants, primarily 
rescue and recovery workers but also area workers and residents, are 
suffering serious and persistent adverse health outcomes.
    The incidence and persistence of 9/11-induced respiratory illness 
among response workers and area workers is extensively documented in 
the scientific literature, including among rescue, recovery, and 
service workers,<SUP>57,}58</SUP> 
firefighters,<SUP>59,}60,}61,}62</SUP> transit workers,<SUP>63</SUP> 
and immigrant day laborer cleanup workers at buildings outside Ground 
Zero.<SUP>64</SUP> Although there is no question that, in general, 
those working on the pile experienced more severe exposures and health 
impacts than did community residents, students, and workers, it is of 
note that adverse health impacts have also been documented among these 
latter groups.<SUP>65,}66,}67,}68,}69</SUP>
    Because Ground Zero workers and other exposed populations may have 
been exposed at varying levels to a robust array of carcinogens, 
including asbestos, dioxins, silica, benzene, PAHs, and PCBs, there is 
concern for the potential development of late-emerging 
cancers.<SUP>70</SUP> It is as yet unknown whether or when 9/11-derived 
exposures will produce late-emerging diseases, but it is prudent and 
scientifically appropriate to anticipate the possibility. While the 
latency period for solid tumors is 10 to 50 years, the latency period 
for hematologic and lymphatic malignancies can be as short as 4 to 5 
years.<SUP>71</SUP> Although neither the World Trade Center Medical 
Monitoring Program nor the scientific literature has yet reported the 
occurrence of 9/11-related cancers, the Monitoring Program has begun 
the process of verification of self-reported cases among responder and 
recovery worker patients.<SUP>72</SUP>
    We know now that there is an association between the chronology of 
firefighters' 9/11-related exposures and the severity of their adverse 
health effects; i.e., those caught in the dust cloud and/or those 
responding at the WTC site in the first hours or days tend to have 
higher incidences and greater severity of health impacts. Presumably, 
the intensity and duration of exposure and the lack of access to 
appropriate respiratory protection were significant factors in this 
association. These early exposures were unavoidable. However, EPA's 
early and inappropriately reassuring pronouncements that ``the air is 
safe to breathe'' were counterproductive to efforts at implementation 
of respiratory protection programs by employers and respirator use by 
rescue, recovery, and cleanup workers. EPA's actions thus contributed 
to the unnecessary and avoidable exposures to toxic WTC-derived 
contaminants incurred by thousands of workers and volunteers. 
Similarly, EPA's risk communications served as disincentives to 
landlords, employers, and government agencies regarding the suitability 
of conducting indoor environmental testing and remediation of 
contaminants, as appropriate. The failure of EPA to provide, require, 
or even encourage indoor environmental assessments, and cleanup where 
warranted, in commercial and government buildings, coupled with the 
agency's limited and inadequate sampling and cleanup in residential 
spaces, is likely to have subjected area workers and residents to 
additional unnecessary and avoidable exposures.
    5. What lessons have been, or remain to be, learned from the 9/11 
response and recovery efforts?--Less than four years after the 
disastrous events of September 11, 2001, Hurricane Katrina struck the 
Gulf Coast. Rescue, recovery, and cleanup efforts there sadly were 
hampered by a failure to learn from the WTC experience. In October 
2005, a group of more than 100 of the Nation's foremost labor, 
religious, environmental, community, public health and public interest 
organizations and more than 100 academic, medical, religious and public 
health leaders, including some of the nation's top experts in the 
fields of occupational and environmental medicine and industrial 
hygiene, called on Congress to give the highest priority to the 
protection of the health of cleanup workers and of the public at large 
during cleanup efforts.<SUP>73</SUP> Coupled with the recommendations 
of the report of the EPA Office of the Inspector General,<SUP>74</SUP> 
the following principles for disaster response, adapted in part from 
the call, provide a sound basis for lessons that, unfortunately, have 
yet to be learned:
    <bullet> Presume contamination until proven otherwise.
    Given the wide range and toxic nature of contaminants to which 
workers, volunteers, and residents may be exposed, it is imperative 
that work areas be presumed to be contaminated and that appropriate 
precautionary measures be implemented until the work environment is 
demonstrated to be safe.
    <bullet> Implement the National Response Plan provisions for worker 
and community environmental testing and monitoring.
    The worker and community environmental testing and monitoring 
provisions of the National Response Plan must be followed closely. They 
provide for hazard identification, environmental sampling, personal 
exposure monitoring, collecting and managing exposure data, development 
of site-specific safety plans, immunization and prophylaxis, and 
medical surveillance, medical monitoring and psychological support.
    <bullet> Enforce all OSHA and EPA regulations.
    Environmental and occupational health standards must be strictly 
enforced. We are distressed that OSHA has defined its role in Katrina 
response, as in 9/11, as advisory rather than enforcement.
    <bullet> Assess the hazards.
    EPA should conduct comprehensive environmental sampling to 
characterize the nature and extent of environmental hazards. NIOSH and 
OSHA must conduct a comprehensive assessment of the hazards posed to 
recovery workers. Hazard assessment should include evaluation of 
environmental hazards contaminants originating in external sources, in-
place building materials, biological agents, and other potential 
sources. Environmental monitoring should be ongoing. Sampling results 
should be accessible to the public in a timely manner. Toxic materials 
should be catalogued, evaluated and tested, and any known or potential 
releases contained. Failure to act will threaten returning residents 
and workers and will increase long-term cleanup costs as toxic 
substances spread to larger areas.
    <bullet> Train and protect cleanup workers.
    All cleanup workers (public and private sector, paid and unpaid) 
should receive the appropriate OSHA-required training and equipment for 
protection against the hazards to which they may be exposed. OSHA 
should specify the minimum training that must be provided to workers 
engaged in clean-up and recovery. Training may include that which is 
required under OSHA's Hazard Communication, Respiratory Protection, 
Personal Protective Equipment, and Hazardous Waste Operations and 
Emergency Response standards. Protective equipment may include 
respirators and protective clothing and equipment.
    <bullet> Provide medical surveillance.
    Provision must be made for early detection and treatment of 
occupational, environmental, and psychological illnesses. To ignore the 
medical needs of potentially exposed workers and residents is asking 
them to be guinea pigs in a long-term experiment the consequences of 
which remain unknown. All public and private sector rescue, response, 
and cleanup workers, including volunteers, should be entered into a 
centralized database to facilitate medical surveillance.
    <bullet> Protect vulnerable workers.
    Special consideration must be given to protection of immigrant and 
temporary workers. In 9/11 response efforts, immigrant and temporary 
workers were the workers least likely to be provided with proper 
training and respiratory protection, and were the workers least likely 
to have medical insurance. As a result, they incurred high rates of 
illness without having access to medical treatment.
    <bullet> Adopt uniform reoccupancy standards.
    EPA must ensure that a protective health and safety standard for 
reoccupancy applies uniformly to all communities and also is sensitive 
to the needs of vulnerable populations. EPA has indicated that it will 
permit local authorities to determine reoccupancy criteria, but it is 
critical to ensure that all reoccupancy occurs according to standards 
that are adequately protective of public health.
    Thank you for your concern on these matters.

                               REFERENCES

    1. P. Landrigan, P. Lioy, et al. Health and Environmental 
Consequences of the World Trade Center Disaster. Environmental Health 
Perspectives. Vol. 112, No. 6, May 2004. http://www.ehponline.org/
members/2004/6702/6702.pdf (accessed May 31, 2007).
    2. J. McGee, L. Chen, et al. Chemical Analysis of World Trade 
Center Fine Particulate Matter for Use in Toxicologic Assessment. 
Environmental Health Perspectives. Vol. 111, No. 7, June 2003. http://
www.ehponline.org/members/2003/5930/5930.pdf (accessed May 31, 2007).
    3. Centers for Disease Control and Prevention. Occupational 
Exposures to Air Contaminants at the World Trade Center Disaster Site--
New York, September-October 2001. Mortality and Morbidity Weekly. May 
31, 2002. http://www.cdc.gov/mmwr/ preview/mmwrhtml/mm5121a1.htm 
(accessed May 14, 2007).
    4. Code of Federal Regulations, Title 40, Parts 350, 355, 370, and 
372, Sections 311-312. http://www.access.gpo.gov/nara/cfr/waisdx--06/
40cfrv27--06.html (accessed May 14, 2007).
    5. M. Nordgren, E. Golstein, M. Izeman. The Environmental Impacts 
of the World Trade Center Attacks--A Preliminary Assessment. Natural 
Resources Defense Council, February 2002. http://www.nrdc.org/air/
pollution/wtc/wtc.pdf (accessed June 8, 2007).
    6. M. Gerrard. World Trade Center: Response, Recovery and 
Reconstruction. New York Law Journal. October 4, 2001. http://
www.arnoldporter.com/publications--articles. cfm?publication--ID=317 
(accessed June 9, 2007).
    7. A. Langer, R. Morse. The World Trade Center Catastrophe: Was the 
Type of Spray Fireproofing a Factor in the Collapse of the Twin Towers? 
Indoor and Built Environment. Vol. 10. No. 6, 2001.
    8. L. Yadong, J. Richardson, et al. TCLP Heavy Metal Leaching of 
Personal Computer Components. Journal of Environmental Engineering. 
Vol. 132, No. 4, April 2006.
    9. M. Aucott, M. McLinden, M. Winka. Release of Mercury from Broken 
Fluorescent Bulbs. Environmental Assessment and Risk Analysis Element--
Research Project Summary. New Jersey Department of Environmental 
Protection, February 2004. http://www.state.nj.us/dep/dsr/research/
mercury-bulbs.pdf (accessed May 31, 2007).
    10. J. Gonzalez. Fallout--The Environmental Consequences of the 
World Trade Center Collapse. The New Press, New York, 2002.
    11. U.S. Environmental Protection Agency. Mercury Study, Report to 
Congress--Volume II: An Inventory of Anthropogenic Mercury Emissions in 
the United States. EPA 452/R-97-004, December 1997. http://www.epa.gov/
ttn/oarpg/t3/reports/volume2.pdf (accessed May 31, 2007).
    12. Emilcott Associates, Inc. Preliminary Report on the H&S 
Evaluation of the Fresh Kills Landfill Project Supporting the WTC 
Disaster Recover (sic), Prepared for New York City Detectives Endowment 
Association. September 28, 2001.
    13. J. Nash. Cleaning Up After 9/11: Respirators, Power, and 
Politics. Occupational Hazards. May 2002. http://www.nycosh.org/about--
NYCOSH/NYCOSHNews/2002-April-News.html (accessed May 31, 2007).
    14. B. Lippy. Operating Engineers National Hazmat Program-World 
Trade Center Disaster Air Monitoring Overview. Presentation to Dr. 
Kenneth Olden, Director, National Institute of Environmental Health 
Sciences, October 4, 2001. http://www.wetp.org/wetp/wtc/
wetp%20wtc%20report.pdf (accessed June 8, 2007).
    15. E. Chatfield, J. Kominsky. Characterization of Particulate 
Found in Apartments After Destruction of the World Trade Center. 
October 12, 2001. http://www.epa.gov/wtc/panel/
GroundZeroTaskForceReport108.pdf (accessed May 31, 2007).
    16. U.S. Environmental Protection Agency, National Center for 
Environmental Assessment. Exposure and Human Health Evaluation of 
Airborne Pollution from the World Trade Center Disaster. EPA/600/P-2/
002A, October 2002. http://oaspub.epa.gov/eims/eimscomm.getfile?p--
download--id=36387 (accessed May 31, 2007).
    17. J. Gonzalez. EPA Report Buries a Revelation. New York Daily 
News. December 31, 2002. http://www.nycosh.org/about--NYCOSH/
NYCOSHNews/2002--September-News.html (accessed May 31, 2007).
    18. J. Gonzalez. Fallout, op cit.
    19. R. Clark, R. Green, et al. Environmental Studies of the World 
Trade Center Area After the September 11, 2001 Attack. U.S. Geological 
Survey, Report 01-0429. http://pubs.usgs.gov/of/2001/ofr-01-0429 
(accessed June 8, 2007).
    20. 40 CFR Part 61, National Emission Standards for Hazardous Air 
Pollutants. http://www.access.gpo.gov/nara/cfr/waisidx-06/40cfr61-
06.html (accessed May 31, 2007).
    21. 40 CFR Part 63, National Emission Standards for Hazardous Air 
Pollutants for Source Categories. http://www.access.gpo.gov/nara/cfr/
waisidx--06/40cfr63--06.html. (accessed May 31, 2007).
    22. 40 CFR Parts 300.3, 300.400, 300.410 and 300.420. http://
www.epa.gov/oilspill/pdfs/40cfr300.pdf. (accessed May 31, 2007).
    23. Federal Response Plan--Basic Plan. http://www.au.af.mil/au/awc/
awcgate/frp/frpbasic.pdf (accessed May 31, 2007).
    24. U.S. Department of Homeland Security. National Response Plan. 
December 2004. http://www.dhs.gov/xlibrary/assets/NRP-FullText.pdf 
(accessed May 31, 2007).
    25. Presidential Decision Directive 62, Protection Against 
Unconventional Threats to the Homeland and Americans Overseas. 
Unclassified abstract, May 22, 1998 http://www.ojp.usdoj.gov/odp/docs/
pdd62.htm (accessed May 31, 2007).
    26. J. Nadler. White Paper-Lower Manhattan Air Quality. Office of 
U.S. Congressman Jerrold Nadler, April 12, 2002. http:www.house.gov/
nadler/wtc/docs/EPAWhitePaper.pdf (accessed May 31, 2007).
    27. C. Whitman. Testimony before the U.S. Senate Appropriations 
Committee, Subcommittee on VA, HUD, and Independent Agencies. November 
28, 2001.
    28. W. Mugdan. Environmental Law Issues Raised by Terrorist Events 
in 2001. Presentation to Environmental Law Section, New York State Bar 
Association, January 25, 2002. http://www.nyenvirolaw.org/PDF/EPA-1-25-
02-Mugdan-Environmental LawIssues RaisedByTerroristEventsIn%202K1.pdf 
(accessed May 31, 2007).
    29. Resource Conservation and Recovery Act, U.S. Code, Title 42, 
Chapter 82. http://www.access.gpo.gov/uscode/title42/chapter82--.html 
(accessed May 31, 2007).
    30. Toxicology Excellence for Risk Assessment (TERA). World Trade 
Center (WTC), October 21-22, 2002 Peer Review Meeting Notes, prepared 
for U.S. Environmental Protection Agency. February 7, 2003. http://
www.tera.org/peer/WTC/WTC%20Peer%20 Review%20Meeting%20Notes.pdf 
(accessed May 31, 2007).
    31. M. Gerrard, op. cit.
    32. H. Kaufman, EPA, personal communication, February 23, 2002.
    33. R. Forst. Lower Manhattan Construction Command Center, personal 
communication, July 20, 2006.
    34. U.S. Environmental Protection Agency, Office of Inspector 
General, op. cit.
    35. U.S. Environmental Protection Agency. EPA and OSHA Web Sites 
Provide Environmental Monitoring Data from World Trade Center and 
Surrounding Areas. EPA Press Release, October 3, 2001. http://
yosemite.epa.gov/opa/admpress.nsf/a16b318fd6d8e076852572a000650bff/a58e 
3e62ff609f5185256ada00729977!OpenDocument. (accessed June 9, 2007).
    36. New York City Department of Health. Response to the World Trade 
Center Disaster--Recommendations for People Re-Occupying Commercial 
Buildings and Residents Re-Entering Their Homes. September 17, 2001.
    37. U.S. Environmental Protection Agency, Office of Inspector 
General, op. cit.
    38. U.S. Environmental Protection Agency. Whitman Details Ongoing 
Agency Efforts to Monitor Disaster Sites, Contribute to Cleanup 
Efforts. EPA Press Release, September 18, 2001. http://
yosemite.epa.gov/opa/admpress.nsf/bf92f4e7d755207d85 25701c005e38d7/
75aef680e69adf6585256acc007c2fc8!OpenDocument (accessed May 31, 2007).
    39. U.S. Environmental Protection Agency, Office of Inspector 
General, op. cit.
    40. Ibid.
    41. U.S. Environmental Protection Agency, Office of Inspector 
General, EPA's Response to the World Trade Center Collapse: Challenges, 
Successes, and Areas for Improvement, Washington, D.C. EPA 2003-P-
00012, August 21, 2003. http:/www.epa.gov/oig/reports/2003/WTC-report-
20030821.pdf (accessed May 31, 2007).
    42. W. Mugdan, op. cit.
    43. P. Lioy, M. Gochfeld. Lessons Learned on Environmental, 
Occupational, and Residential Exposures From the Attack on the World 
Trade Center. American Journal of Industrial Medicine. Vol. 42, No. 6, 
December 2002.
    44. J. Miele, Commissioner, N.Y.C. Department of Environmental 
Protection. Testimony before United States Senate Subcommittee on Clean 
Air, Wetlands, and Climate Change, February 11, 2002.
    45. U.S. Environmental Protection Agency, Region 2, New York City 
Response and Recovery Operations. World Trade Center Residential Dust 
Cleanup Program, Draft Final Report. March 2004. http://www.epa.gov/
wtc/draft--final--report.pdf (accessed May 31, 2007).
    46. U.S. Environmental Protection Agency, Environmental 
Photographic Interpretation Center. Final Report on: Mapping the 
Spatial Extent of Ground Dust and Debris from the Collapse of the World 
Trade Center Buildings. EPA/600/R-03/018, December 2005, http://
www.epa.gov/wtc/panel/pdfs/WTC5-WTC-Report-TextOnly-December-2005.pdf 
(accessed June 14, 2007).
    47. Ibid.
    48. Ibid.
    49. U.S. Environmental Protection Agency. Draft Final Sampling 
Program to Determine Extent of World Trade Center Impacts to the Indoor 
Environment. May 2005, http://www.epa.gov/wtc/panel/pdfs/
May2005samplingplan.pdf (accessed June 14, 2007).
    50. L. Sparks, National Homeland Security Research Center, Office 
of Research and Development, U.S. Environmental Protection Agency. 
Particles and HVAC Systems. Presentation at meeting of EPA WTC Expert 
Technical Review Panel, June 22, 2004. http://www.epa.gov/wtc/panel/
pdfs/sparks-20040622.pdf (accessed June 14, 2007).
    51. U.S. Environmental Protection Agency. Lower Manhattan Indoor 
Dust test and Clean Program. December 2006. http://www.epa.gov/wtc/
panel/pdfs/lower-manhatten-indoor-test-and-clean-program-plan-
december2006.pdf (accessed June 14, 2007).
    52. U.S. Environmental Protection Agency. Draft QAPP--Attachment 4: 
Indoor Dust Sampling Protocols. December 2006. http://www.epa.gov/wtc/
panel/pdfs/qapp/05-att-4a-indoor-dust-sampling-protocols.pdf (accessed 
June 14, 2007).
    53. City of New York. Asbestos Control Program. http://www.nyc.gov/
html/dep/pdf/asbestos.pdf (accessed June 15, 2007).
    54. New York State. Asbestos--Part 56, Title 12, Official 
Compilation of Codes, Rules and Regulations of the State of New York 
(12 NYCRR Part 56). http://www.labor.state.ny.us/formsdocs/wp/CR56.pdf 
(accessed June 14, 2007).
    55. U.S. Environmental Protection Agency. Whitman Details Ongoing 
Agency Efforts to Monitor Disaster Sites, Contribute to Cleanup 
Efforts. EPA Press Release, September 18, 2001. http:/yosemite.epa.gov/
opa/admpress.nsf/bf92f4e7d755207d8525 701c005e38d7/
75aef680e69adf6585256acc007c2fc8!OpenDocument (accessed May 31, 2007).
    56. U.S. Environmental Protection Agency. Health Effects of the 
World Trade Center Collapse. March  25,  2005. http://www.epa.gov/wtc/
factsheets/wtchealth.html#longterm--health--effects (accessed May 31, 
2007).
    57. R. Herbert, J. Moline, et al. The World Trade Center Disaster 
and the Health of Workers: Five-Year Assessment of a Unique Medical 
Screening Program. Environmental Health Perspectives. Volume 114, 
Number 12, December 2006. http://www.ehponline.org/members/2006/9592/
9592.pdf (accessed May 31, 2007).
    58. J. Herbstman, R. Frank, et al. Respiratory Effects of 
Inhalation Exposure among Workers during the Clean-Up Effort at the 
World Trade Center Disaster Site. Environmental Research. Volume 99, 
Issue 1, September 2005.
    59. G. Banauch, C. Hall, et al. Pulmonary Function after Exposure 
to the World Trade Center Collapse in the New York City Fire 
Department. American Journal of Respiratory and Critical Care Medicine. 
Vol. 174, 2006.
    60. G. Banauch, A. Dhala, et al. Bronchial Hyperreactivity and 
other Inhalation Lung Injuries in Rescue/Recovery Workers after the 
World Trade Center Collapse. Critical Care Medicine. Volume 33(1) 
Supplement, January 2005.
    61. D. Prezant, M. Weiden, et al. Cough and Bronchial 
Responsiveness in Firefighters at the World Trade Center Site. New 
England Journal of Medicine. Vol. 347, September 12, 2002.
    62. G. Izbicki, R. Chavko, et al. World Trade Center ``Sarcoid-
Like'' Granulomatous Pulmonary Disease in New York City Fire Department 
Rescue Workers. Chest. Vol. 131, No. 5, May 1, 2007. http://
www.chestjournal.org/cgi/content/full/131/5/1414 (accessed May 31, 
2007).
    63. L. Tapp, S. Baron, et al. Physical and Mental Health Symptoms 
Among NYC Transit Workers Seven and One-Half Months after the WTC 
Attacks. American Journal of Industrial Medicine. Vol. 47, Issue 6, 
June 2005.
    64. E. Malievskaya, N. Rosenberg, et al., op. cit.
    65. J. Reibman, S. Lin, et al. The World Trade Center Residents' 
Respiratory Health Study: New Onset Respiratory Symptoms and Pulmonary 
Function. Environmental Health Perspectives. Vol. 113, No. 4, April 
2005. http://www.ehponline.org/members/2004/7375/7375.pdf (accessed May 
31, 2007).
    66. S. Lin, J. Reibman, et al. Upper Respiratory Symptoms and Other 
Health Effects among Residents Living Near the World Trade Center Site 
after September 11, 2001. American Journal of Epidemiology. Vol. 162, 
No. 6, 2005. http://aje.oxfordjournals.org/cgi/content/full/162/6/499 
(accessed May 31, 2007).
    67. A. Szema, M. Khedkar, et al. Clinical Deterioration in 
Pediatric Asthmatic Patients after September 11, 2001. Journal of 
Allergy and Clinical Immunology. Volume 113, Issue 3, March 2004.
    68. S. Lederman, V. Rauh, et al. The Effects of the World Trade 
Center Event on Birth Outcomes among Term Deliveries at Three Lower 
Manhattan Hospitals. Environmental Health Perspectives. Volume 112, 
Number 17, December 2004. http://www.ehponline.org/members/2004/7348/
7348.pdf (accessed May 31, 2007).
    69. Centers for Disease Control and Prevention. Self-Reported 
Increase in Asthma Severity after the September 11 Attacks on the World 
Trade Center--Manhattan, New York, 2001. Mortality and Morbidity Weekly 
Report. September 6, 2002. http:// www.cdc.gov/mmwr/preview/mmwrhtml/
mm5135a1.htm (accessed May 31, 2007).
    70. J. Samet, et al. The Legacy of World Trade Center Dust. New 
England Journal of Medicine. Vol. 356, No. 2, May 31, 2007.
    71. H. Frumkin. Chapter 14--Carcinogens in B. Levy and D. Wegman, 
eds. Occupational Health--Recognizing and Preventing Work-Related 
Disease, Third Edition. Little, Brown, and Company, Boston, 1995.
    72. R. Herbert. New England Journal of Medicine. Audio interview. 
May 31, 2007. http://content.nejm.org/cgi/content/full/356/22/2233/DC1 
(accessed May 31, 2007).
    73. National Council for Occupational Safety and Health. A Call for 
Immediate Action to Protect Gulf Coast Cleanup Workers from Serious 
Health hazards. October 6, 2005. http://www.nycosh.org/environment--
wtc/GulfCoast/NewOrleans10-6-05letter.htm (accessed May 31, 2007).
    74. U.S. Environmental Protection Agency, Office of Inspector 
General, op. cit.

    Senator Clinton. Thank you very much, Mr. Newman.
    I want to give you a chance to respond to the assertions 
made by the members of the first panel. Because clearly, your 
experience, your expertise and your testimony today directly 
contradict many of the claims that were made by the panelists, 
and I would like to ask you to respond to what you heard this 
morning.
    Mr. Newman. Thank you. Let me start with two areas.
    First, with regard to the comments of Mr. Connaughton, I am 
quoting here from, selectively, of course, from a September 13, 
2001 e-mail, it is an OSHA e-mail, and it says, ``A conference 
call was held this morning with EPA regional and national, as 
well as representatives from the White House. They were 
concerned about the public understanding of the sample results 
that are forthcoming and our ability to reassure them with 
respect to air quality. The secondary purpose of the call was 
to discuss the financial market and who we can work toward 
allowing them into their buildings.''
    From a memo of September 28, 2001: ``EPA stated that by 
orders of the White House, the EPA web page is not being 
updated with current sample results.'' So there are clear 
indications that the White House participated in discussions 
and decisions as to how to massage the data that was available 
to them at that time.
    With regard to the ability and responsibility of the EPA to 
address the issue of indoor contamination, the National 
Contingency Plan is very clear. It assigns the authority to 
respond to the release of hazardous substances to EPA. It very 
specifically authorizes EPA to enter any vessel, facility, 
establishment or other place, property or location and conduct, 
complete, operate and maintain any response actions. Further, 
the NCP applies to and is in effect when the Federal Response 
Plan in some or all of its emergency support functions are 
activated. That is, the activation of the Federal or now the 
National Response Plan and its emergency support functions does 
not override or cancel EPA's responsibility for indoor 
contamination. This position was confirmed shortly after 9/11 
by testimony given before Congress by then-EPA Administrator 
Christine Whitman, who stated, under the provisions of 
Presidential Decision Directive 62, EPA is assigned lead 
responsibility for cleaning up buildings and other sites 
contaminated by chemical or biological agents as a result of an 
act of terrorism.
    Senator Clinton. I will put into the record the 1998 
Presidential Decision Directive, PDD 62, which did task EPA 
with the leadership role in cleaning up buildings and other 
sites contaminated by chemical or biological agents as a result 
of an act of terrorism.
    [The referenced material follows:]

    [GRAPHIC] [TIFF OMITTED] T1970.086
    
    [GRAPHIC] [TIFF OMITTED] T1970.087
    
    Senator Clinton. Mr. Newman, GAO's testimony and their 
written reports suggest that EPA remains poorly prepared to 
address indoor contamination issues. Do you share this view and 
what is your view of EPA's state of preparedness?
    Mr. Newman. Well, I have to begin my remarks by clarifying 
that I do not work for EPA and I am not privy to internal 
discussions or documents that may exist within EPA. But if we 
use as a yardstick for lessons learned a comparison of EPA's 
sampling plans in 2002 and EPA's sampling plans in 2007, I see 
little, if any, significant change that indicates any lessons 
learned whatsoever.
    Senator Clinton. Mr. Newman, would you describe for the 
Committee and the record your work on the Expert Technical 
Review Panel, how you thought that the EPA was responding and 
at what point the panel disbanded and for what reason?
    Mr. Newman. The broad mandate, as you know, of the WTC 
Expert Technical Review Panel was to assess any remaining 
health risks posed from the events of 9/11 and to determine 
appropriate approaches to deal with questions of public health. 
The panel, I think, in my opinion, was faced with three major 
broad goals. No. 1, to assess the extent, if any, of remaining 
indoor contaminants. No. 2, to devise--and that was through a 
sampling plan--and the second was to devise an appropriate 
clean-up plan to address any remaining contamination. No. 3, to 
address broad issues of public health related to the events of 
9/11.
    We engaged in extensive collegial discussion over a lengthy 
period of time on these and other issues. The ultimate, 
unfortunate result was the determination by EPA to disregard 
virtually all of the suggestions and concerns expressed by the 
panel, shut down the panel and proceed with a sampling plan 
devised by EPA that was not reflective or responsive to the 
discussions and recommendations of the panel.
    Senator Clinton. At any time, did anyone from EPA advise 
you or advise the panel that they were disregarding your 
recommendations for financial reasons?
    Mr. Newman. The issue of finances was a big and continuing 
one throughout the course of the panel's meetings early on. A 
number of panel members, including myself but also others, 
questioned, asked for some guidance from EPA as to how we were 
to structure our discussions with regard to the question of 
finances. That is, are we operating under budgetary constraints 
in attempting to design a sampling and cleanup program, or are 
we to provide the best scientific advice that we were able to 
come up with, disregarding any financial constraints. They told 
us at the beginning and on several occasions thereafter that we 
were to disregard any budgetary constraints.
    However, during the course of the panel process, it became 
very clear, in fact, the representative from FEMA who sat in an 
ex officio position on the panel told Panel members at a Panel 
meeting that the budget was in fact pre-determined and limited 
to the $7 million remaining in the FEMA fund from the prior 
cleanup, at which point we again attempted to enter into some 
substantive discussions as to how, should a sampling and 
cleanup plan be devised, how budgetary constraints would impact 
on the design of that plan. We were again told not to consider 
those factors. Then at the very end, as we know today, that 
virtually the entire design of the plan is limited precisely by 
those budgetary constraints.
    Senator Clinton. Thank you, Mr. Newman.
    Senator Lautenberg.
    Senator Lautenberg. I won't keep the panel long, Mr. 
Chairman. But Mr. Newman and Ms. Lavin, thank you very much for 
your testimony. The contradiction to what we heard earlier is a 
contrast that has to be noted. It seems to me obvious that 
there was an attempt by the Administration to downplay the 
risks. You attribute it, Mr. Newman, I think primarily to the 
financial side.
    But I think there was some other sinister motive that was 
there, and that was to not look like we weren't ready for 
anything, that it was done in many ways in an arrogant and 
almost boastful manner. When we see that there was any denial 
that there was an attempt to influence the press release, it 
just doesn't square with what we see. The precautionary 
statement, this was in the IG's report. In the draft version of 
September 13, 2001, press releases were removed and replaced 
with more reassuring statements, for example, second clause of 
the caption of the draft, the press release was noted that EPA 
was testing for environmental hazards was replaced with a 
statement reassuring the public about environmental hazards.
    Did you see that in your work on your committee in 
assessing what had taken place there? Was there anything 
obvious to you that said they just didn't want people to know 
what was out there? Let me remove the coloration, you do it 
yourself.
    Mr. Newman. The panel did not review or assess EPA's early 
risk communications to the public. So with regard to that 
aspect of your question, I don't have an answer.
    Senator Lautenberg. OK.
    Mr. Newman. But the panel did struggle with the broad 
mandate of assessing any remaining risks to public health. The 
form that that struggle took was, there were many members of 
the public who expressed in the public comment period at panel 
meetings a desire to not only address the issue of whether 
there was any residual contamination and the implementation of 
a sampling and cleanup program, but to also investigate the 
issue, broader issues of public health from 9/11 with, for 
example, the lack, at least initially, the lack of Government 
oversight as to the demolition of heavily contaminated high-
rise buildings; the issue of various impacted populations who 
were exhibiting adverse health consequences and their inability 
to get access to proper medical care; the questions of 
additional research and funding for research that was needed. 
These issues, which were raised by members of the public during 
the meetings as well as by Panel members, including myself and 
others, were short-circuited and the panel did not consider 
those issues.
    Senator Lautenberg. You said that EPA used a helicopter, if 
I understood, to assess the spread of the dust.
    Mr. Newman. They used aerial photographs. I don't know if 
it was from a helicopter or not.
    Senator Lautenberg. How far did any of your research tell 
you physically was the spread of the dust from the fallen 
building?
    Mr. Newman. As a number of people have testified today, we 
don't have that data. It is now almost 6 years later. As the 
gentleman from GAO testified, there is yet to be a 
comprehensive, targeted, science-based assessment of the 
geographic extent of the dispersion of World Trade Center 
contaminants. So we do not have that answer.
    So anybody who gets up here, myself included, and says 
either that it was widely dispersed or that it was not widely 
dispersed, that is not a science-based statement. We do not 
have that data. There is the potential for wider dispersion and 
we acknowledge that potential and we are concerned about that. 
But in terms of data, we don't have it.
    Senator Lautenberg. I would like to ask, how many people 
died in the aftermath of 9/11 from their exposure to the dust 
and smoke? Have those deaths been officially recognized? Do you 
have any evidence to that effect?
    Mr. Newman. We have a fairly large number of anecdotally 
reported deaths, that is, deaths reported through the media, 
deaths reported by family members, et cetera. These are deaths 
of people who are, by their exposure history, at and around 
Ground Zero, are presumed to have had exposure to 9/11 
contaminants. However, in terms of clinically confirmed deaths, 
the number is very, very low. We have the recent one that was 
referred to by Senator Clinton. We have, of course, Police 
Officer Cedroga.
    Senator Lautenberg. How about the number who have put in 
their request for attention to their problems? Respiratory, 
people unable to work, there is a substantial number of people 
from the fire department who were unable to continue with their 
jobs.
    Mr. Newman. Absolutely. In terms of the medical monitoring 
programs that exist, that is the World Trade Center Medical 
Monitoring Program and the New York City Fire Department 
Medical Program, as the two primary in this case, we have tens 
of thousands of cases of clinically confirmed, clinically 
diagnosed persistent respiratory and other medical conditions, 
absolutely.
    Senator Lautenberg. Madam Chairman, thanks for conducting 
this hearing and for bringing the attention that it deserves to 
the public forum. Thank you.
    Senator Clinton. Thank you very much, Senator Lautenberg.
    Ms. Lavin, I just wanted to thank you for coming to 
testify. Also to ask you to describe your experience with the 
Bellevue program, because as I said at the very beginning, we 
are finally going to be able to provide some Federal support 
for the medical treatment program at Bellevue for residents. 
That has not been included before. We were able to obtain that 
in the last 48 hours, as a part of the appropriations bill.
    Would you describe, if you can recall when you first went 
there and what the experience there was, and what their 
diagnosis and treatment for you has been going forward?
    Ms. Lavin. I first went there, I think it was March 2007. 
It was February or March, I don't recall the precise date. I am 
under the treatment of the Director, Dr. Reibman. So far, I am 
very pleased with the program, because it has been specifically 
designed, the doctors are coordinated there, and that is really 
a key element in treatment of the different symptoms of what 
are now known as World Trade Center Syndrome.
    So I think it is essential for them to have long-term 
funding and I hope that they will get more, because that will 
allow them to draw some of the best and the newest doctors, the 
strongest talent.
    Senator Clinton. I thank you for that.
    I would like to ask both of you to respond to maybe further 
written questions as we review the testimony. It would be 
useful to try to help complete the record in that way. I also 
want to thank you for representing so many people who have been 
afflicted by, in the first instance, their exposures and the 
second instance, the failure to accurately describe the toxic 
dangers and then to respond to the legitimate health needs that 
tens of thousands of people, as Mr. Newman said, are 
confronting.
    I am very grateful to everyone who participated in the 
hearing, and I want to thank you again, and we will continue 
with this, as I said in the beginning. Congressman Nadler will 
hold a companion hearing next week to focus on some additional 
issues, particularly concerned with the city and the city's 
response. So the hearing is adjourned.
    [Whereupon, at 12:40 p.m., the subcommittee was adjourned.]
  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
